<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2019</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





   COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2019

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              SECOND SESSION

                                __________


               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES

                  JOHN ABNEY CULBERSON, Texas, Chairman

  HAROLD ROGERS, Kentucky            JOSE E. SERRANO, New York
  ROBERT B. ADERHOLT, Alabama        DEREK KILMER, Washington
  JOHN R. CARTER, Texas              MATT CARTWRIGHT, Pennsylvania
  MARTHA ROBY, Alabama               GRACE MENG, New York
  STEVEN M. PALAZZO, Mississippi
  EVAN H. JENKINS, West Virginia

NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
 full committee, and Mrs. Lowey, as ranking minority member of the full 
 committee, are authorized to sit as members of all subcommittees.

               John Martens, Jeff Ashford, Leslie Albright,
            Colin Samples, Aschley Schiller, and Taylor Kelly
                            Subcommittee Staff

                                __________

                                  PART 5

                                                                   Page
Department of Commerce.......................................         1
National Oceanic and Atmospheric Administration..............       103
Oversight of the 2020 Census.................................       153



            [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                __________

		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
32-413                    WASHINGTON : 2018                 











                      COMMITTEE ON APPROPRIATIONS
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\              NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama              MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                       PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho                JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas              ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                    DAVID E. PRICE, North Carolina
  KEN CALVERT, California                  LUCILLE ROYBAL-ALLARD, California
  TOM COLE, Oklahoma                       SANFORD D. BISHOP, Jr., Georgia
  MARIO DIAZ-BALART, Florida               BARBARA LEE, California
  CHARLES W. DENT, Pennsylvania            BETTY McCOLLUM, Minnesota
  TOM GRAVES, Georgia                      TIM RYAN, Ohio
  KEVIN YODER, Kansas                      C.A. DUTCH RUPPERSBERGER, Maryland
  STEVE WOMACK, Arkansas                   DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska               HENRY CUELLAR, Texas
  THOMAS J. ROONEY, Florida                CHELLIE PINGREE, Maine
  CHARLES J. FLEISCHMANN, Tennessee        MIKE QUIGLEY, Illinois
  JAIME HERRERA BEUTLER, Washington        DEREK KILMER, Washington
  DAVID P. JOYCE, Ohio                     MATT CARTWRIGHT, Pennsylvania
  DAVID G. VALADAO, California             GRACE MENG, New York
  ANDY HARRIS, Maryland                    MARK POCAN, Wisconsin
  MARTHA ROBY, Alabama                     KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                   PETE AGUILAR, California
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\ Chairman Emeritus

                     Nancy Fox, Clerk and Staff Director

                                   (ii)

 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2019

                              ----------                              

                                           Tuesday, March 20, 2018.

                         DEPARTMENT OF COMMERCE

                                WITNESS

HON. WILBUR ROSS, SECRETARY OF COMMERCE
    Mr. Culberson. Good morning, ladies and gentlemen. The 
Commerce, Justice, and Science Appropriations Subcommittee 
hearing will come to order.
    First, I would like to welcome our witness, Commerce 
Secretary Ross, who is here with us this morning to discuss the 
Department of Commerce's fiscal year 2019 budget request.
    Secretary Ross, we are happy to have you here and we want 
to thank you for your service to the country.
    This is our first hearing of the year, so I want to remind 
our members that we will, as usual, follow the 5-minute rule, 
and I will, of course, not cut anybody off mid-sentence. We 
will recognize members in the order of seniority in which they 
have arrived at the hearing, going back and forth between the 
parties. And for latecomers, I will recognize you in the order 
in which you have arrived at the hearing.
    And while I am sure we will not always agree on the issues 
before the subcommittee, all members and witnesses will be 
heard and respected. And we always on this committee work 
together in a collegial and cordial manner, and always manage 
to find a way to get our work done, because this subcommittee 
is pure good, all the things that we do are pure good.
    And I want to get back to the matter at hand. In the last 
year, the Department of Commerce forecasted and responded to 
the 2017 Atlantic Hurricane season, which included Hurricane 
Harvey in Houston, which is the largest housing disaster in the 
history of the country. I have still got tens of thousands of 
constituents who are living on the second floor of their homes, 
were forced to move. The disaster was just catastrophic. And 
the Weather Service, as a part of their forecast fleet, 
launched flagship weather satellites, NOAA-20 and GOES-17, as 
well as released an updated cost estimate for the census, which 
is the first thing I want to visit about this morning, Mr. 
Secretary.
    We expect this diverse work to continue in 2019 when the 
Commerce Department will continue to execute its important 
missions, including preparing for the 2020 census; forecasting 
the weather; managing our fisheries; exploring the oceans, 
which is especially important in this era when the Chinese 
control 98 percent of all rare earth elements produced on 
earth. We have got the exclusive economic zone of the United 
States, which expands the area of the United States by about 50 
percent and contains vast amounts of rare earth elements. The 
Department also administers our patent and trademark laws.
    And, in executing these missions, Mr. Secretary, we hope 
you will continue to bring your extraordinary skill set and 
innovative cost-saving ideas from the private sector to the 
Department. I am especially interested in hearing any 
suggestions you have got on how the subcommittee can help you 
give you more authority to do what you do best and that is to 
achieve efficiency, productivity, and to make not only the 
Census Bureau, but the entire Department run more efficiently 
and effectively.
    The budget recommendation, which was developed by OMB 
before there was an agreement on adjusting the budget caps, 
proposes reshaping the Department to focus on the highest-
priority missions, while significantly reducing funding for 
other activities across the Department. We will carefully 
consider the President's budget request to ensure that we are 
responsibly funding critical Department of Commerce activities 
while protecting our constituents' very precious, very scarce, 
and hard-earned tax dollars.
    In this hearing and in the coming months, I look forward to 
discussing how we can work together to ensure that the 2020 
census and weather satellite programs are staying within their 
projected costs and achieving their important goals.
    Before we proceed, I would like to recognize my colleague 
and good friend Mr. Serrano for any remarks that he would like 
to make.
    Mr. Serrano. Thank you, Mr. Chairman. And I would like to 
join you in welcoming the Secretary of Commerce, the Honorable 
Wilbur Ross, back to the subcommittee.
    The Department of Commerce is vital in promoting job 
creation and opportunity for all; understanding our planet; 
ensuring fair trade conditions for our businesses and workers; 
providing accurate data to our nation's lawmakers and 
businesses; and assisting under-served and economically 
distressed communities. Unfortunately, the budget request 
undermines several of these key missions.
    The President's budget for fiscal year 2019 requests $9.8 
billion for the Department of Commerce, which is $573 million 
or a 6.2 percent increase from the 2017 enacted level. This 
level of funding, while an increase from last year's request, 
endangers core missions at the Department.
    For example, the budget once again, very foolishly, 
proposes the elimination of critical agencies and programs such 
as the Economic Development Administration and Manufacturing 
Extension Partnership or MEP Program. EDA is the only agency 
across the Federal Government that focuses exclusively on 
economic development and economically distressed areas around 
the Nation, while the MEP equips our small and medium-size 
manufacturers with the resources needed to grow and to thrive.
    It is estimated that for every $1 of Federal investment the 
MEP national network generates $17.90 in new sales growth for 
manufacturers and $27 in new client investment.
    In short, this program enhances the productivity and 
competitiveness of small and medium-size manufacturers and 
creates well-paying jobs, while reducing our trade deficit with 
other countries. It is also an agency with strong bipartisan 
support in Congress, which demonstrates how politically tone 
deaf this proposal is.
    Another agency that is severely cut by more than 70 percent 
is the Minority Business Development Agency. This agency 
promotes the growth of minority-owned businesses and helps them 
compete in the world economy, and it is the only Federal agency 
with this focus.
    The budget also proposes a $43 million cut to the U.S. 
Commercial Service, and calls for the closing of 35 posts 
overseas and ten U.S.-based Export Assistance Centers. This 
program supports and creates American jobs by helping U.S. 
businesses and workers to export more products.
    These budget cuts, if enacted, will hurt small businesses 
and workers in economically distressed areas.
    In a different area, the President's budget severely 
undermines NOAA's mission by decreasing its funding by more 
than $1 billion, a more than 19-percent decrease. In 
particular, the budget proposes to zero out funding in targeted 
NOAA grants and programs that support coastal and marine 
management research and education benefitting industry, States, 
and local stakeholders.
    The Regional Coastal Resilience Grants, for instance, 
ensure that our states and communities are prepared to face 
changing ocean conditions, from acidification to sea level 
rise, as well as major catastrophes. We need to make sure that 
we are here to help our coastal communities to be more 
resilient in the face of climate change and we must allow our 
marine research programs to continue as necessary for America's 
economic and environmental health.
    I am particularly concerned about the status of 
preparations for the 2020 census, which is behind in schedule 
and has been under funded. There are major issues that are 
still unresolved that will impact the rollout and response 
process, including a lack of permanent leadership, that the 
Bureau fears that we have not sufficiently tested in urban and 
minority-language communities, and the need to quickly ramp up 
outreach in traditionally under-counted areas.
    I am also deeply troubled about a highly political request 
that the Department of Justice made to the Department last 
December, asking the Bureau to add a question on citizenship 
status to the form. This question was not previously considered 
or tested by the Bureau, nor was it included in last year's 
report to Congress on the topics to be included in the 2020 
census.
    Including such a question would drive response rates down 
in minority and immigrant communities, increasing costs and 
harming accuracy. Unfortunately, this request seems purely 
partisan, as evidenced by yesterday's email from the Trump 
campaign attempting to fund raise off this very issue.
    It is also important to note that none of the affected 
communities asked for this question to be included in the 2020 
census.
    Congresswoman Meng and I wrote to you in a letter earlier 
this year and made these points to you. I look forward to 
hearing more from you on these issues.
    There are many, many other issues that we have to discuss, 
Secretary Ross, but understand that our desire is to make the 
Department respond more efficiently and more properly, it is 
never to be adversaries, unless we see real harm being done. 
But we are worried, very worried on this side about the census 
asking questions that will undermine the count rather than 
build the count up to where it should be.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Serrano.
    Mr. Secretary, we are delighted to have you here with us 
this morning and we look forward to hearing your summary of 
testimony, and your written testimony will be entered into the 
record in its entirety, if there is no objection.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Mr. Secretary, thank you very much. We look 
forward to hearing from you.

                 Statement of the Secretary of Commerce

    Secretary Ross. Thank you, Chairman Culberson, Ranking 
Member Serrano, and members of the House Appropriations 
subcommittee. Thank you for this opportunity to discuss 
President Trump's fiscal year 2019 budget request for the U.S. 
Department of Commerce.
    And thank you for enabling the Department to meet its major 
strategic objectives of helping the American economy grow and 
ensuring our national security. We are accomplishing this by 
preparing for a successful 2020 Decennial Census; providing the 
observational infrastructure and personnel to develop timely 
and accurate weather forecasts; by supporting investment in job 
creation, and helping American businesses and industries 
compete globally in a fair and secure environment.
    To that end, the Department of Commerce's fiscal year 2019 
budget request of $9.8 billion in funding is a 6-percent 
increase from the fiscal year 2018 continuing resolution. It 
does not include the $1 billion that was recently appropriated 
to the Department as part of the Supplemental Assistance 
Package enacted in the aftermath of the severe storms in Texas, 
Florida, Puerto Rico, and the Virgin Islands.
    The fiscal year 2019 budget makes key strategic 
investments. A few highlights. The 2020 Decennial Census is the 
Department's top priority. A complete and accurate Decennial 
Census is critical, as it informs the policymaking process and 
apportionment.
    To support this critical endeavor, the Department's fiscal 
year 2019 budget requests $3.8 billion for the Census Bureau, 
$3.1 billion of which will directly support 2020 census 
operations. The proposed $2.3 billion increase from the fiscal 
year 2018 continuing resolution reflects the Department's 
commitment to count everyone.
    With its $1.6 billion request for the National 
Environmental Satellite and Data Information Service, NOAA will 
continue its work to deploy the next generation of weather 
satellites and observational infrastructure. These satellites 
will provide faster, more accurate, and more detailed data than 
legacy satellites to track storm systems, lightning, wildfires, 
coastal fog, and other hazards.
    When President Trump tapped me to serve as the Commerce 
Secretary, I vowed to work hard to reduce the nation's trade 
deficit. Increased enforcement of our trade laws has been a 
major effort in this regard. We requested $440 million for the 
International Trade Administration. ITA will use the requested 
funding to hire more subject matter experts and enhance its 
trade enforcement and analysis capacity for anti-dumping and 
countervailing duty investigations, and in support of Section 
232 investigations.
    ITA's budget includes more than $90 million, an increase of 
$6 million from 2018, for enforcement and compliance programs.
    To continue building on these important enforcement and 
national security initiatives, $121 million is requested for 
the Bureau of Industry and Security, an $8.9 million increase 
from the 2018 continuing resolution. BIS has a remarkably broad 
impact on our national security and this increased funding will 
enable them to hire additional staff to address an increased 
workload.
    The fiscal year 2019 budget seeks to transform the Minority 
Business Development Agency into a policy-focused operation 
that can better assist minority business across America. 
Consistent with this transformation, the budget proposes to 
eliminate funding for MBDA's business centers. Instead, MBDA's 
fiscal year 2019 budget will allot its present 50 positions for 
this new endeavor no change in number of personnel, which will 
ensure minority entrepreneurs have access to the resources they 
need to create jobs and help fuel our nation's prosperity.
    These are just a few highlights from our fiscal year 2019 
budget submission. I look forward to getting into more detail 
with you as you ask your questions.
    Thank you.

                          2020 CENSUS FUNDING

    Mr. Culberson. Mr. Secretary, thank you very much.
    As you mentioned, the census is constitutionally required 
and the Department is preparing ramp-up activities for the 2020 
census. About 70 percent of those costs will be incurred over 
the next two fiscal years and the Department now estimates the 
total cost will be over $15 billion, an increase of 3 billion 
from the previous cost estimate. And I know you are doing 
everything within your power to ensure that our constituents' 
very precious, hard-earned, and scarce tax dollars are spent 
frugally and effectively on the census.
    And I would like to ask you, what could this committee do 
to help you and empower you to do what you think you need to do 
to make the Department, and the census in particular, more 
efficient and productive, and what steps are you taking to 
contain the costs of the 2020 census, and to make sure that the 
IT systems are cost-efficient and secure?
    Secretary Ross. Well, thank you. Those are very, very good 
questions, Mr. Chairman. I will especially try to address what 
are we doing to try to make sure we live up to the budget I 
just presented.
    As you know, the original budget submitted well before my 
time severely underestimated some of the costs that would be 
involved and severely overestimated the economic benefits that 
would come from changes in technology.
    I have been devoting quite a bit of my personal time, as 
has Karen Dunn-Kelly and as has the Career Management, who is 
now in charge on an acting basis of the census day-to-day.
    To give you a little example of the differences between how 
things were run before and how they are run now, we have 
developed a monthly monitoring system, which is illustrated 
here; it shows the actual progress in the workload and actual 
monies expended, in both cases relative to our forecast. We 
also have routine census-critical path reports with a summary 
of the technical integration status, again, actual versus 
budget and results versus projected results, and we do that in 
every single sub-segment of all of the budget categories.
    None of those processes and procedures had been used in the 
2010 census and none, frankly, had been used prior to our 
administration.
    In addition, we have a critical path system that we follow. 
The green, which happily dominates this whole diagram, are ones 
that are on schedule and on or below budget. The orange colors 
are those about which we are somewhat concerned. You will see 
they are relatively few and relatively small at this early 
stage. There are no red ones, which so far means there are none 
that we view as being in very serious danger of big overruns.
    The reason we are indulging in such intense measurement is 
it is my belief that what you can't measure, you can't manage. 
So we are trying in excruciating detail to manage the 
intricacies of the costs. This is one of the most complicated 
management tasks that will confront any government agency, the 
introduction of all these new technologies and the act of 
hiring over 500,000 enumerators part-time to do the census in 
2020. The hiring was not such a huge task in 2010, because the 
country was unfortunately in a recession, so there were plenty 
of people available. In 2020, we are liable to have a much more 
difficult time hiring people. And so one of the big tasks ahead 
of us is how to accomplish finding that many people, getting 
them trained with the technology, and getting them out there to 
do faithfully the enumeration of every person where that person 
resides.
    Mr. Culberson. Right. I know that FEMA has had difficulty 
hiring inspectors and adjusters to come out and inspect homes 
for people affected by the hurricanes----
    Secretary Ross. Yes.
    Mr. Culberson [continuing]. For that very same reason, but 
the reforms that you have put in place, commonsense, good 
business practices, I know all of us are very grateful for that 
and you have seen results. And I am confident you have a lot of 
very competent people at the Census Bureau and in the 
Department who you probably discovered just hadn't had the 
scrutiny or the oversight, or the measurement, as you said 
before, of their work, which sounds like you are heading in the 
right direction.
    So you are encouraged. What are some of the frustrations 
you have encountered in your first year at the Department of 
Commerce that differ from what you saw in the private sector 
and what could this committee do to help give you greater 
authority to help manage and encourage productivity at the 
Department?
    Secretary Ross. Well, I think the main thing the committee 
could do would be, we intend to prepare a very detailed 
accounting of lessons learned as we complete the 2020 census 
and we hope that that will form a basis for continued guidance 
by the committee as we move toward the 2030 census, because the 
2030 census will be conducted in a somewhat different fashion 
even from the 2020 based on what we have learned and based on 
the full application of technology and use of administrative 
records.
    The other thing would be, most importantly, to support our 
budget request. We feel that as to all the knowable unknowns, 
which may sound oxymoronic, but we have tried to risk-adjust 
our budget for the knowable unknowns. Given the complexity and 
the scale of this activity, there is a risk of unknowable 
unknowns, and that was why we had originally proposed a 10-
percent additional contingency of unallocated funds. That is 
not normal practice for an agency, but I wanted to remind 
everyone that was part of the request originally, it is not in 
the budget. We are going to try our level best to live without 
needing any contingency, but if something truly unknowable 
comes up, we may, unfortunately, have to come back.

                      CENSUS AUDIT RECOMMENDATIONS

    Mr. Culberson. Mr. Secretary, very quickly, the Government 
Accountability Office made 33 recommendations to improve the 
efficiency of the 2020 census and the Department has yet to 
implement those recommendations. Some of them go back to 2007. 
I know that is a source of frustration for you, sir. And I know 
when you were in the private sector, if your auditor told you 
to do something, you wouldn't wait 11 years to do it. When do 
you plan to implement them and what, if anything, can this 
committee do to help you in that effort?
    Secretary Ross. Well, as to the GAO, they made 84 very 
detailed and very helpful, and, in my view, very useful 
recommendations. Of those, 51 have been closed as we sit here. 
Five are not due yet; by their very nature, they have a later 
due date than the present. There are 14 that are ongoing, life-
cycle cost estimates, so those cannot be completed until we get 
further----
    Mr. Culberson. OK.
    Secretary Ross [continuing]. Into the process. Of the 
remaining 14, we have submitted documentation to GAO and we are 
hopeful that perhaps half of them could be resolved within the 
next month or so, and that the final seven hopefully could be 
resolved within 3 months. So that is where we stand precisely 
on the GAO recommendations. They have been very cooperative, 
very helpful, and we are very grateful for their support.

                        CENSUS BUREAU MANAGEMENT

    Mr. Culberson. Since this is really extraordinarily 
important, I know you have got it at the top of your list, and 
when do you expect to have a permanent director in place?
    Secretary Ross. Well, first of all, I have total confidence 
in the long-term career people who are now the acting number 
one and number two in Census. They have combined 52 years of 
experience, so they are very, very thoroughly experienced in 
Census. And while they are not 100-percent accustomed to this 
kind of management process, the work with Karen Dunn-Kelly, 
myself, and outside consultants that we have brought in, both 
technology consultants and people with prior experience in the 
2010 and earlier censuses. So those are on an ongoing basis. We 
continually are scrubbing things; we meet quite regularly with 
the contractors and the subcontractors.
    One of the many complexities here is that they decided to 
do a lot of subcontractors. There typically is a relatively 
small firm who was awarded the general contracting for a 
particular area and then some very large firms as 
subcontractors. Initially, that created some obscurity as to 
what was actually going on, because there wasn't direct 
interaction with the subcontractors. We have changed all that. 
We meet with the GC, we meet with the subcontractors on quite a 
regular basis, and have some, as the diplomats would say, frank 
and open discussions with them.
    Mr. Culberson. Thank you very much.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.

                            CENSUS QUESTIONS

    Secretary Ross, I know from your testimony that you take 
the administration of the census very seriously and part of 
that duty is to administer in a nonpolitical, nonpartisan way, 
is that correct?
    Secretary Ross. Yes, sir.
    Mr. Serrano. Should political parties and campaign politics 
ever factor into what is asked of every household in the 
country on the census?
    Secretary Ross. No political party has asked us to do 
anything on the census. We have had a request, as everyone is 
aware, from the Department of Justice to add a citizenship 
question to the 2020 census.
    Mr. Serrano. Thank you. The reasons I asked the first 
question is because I was very disappointed to see yesterday 
that the Republican party campaign to reelect the President put 
out an appalling email specifically noting that the President 
wants a new citizenship question added to the census and 
seeking campaign supporters to weigh in if they are, quote, 
``on his side,'' end quote.
    Do you disavow this campaign email? Has the President or 
anyone else in the White House directed you to add this or a 
similar question to the 2020 census?
    Secretary Ross. I am not familiar with the email. I am not 
part of the Republican campaign committee, so I have not seen 
it; I have heard about it this morning. We are responding 
solely to the Department of Justice's request, not to any 
campaign request, not to any other political party request.
    We are listening to stakeholders, many have written to us, 
some have come in to talk with me, and we have initiated a cold 
series of phone calls to stakeholders on both sides of the 
question. We will come to a conclusion prior to March 31st, 
which as I understand it is the date by which we must submit 
the questions to the Congress. We will comply with that date. 
And we are going very, very carefully and very thoroughly, 
analyzing all aspects of the request and its implications for 
the census were it to be approved and were it not to be 
approved.
    Mr. Serrano. Thank you. I am not a lawyer and certainly not 
a constitutional lawyer----
    Secretary Ross. Neither am I, sir. I am a civilian.
    Mr. Serrano. OK. But the Constitution is pretty clear to 
me, even though I am not a lawyer, it says count the people 
within the states, not the citizens. And some Federal agencies 
bring fear to people that are here as immigrants, who were not 
born here, and the purpose of the census should be to increase 
the count every 10 years, make it better, and this question 
troubles us a lot.
    Mr. Secretary, staying on that line. In March 2017, the 
Department sent to Congress a list of subjects planned for the 
2020 census. Then in December of 2017, the Justice Department 
wrote to the Acting Director of the Census Bureau, asking that 
the Census Bureau include on the 2020 census questionnaire a 
question regarding citizenship. Many advocates and stakeholders 
have expressed strong concerns that including such a question 
will discourage many communities from participating in the 2020 
census.
    Question, Mr. Secretary. Since this topic was not included 
in the March 2017 report to Congress on the topics to be 
covered in the 2020 census, may we assume that the Commerce 
Department itself is not supportive of adding this question?
    Secondly, would you agree that it would be totally 
inappropriate to include any question that has not been 
thoroughly tested in the lead-up to the census?
    Secretary Ross. We have not yet made a decision on the 
Department of Justice request. It is a very big and very 
controversial request. We are taking it very seriously, but I 
have not yet made a decision.
    I would like to address, though, what steps are we doing to 
make the 2020 census more accessible to people whose first 
language is not English, perhaps don't even have English as a 
language, what we are doing to call their attention to the 
census, to its importance, and to the privacy of their 
responses. So, if I may, I would like to describe a few of the 
steps that we are taking.
    First of all, we are using many more languages in the 
census than was used in 2010. 2010 used as an alternative to 
English-Spanish, Chinese, Vietnamese, Korean, and Russian, five 
languages. We are including those five plus Arabic, Tagalog, 
Polish, French, Haitian-Creole, Portuguese, and Japanese. That 
is twelve languages versus five. That new list should cover 
95.3 percent of all those who are limited English speaking 
households in the country, so it is, for all practical 
purposes, everyone. \1\
---------------------------------------------------------------------------
    \1\ Clerk's note: The Department of Commerce corrected this 
percentage of coverage to 87 percent.
---------------------------------------------------------------------------
    The Q&A paper questionnaire and mailing materials, every 
one of them will be immediately in both Spanish and in English. 
The additional support materials will be in 59 languages, 
including the ones that I mentioned before. And the ads and 
partnership material also will be quite multi-lingual. We also 
will have in the call centers multilingual people able to 
converse with folks in their native tongue.
    So those are the things we are doing to try to make 
language less of a barrier to people's responses.
    In terms of media, we are going to have far more, hundreds 
of millions of dollars more spending on the communications 
program, which is organized by Y&R. It will be multilingual. It 
in fact has included among its subcontractors firms who 
specialize in media for non-English language citizens and 
residents.
    Further, we are increasing the number of partnership 
specialists. Last time in 2010, there were 700 partnership 
specialists hired by the census; we will have 1,000 partnership 
specialists. \2\
---------------------------------------------------------------------------
    \2\ Clerk's note: The Department of Commerece updated the number of 
partnership specialists in 2010 to be approximately 800.
---------------------------------------------------------------------------
    The partnership concept is one that embraces local 
community organizations, health organizations, local 
governments, all sorts of things, and we have already signed up 
local governments that constitute well over 90 percent of the 
population to cooperate with us.
    In addition, for the first time we will be having kiosks in 
the U.S. Postal Service branches. I don't know how well you can 
see these, but there are big banners, 14-by-70-inches, going 
up, promoting the census. There will be an instruction booth 
that one can access on a computerized basis. There are table 
stands which will hold hand-helds, so that people can fill out 
the form.
    So we are doing everything to make this census more 
accessible to everybody regardless of native tongue or 
inclination. We are working very, very hard at it and I think 
it will produce good responses.
    In addition, for the first time people have online response 
capacity; they are not required to respond online, but it is an 
additional facility. So now you can respond by Internet, by 
telephone, or by the physical, written document.
    And if all that fails, even after repeated mailings and 
repeated phone calls, we will have door-to-door enumerators 
coming multiple times.
    So, as a former enumerator myself, I can promise you I 
understand the process, I understand its importance, and we 
will get it done.
    Mr. Serrano. Thank you. And I appreciate all that you are 
doing to make this census a better census than any other 
before.
    Let me just close by saying this very briefly. We may have 
in this country, in fact we do, an immigration issue to deal 
with and it is going to take both parties to come together to 
resolve it, fix it, fix what is broken, but I don't think the 
census should be used to create more division, more fear, more 
hiding from people who should come forward and be counted. So, 
when you make your decision--I shouldn't tell you, you are a 
tough guy--don't be afraid to tell somebody, ``Have you read 
the Constitution?''
    Thank you.
    Mr. Culberson. Thank you, Mr. Serrano.
    I am pleased to recognize the gentleman from New Jersey, 
chairman of the full committee, Mr. Frelinghuysen.
    The Chairman. Great. Welcome, Mr. Secretary. Thank you for 
a distinguished career outside the responsibility you have 
taken on and I know you are a good spokesman for the present 
administration.
    So let me direct this to your staff more than to you. I 
often say in my opening remarks that the power of the purse 
resides in this committee and of course the power of the purse 
affects public policy. And you and I have yet to be acquainted. 
You have been on the job for over a year. I say to the 
Secretary's staff, the power of the purse resides with this 
Committee, and I think it is about time that you and I became 
acquainted.
    I find it odd that we are engaged in a trade war, and you 
can tell from the tone of my voice what I think of it, but I 
respect the fact that you are extremely knowledgeable, and 
there has not been a consultation with the members of the 
Appropriations Committee.
    I know we have great leadership, Chairman Culberson here, 
great leadership on Mr. Serrano's part, but, I worry as a 
Member of Congress representing Northern New Jersey where we 
have a lot of our major corporations, and as I travel around 
the world and see us stepping back from certain 
responsibilities militarily or in some cases taking on 
responsibilities that perhaps we shouldn't, I worry that now we 
are engaged in a trade war, which is further going to alienate 
us from our adversaries.
    So I just want to say for the record, I look forward to 
discussing some of these matters with you and appreciate your 
time and effort, but it is this committee that provides the 
resources for all of our trade negotiations and it might be 
good to recognize through maybe steps to follow after this 
hearing that the communications can be improved.
    Thank you, Mr. Chairman.
    Secretary Ross. Congressman Frelinghuysen, I will ask my 
staff this afternoon to talk with your staff and arrange for us 
to get together. I am sorry if we have not taken the initiative 
prior to this.
    Mr. Culberson. I want to recognize the gentleman from 
Washington State, Mr. Kilmer.

                  TRIBAL CONSULTATION ON HALIBUT QUOTA

    Mr. Kilmer. Thank you, Mr. Chair, and thank you, Mr. 
Secretary.
    It has come to my attention that several tribal leaders 
from my district have written to you and requested formal 
government-to-government consultation before a decision is made 
regarding the allocation of halibut quota in Area 2-A where 
these tribes hold treaty-reserved fishing rights under the 
Point Elliott Treaty of 1855.
    We have copies of the letters and, with the permission of 
the Chair and the Ranking Member, I would like to submit those 
for the record.
    Mr. Culberson. Yes, you may.

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Kilmer. Thank you.
    The formal consultation process is part of the Federal 
Trust responsibility, it is an essential component of meeting 
our treaty obligations to Federally-recognized tribes.
    So I would like to know how you have responded to these 
requests, whether you will commit to engaging in formal 
consultation with each of these affected tribes before 
finalizing any decision on rulemaking that will affect the 
allocation of halibut quota in that area.
    Secretary Ross. As you know, the fisheries operation is 
part of NOAA and I have requested NOAA to engage with the 
tribal leaders.
    Mr. Kilmer. Thank you. And do you know, will that be a 
formal consultation?
    Secretary Ross. NOAA is going to work that out with the 
leaders.

                     EXPORT-IMPORT BANK OPERATIONS

    Mr. Kilmer. OK. On another note, the Export-Import Bank 
doesn't have a quorum and it is unable to do deals over $10 
million and, as a consequence, there is over $35 billion in 
pending deals that are stuck in the pipeline without being able 
to be approved with a board quorum. Without a quorum, these 
deals are in jeopardy, which will result in the loss of 
American jobs.
    So, two questions. One, do you agree that the Export-Import 
Bank needs to be fully operational; and, secondly, when will 
the Administration send a new chairman nominee?
    Secretary Ross. Well, I am not aware that the 
Administration intends to send a new nominee or does not; I 
just am not aware where they stand. That is not a decision that 
will be made within Commerce, that is a decision that will be 
made solely within the White House.
    I am on record as suggesting that I do believe we need a 
financing mechanism to help us in international trade, if for 
no other reason than the extremely sturdy activities of China, 
European Union, and other parties.
    So in terms of the overall objective, we need to solve the 
financing issue, but I am not privy to any decision that the 
President has made regarding any other nominees for the Ex-Im 
Bank board. I do sit on it as an ex officio member, but that is 
the only real relationship that I have at this moment with the 
Ex-Im Bank.
    Mr. Kilmer. Coming from the most trade-dependent state in 
the country, we would sure like to see that to be fully 
operational.
    Secretary Ross. I understand that, sir.

                       STEEL AND ALUMINUM TARIFFS

    Mr. Kilmer. Finally, Commerce Department decisions on 
exclusions from impending steel and aluminum tariffs will be 
made on a company-by-company basis rather than by product, and 
granting an exclusion from tariffs to one company means that 
that company gains a potentially huge economic advantage over 
its competitors. Given that, it is important that the process 
be impartial and fair.
    So how will the Commerce Department make sure that 
companies with political and business connections to President 
Trump are not favored in that process, and will the process be 
open and transparent?
    Secretary Ross. Well, the process will be open and 
transparent. We have posted a notice in the Federal Register 
and on our website earlier this week and accompanied that with 
a press release. We have shortened the time period, we are not 
requiring big, long, protracted things, because we want to 
minimize the amount of inconvenience that any of the affected 
parties will suffer as a result of the process.
    So we are gearing up to be fast, to be fair, and to be 
practical.
    Mr. Kilmer. It looks like my time is up.
    Thank you, Mr. Chairman.
    Mr. Culberson. Thank you, Mr. Kilmer.
    I am pleased to recognize at this time the former chairman 
of the full committee, the gentleman from Kentucky.

                            COAL COMMUNITIES

    Mr. Rogers. Mr. Chairman, thank you very much for 
recognizing me.
    Secretary, welcome. We are glad to have you here again.
    As you helped lead the Administration's efforts to boost 
the American economy, particularly in trade and particularly in 
juxtaposition from China, as you lead those efforts, we cannot 
afford to leave behind Americans in certain sections of the 
country like mine. So I want to ask you about the Economic 
Development Administration, which you have proposed to zero out 
for the second straight year. We disregarded your 
recommendations last year and I have hopes that we will do the 
same for the coming year.
    As you explicitly note in your budget proposal, ``The EDA 
has led the Federal economic development agenda for over 50 
years by promoting innovation and competitiveness, preparing 
American regions for growth and success in the worldwide 
economy,'' end of quote. I entirely agree with you.
    Further, your own evaluations show EDA programs have 
exceeded performance goals in private sector investment in 
distressed communities and jobs created as a result of EDA 
grants. Yet, for the second year in a row, you propose to 
eliminate the agency entirely.
    Now, here is a knowable known, a knowable known. My 
district is among the poorest, most economically distressed 
congressional districts in the country. In more than half of my 
30 counties, more than half, at least 30 percent of residents 
live below the poverty level. Even the county with the lowest 
percentage is still well above the national average. This dire 
need is exactly why over the years, these 50 years, this EDA 
administration has been so helpful to us in recruiting jobs to 
keep our people at home and to prevent starvation.
    Mr. Secretary, I am very concerned about this proposal, how 
it would affect rural America, and I would like to hear your 
answer.
    Secretary Ross. Thank you for that question.
    The Administration's 2019 budget prioritizes rebuilding the 
military and making critical investments in the nation's 
security. It also identifies the savings and efficiencies 
needed to keep the Nation on a responsible fiscal path. The 
Administration has made the necessary tradeoffs and choices, 
difficult choices inherent in pursuing these goals. This means 
changing the role and size of the Federal Government and 
prioritizing the programs that provide a good return for the 
taxpayer, as well as those that serve the most critical 
functions, while consolidating or eliminating duplicative, 
ineffective, or less critical programs.
    Many difficult decisions were necessary to reach the 
funding level provided in this budget and, unfortunately, the 
elimination of EDA is one of those.
    Mr. Rogers. Well, within EDA, I am particularly troubled 
about the loss of money we have historically directed to assist 
coal-mining communities.
    Now, I come from the war field, the war on coal. I have 
12,000 laid-off coal miners in my district alone, who are able 
people, mechanically talented people, who are now trying to 
find a job at McDonald's, unsuccessfully, I might add. In the 
past, EDA has worked to help these types of communities that 
need some assistance from somewhere. The only place to turn to, 
frankly, Mr. Secretary, is EDA.
    I would hope that you could reconsider your budgetary 
recommendation in this regard.
    Secretary Ross. Yes, sir. I am sure you are aware, 
Congressman, that the President has tried very hard to end the 
war on coal, has tried very hard to make a more level playing 
field for the coal operators, and has developed a whole 
Appalachian strategy, which he is trying to implement.
    We also, as part of the negotiations with China, when we 
were over there in November, got agreement in principle on a 
huge project in the state that we think will answer to some 
degree the question of putting people to work. We are not 
running away from that objective, it is just this particular 
means of trying to achieve it doesn't seem to fit within the 
budget. And I am sorry to say that, because I like the EDA.
    Mr. Rogers. Well, so do I, as you may have suspected. But, 
yes, the war on coal was real, and this President promised to 
end that war and I think he has, but in the meantime we have 
got a lot of wounded soldiers on the battlefield who are 
desperately in need of some help from this President who 
promised to help.
    So, again, I would hope you would reconsider your decision 
to cut this agency, which you personally like, and so do I.
    Secretary Ross. Well, thank you, Congressman. We will give 
careful thought to that.
    Mr. Rogers. Thank you.
    Mr. Culberson. Thank you, Mr. Rogers. And of course the 
budget is simply a recommendation, which we appreciate very 
much.
    And I am pleased to recognize the gentleman from 
Pennsylvania, Mr. Cartwright.

                  ECONOMIC DEVELOPMENT ADMINISTRATION

    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Secretary, I want to follow up on Chairman Rogers' line 
of questioning. It seemed to me, and I might be incorrect about 
this, but when he asked you about, you know, why are you 
cutting EDA, Chairman Rogers was very eloquent in explaining 
the importance of EDA to depressed areas, areas that include my 
district as well, a former coal-mining region, and it occurred 
to me that you were reading the response, Mr. Secretary.
    You were talking about, I think you said, unsuccessful and 
duplicative programs in the Federal Government. You don't mean 
to say EDA was unsuccessful or duplicative, do you?
    Secretary Ross. Well, we do have the Small Business 
Administration, which helps local companies. We have proposed a 
very big infrastructure project or series of projects, a lot of 
which hopefully will help those areas that need capital 
investment, rural areas that need broadband and infrastructure 
needs that will facilitate economic development.
    So the Administration is not running away from the idea of 
helping. What it is doing is trying to have a reasonable 
overall budget, and that means we have to make very difficult 
choices, very uncomfortable choices, one of which is the EDA.
    Mr. Cartwright. Mr. Secretary, since taking office in 2013, 
I have seen firsthand how the EDA has provided opportunities 
for communities in my district. Despite this great work in my 
district and Chairman Rogers' district and across the country, 
what you call your laser focus on investing in our economy, 
despite all of that, the Administration, again, for the second 
year in a row, proposes to eliminate the EDA.
    Now, I am the lead Democrat on a bill that Chairman Rogers 
introduced called the RECLAIM Act, and Senator McConnell also 
in the Senate introduced that. That would inject $1 billion to 
benefit communities that have been significantly impacted by 
the declining use of coal. Even without the RECLAIM Act, the 
past Appropriations bills have directed $90 million per year 
administered by the EDA to help the exact types of communities 
this Administration has repeatedly claimed to want to help.
    So are you really suggesting that the Small Business 
Administration and this infrastructure program where 80 percent 
of the money has to come from local and state governments, are 
you really suggesting that those will effectively supplant the 
great work that EDA does in these depressed areas?
    Secretary Ross. Well, the best way to help all communities 
is to have a stronger overall economy, that is the number one 
priority of the President. I believe he is delivering very, 
very well on that promise. There is economic growth in the last 
several quarters that economists previously had said were not 
achievable.
    We are trying very hard to balance the needs of the economy 
and, as I mentioned, unfortunately, difficult choices have to 
be made and the decision on EDA was one of those difficult 
choices. We just cannot afford everything that we would like to 
do had we had the money.
    Mr. Cartwright. Just I want to make sure I understand you 
perfectly clearly, Mr. Secretary. You have used the word 
duplicative. Over the past 18 years, the EDA has provided $18.5 
million in funding to my area, Northeastern Pennsylvania, with 
a 50-percent match by state or local governments. Can you 
provide a specific example of private sector resource that 
would be available should state and local governments be unable 
to cover the loss of Federal support with their own cash-
strapped budgets?
    Secretary Ross. All right. Well, as you know, Congressman, 
for the first time in many, many years, a new coal mine 
actually opened in Pennsylvania and we helped them negotiate 
shipping coal overseas. So that has nothing to do with EDA, 
that was done elsewhere in the Commerce Department.
    EDA is not the only way that we try to help communities. We 
have Foreign Commercial Service people in many, many, many 
communities around the country trying to help businesses 
develop export activity. One of the great tragedies of our 
current situation is that fewer than three percent of all 
American businesses ever export anything. We are trying very, 
very hard to change that.
    In addition, we have Select USA, which is the largest 
foreign direct investment program that we have. We had 3,000 
participants last year here in Washington in the middle of 
June. The State of West Virginia and the State of Washington, 
if memory serves, were both very well represented with their 
economic development people, and I believe that some actual 
investments by foreigners in those States came as a result of 
it.
    So there are many other ways that we are trying to help the 
communities and it is unfortunate that we have to cut out this 
particular one, but we are in a financially stringent period.
    Mr. Cartwright. Well, finally, Mr. Secretary, I represent a 
district that has communities that do continue to struggle, but 
with the help of EDA's Regional Strategies Program, for 
example, Ben Franklin Technology Partners of Pennsylvania will 
invest in over 15 startups and manufacturers that will create 
200 new jobs with a median salary of $72,000. These startups 
and manufacturers often struggle early on.
    Now, Secretary Ross, in September of 2017 you stated, ``RIS 
projects will enable entrepreneurs in communities across the 
U.S. to start new businesses, manufacture innovative products, 
and export them throughout the world, increasing America's 
global competitiveness,'' unquote. Today, despite this glowing 
review showcasing exactly why this program is a wonderful 
investment of our taxpayer dollars, you are proposing the 
elimination of that program, a part of EDA.
    And I just want to end by echoing Chairman Rogers and I am 
not sure you answered his question. Will you reconsider 
elimination of EDA?
    Secretary Ross. Well, we have submitted the budget proposal 
that is before you and we will seriously consider everything 
that we hear and learn today, but it would be inappropriate for 
me to commit to you that there will be any change in our 
proposal.
    Our proposal is what it is, we feel it is what is 
necessary, and I am afraid that is where we are at this point.
    Mr. Culberson. Thank you, Mr. Secretary.
    Mr. Cartwright. I yield back.
    Mr. Culberson. Thank you, Mr. Cartwright.
    I will recognize the gentleman from West Virginia, Mr. 
Jenkins.

                              COAL EXPORTS

    Mr. Jenkins. Thank you, Mr. Chairman.
    I would like to associate myself with the comments from the 
gentleman from Kentucky. And I think you have heard from a 
bipartisan group that we are all supportive of the EDA. I am 
from coal country, I am from West Virginia, and I appreciate 
you coming to West Virginia recently. So I join with my 
colleagues, I am a staunch defender and supporter of the EDA, 
and will fight tooth and nail to make sure that that program 
gets funded.
    Mr. Secretary, you referenced coal exports in your 
comments. You have also referenced deals to try to improve coal 
exports. What I hear oftentimes is the issue of many States 
prohibiting the export of coal out of ports in their States and 
trying to drive an ideological, anti-coal agenda.
    What can you and your department do to make sure that we 
have free-flowing commerce, that we get our incredible natural 
resource like coal through our ports to get on this trade 
deficit that you are so focused on? We have got to get our 
resources moving, we have got to get them through our ports, we 
cannot allow local governments to try to drive an ideological 
agenda.
    Secretary Ross. Well, if you would let me know or let my 
staff know which are the ports and which are the States, we 
will see what----
    Mr. Jenkins. Washington. I could run through the list. I 
think we know what they are. I mean, these are all well 
recognized and acknowledged local governmental and State-driven 
initiatives to put up barriers on the ability to export coal 
out of ports in their States. Washington.
    Secretary Ross. Right. I don't know that the Commerce 
Department has jurisdiction over those actions. As a layperson, 
it strikes me that it is more likely that would take some sort 
of congressional action to deal with that.
    Mr. Jenkins. Well, we would like to work with you to try to 
explore options, because I think there are ways that we can, 
defining certain things as interstate commerce and all, where 
we can prohibit states from taking these types of action.
    So I would like to work with you, Mr. Secretary, to try to 
make sure any barriers that we do have the ability to break 
down that we do so.
    Secretary Ross. Well, I am certainly eager to facilitate 
exports in general and exports of coal in particular, and I 
think we have already proven that with some of the other 
actions that we have taken.
    Mr. Jenkins. Thank you. Secondly and, again, thank you for 
the trip to China and referencing West Virginia's 
participation. For the Members of the committee, a memorandum 
of understanding was signed with China suggesting an investment 
of $80 billion in West Virginia's oil and gas industries.
    What is your level of confidence, having been there in 
person, having been a part of the negotiating team, is this 
real? Can we count on it? I have met with our Governor, I have 
talked with our Secretary of Commerce in West Virginia.
    Tell me your opinion about how realistic and reliable these 
announcements are for creating economic activity in our state.
    Secretary Ross. Well, I met with your Governor when he was 
up here in Washington recently for the Governors Conference and 
at that point he indicated it was his understanding that things 
were progressing in a reasonably satisfactory fashion. I have 
certainly not heard anything from the Chinese side to the 
contrary.
    So as far as I know, it is early days, this is an enormous 
project, enormously complicated, enormously large in scope, and 
consequently it is not something that will happen Monday 
morning. But as far as I can tell from the inputs we have been 
receiving, the early stages look favorable.
    Mr. Jenkins. I would like to make sure our congressional 
office is working with your office, and I appreciate that you 
are getting updates from the Governor on how it is going, we 
would like to be supportive of your staff's engagement. There 
is obviously a very important role from DOC under your 
supervision to be a key player in this very complicated, as you 
described, business opportunity.
    So I think it is going to take all of us working together. 
We want one plus one to equal three. And so I just encourage 
the continued engagement. I appreciate your support and let's 
all work together, whether it be this project or others. We 
have got great economic needs and we have great opportunity to 
invest in West Virginia.
    Secretary Ross. Well, Mike Platt in our office, the Office 
of Legislative Affairs, would be a very good working 
relationship with your staff. So I would urge you to have your 
staff reach out to Mike and we will do our best to keep them 
abreast.
    Mr. Jenkins. We look forward to working with you. Thank 
you, Mr. Secretary.
    Secretary Ross. Thank you, Congressman.
    Mr. Rogers. Ms. Meng.

                            CENSUS QUESTIONS

    Ms. Meng. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary for being here today.
    What is the purpose of the census as required by the 
Constitution?
    Secretary Ross. I'm sorry.
    Ms. Meng. What is the purpose of the census as required by 
the Constitution?
    Secretary Ross. The Constitution requires us to enumerate 
every person at the place of their normal residence.
    Ms. Meng. And do non-citizens count as every person?
    Secretary Ross. Non-citizens do count as a person.
    Ms. Meng. And do you believe non-citizens count equally as 
citizens for the purpose of the census?
    Secretary Ross. That is a more complicated question 
because, as you know, early on in the census certain parties 
were counted as a fraction of a person. So we have no intention 
in the 2020 census of counting anyone except as a person.
    Ms. Meng. Thank you. And will adding the question of 
citizenship help improve accuracy for the census?
    Secretary Ross. Well, that is one of the questions with 
which we are grappling and one of the important issues that 
will inform our ultimate decision. We will make a decision by 
March 31st, which is the date on which we must inform the 
Congress of the final questions for the 2020 census.
    Ms. Meng. Well, if it helps, and I am sure you do know 
this, that four former directors of the census who have served 
in both Republican and Democratic administrations have all 
written that they are concerned in asking about citizenship 
status, that it would exacerbate privacy concerns and lead to 
inaccurate responses, and that the sum effect would be bad 
census data.
    Secretary Ross. We are very aware of the views of those 
four directors and also of the views of other former census 
directors.
    Ms. Meng. And what are the costs associated with adding a 
last-minute question like the citizenship question?
    Secretary Ross. Well, the cost question is one of the ones 
that we would obviously be grappling with. The actual cost of 
the incremental printing and all that is pretty trivial, so 
that is not the big issue. The question is response rate and 
the follow-up activity that is needed.
    Ms. Meng. The in-language testing and marketing and 
research that you previously mentioned today, has it been 
tested on a question such as the citizenship question?
    Secretary Ross. The citizenship question has been used 
repeatedly in the American community survey.
    Ms. Meng. In the 2020 census operation plan, it states that 
if the final English content changes after April 2018, then 
there will not be adequate time in the schedule to translate, 
design, and produce non-English questionnaires for the 2020 
census.
    Secretary Ross. Well, that is correct. That is why we will 
be certain to make the decision one way or the other by March 
31st.
    Ms. Meng. And going back to Mr. Serrano's question about 
potential politicizing of this question and input on the 
census, you mentioned that you had not seen the email that the 
Trump campaign sent out, so I just wanted to show you a copy.
    And if I could submit it for the record, Mr. Chairman?

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Secretary Ross. My eyesight is not good enough to read it 
from over here.
    Ms. Meng. Neither is mine, but I have extra copies.
    Has the President or anyone in the White House discussed 
with you or anyone on your team about adding this citizenship 
question?
    Secretary Ross. I am not aware of any such.
    Ms. Meng. Many advocates have noted that the inclusion of a 
question around citizenship will greatly decrease immigrant 
community participation in the census, which goes against its 
purpose. Have you considered this impact of including the 
citizenship question and what is your assessment of the impact 
and what will you do to ameliorate this problem?
    Secretary Ross. Well response rate is one of the central 
issues, especially as it relates to cost and potentially as it 
relates to accuracy. So that is one of the very many factors 
that we have been considering actively. I mentioned before, I 
think perhaps when you were not in the room, some of the other 
measures that we're taking to make the census more accessible 
to people. So if I may, I'd like to briefly summarize those 
steps that we are taking. We're do----
    Ms. Meng. If I could, I--actually, Mr. Secretary, I was in 
the room, I did hear.
    Secretary Ross. Oh, you were.
    Ms. Meng. And I do appreciate your efforts. I am just 
concerned about how those measures will affect the minute 
addition of a question. My time is running out, but I do hope 
sincerely, Mr. Secretary, that you will take away what you have 
heard from today's meeting. The mission of a census is to 
serve, as on your website, states that it is to serve as the 
leading source of quality of data. So I implore you in the 
interest of the taxpaying American people that you do what you 
can and in your power to make this process as less expensive 
and as much accurate as possible. Thank you. I yield back.
    Secretary Ross. I stand by what we said on the website.
    Ms. Meng. Thank you.
    Mr. Rogers. Judge Carter.

                      INTELLECTUAL PROPERTY RIGHTS

    Mr. Carter. Thank you, Mr. Chairman. Secretary Ross, 
welcome. We are really honored to have you here today. You have 
consistently stated that unfair trade practices put our 
businesses at disadvantage in the global markets. The President 
has made it clear that free and fair trade is critical to the 
economy and the strategic position of the United States. And I 
don't need to tell you how important trade is to the great 
State of Texas. It is clear that trade enforcement and 
compliance are a focus for you in the budget.
    What changes are you making within the International Trade 
Administration to put the nation on a level playing field? Back 
home in Texas we have a large computer technology presence with 
many highly skilled computer experts. What steps are you taking 
to level the playing field in regards to intellectual property 
rights?
    Secretary Ross. Well, as I am sure you are aware, 
intellectual property rights, Congressman, are the topic of a 
section 301 investigation, which should be coming to a 
conclusion in the fairly immediate future. And depending on 
what the study recommends and depending on what the President 
does with it, that will be a direct response to the problem of 
intellectual property rights.
    Meanwhile, the new Patent Director, Mr. Iancu, is also 
taking steps to improve the durability and the quality of 
patent protection that we give. And on that score it is 
interesting to note an amazing statistic: around about June of 
this year, the U.S. Patent Office will issue its ten millionth 
patent. That is a pretty extraordinary achievement. And it is 
symbolic of how important intellectual property rights are to 
our everyday citizen and to every business in this country.

                          INTERNATIONAL TRADE

    Mr. Carter. Our founding fathers clearly recognized that 
our ideas had worth. And I think this is very important to the 
future of the United States of America. Let me stress, and I 
can't stress more that NAFTA is very important to the State of 
Texas and to our farmers. Completely withdrawing from NAFTA 
could spell disaster for the wheat and corn farmers. In large 
part that trade is conducted through NAFTA. NAFTA has been 
great for U.S. farmers and for our ranchers helping U.S. 
agricultural exports to Canada and Mexico to increase 350 
percent since 1993. One out of every seven Texas jobs is 
connected to agriculture. However, the NAFTA negotiations 
progressing and will this trade budget suffice on those 
negotiations? Dairy farmers are important to Texas. Can you 
elaborate on what measures you are considering with concern to 
Canada in allowing dairy farmers to access Canadian markets?
    Secretary Ross. Well, I made no secret that I am very 
opposed to the dairy management system that the Canadians use. 
I think it is a terrible system. It has been very, very 
detrimental to the milk industry and the dairy industry in 
general in the United States. It is one of many problems that 
we have in terms of the relationship with Canada.
    But in terms over the overall question, a withdrawal from 
NAFTA, the President has said his first choice is not to 
withdraw. His first choice is to get a better deal in 
agriculture and in manufactured goods and in services, both 
financial services, digital services and other kinds of 
services. So it is not anyone's favored alternative. But unless 
you are at the end of the day known to be prepared to take an 
extreme measure if the deal is lousy you won't win.
    So it is very important that people understand that status 
quo is not acceptable. That there are problems that have come 
in. And I think the good news is that there have now been these 
seven sessions done some in Mexico, some in Washington, some in 
Canada, and there has been progress made on a lot of what I 
would call the easier issues. And those are all going to bring 
some sort of benefit to the U.S. The harder issues are the ones 
that are being grappled with now. But I don't believe that the 
President would have granted a temporary absolution from the 
232 tariffs on steel and the 232 tariffs on aluminum if he 
didn't think there was a reasonable chance that we could not 
only resolve the national security aspects of those, but also 
come to fruition in an overall economic sense with Canada and 
Mexico. He may be wrong, but it certainly represents a good 
faith effort to do it.
    Mr. Carter. I agree. Thank you.
    Mr. Rogers. Thank you. Mr. Secretary, consistent with your 
demands for time, we are hopeful that we can have at least an 
abbreviated second round of questions. Is that agreeable with 
the Secretary?
    Secretary Ross. Yes. I believe it has been scheduled for as 
long as 11:30 if need be. I am happy to do a second round.
    Mr. Rogers. 11:30?
    Secretary Ross. Yes.
    Mr. Rogers. All right. We will meet your request.
    Secretary Ross. Now, perhaps I shouldn't have volunteered 
that time. That may be an unpolitical move on my part.

                  INTERNATIONAL TRADE LAW ENFORCEMENT

    Mr. Rogers. I was thinking just 5 minutes, but I am glad 
you are giving us another forty minutes. Mr. Secretary, it has 
been mentioned here before about steel. Several steel companies 
have had to close their plants and lay off employees at an 
alarming rate due to unfair trade practices from their foreign 
competitors. Several of these companies joined together and 
filed a complaint with the International Trade Administration 
and the International Trade Commission accusing China and other 
countries of purposefully undervaluing their corrosion 
resistant steel imports in order to increase their market share 
in the U.S.
    However, there is a significant backlog of anti-dumping 
cases pending before the International Trade Administration, 
which is having a negative impact on the domestic steel 
industry. Over the last few years this Committee has steadily 
provided funding increases for the International Trade 
Administration's enforcement and compliance division. I am 
pleased to see that the President's request continues this 
trend with some money above the House passed bill in fiscal 
2018. How do you plan to use these resources, these increased 
fundings to prevent such large case backlogs in the future?
    Secretary Ross. Well, the ITA has been--and Commerce in the 
aggregate has been much more active than in any prior 
administration. We have been running seventy, eighty percent 
more cases initiated than had been true in the prior 
administration. We have also completed far more cases than any 
administration ever has completed. We had over a hundred cases.
    In terms of total trade orders outstanding, we have some 
424 in existence and in force right now, about half of which 
relate to various steel products. We have 87 or thereabouts 
pending cases at the moment, of which 38 also relate to steel 
and steel products. So I can assure you that is one of the 
materials that is very much on our mind.
    The problem with a trade case under the World Trade 
Organization rules is it gets to be a little bit of a game of 
whac-a-mole. What happens is we are required to file in the 
case very precise product specifications. Sometimes to the 
extent of saying ``two-tenths of a millimeter in depth is the 
product.'' And we also have to be very specific as to the 
geography. So what that results in is the offending dumper will 
then move it to another country and it will suddenly come in as 
though it were manufactured in that other country.
    We had it recently with oil country tubular goods. A lot 
was starting to come in, steel products, that was starting to 
come in from a country that doesn't even have an oil and gas 
industry at all. So the only reason that they got into the 
business was to take dumped hot rolled coil, fabricate it into 
oil country tubular goods and then dump it in the U.S. And that 
kind of problem of direct transshipment and sometimes 
transshipment after additional manufacture is one of the 
factors that motivated us to do the 232 proceeding. Because the 
232 proceeding, unlike a normal trade case, can cover the 
entire world. It doesn't have to be a product. It doesn't have 
to be limited to a country. So that was one of the motivations 
in order to try to protect the national security interest in 
steel and aluminum.
    Mr. Rogers. Well, back onto the International Trade 
Administration. We have increased funding over the years lately 
for the Administration. And yet the caseload at ITA still is 
high.
    Secretary Ross. Well, it is high, sir, because we are 
initiating more actions. It isn't that they are being 
negligent. It isn't that they are not pursuing the cases. When 
we initiate more actions naturally the caseload will go up. 
There is no backlog because there are all sorts of statutory 
dates of a case. I am not aware of any significant number of 
cases where we have failed to adhere to the statutory deadlines 
unless requested to do so by the petitioners. Our general 
practice has been if the American petitioner requests more time 
to prosecute the case we generally will grant it. If the 
adverse party, the foreign dumper or alleged dumper, requests 
time we normally do not grant it. But we do grant it if the 
American party does not object.
    So if there are individual cases that you feel or any of 
your constituents feel have not met the statutory deadlines or 
have otherwise been unnecessarily delayed, I would be very 
eager to hear about them. And I promise you I will deal with 
them promptly.
    Mr. Rogers. I appreciate that. I will offer one to you. AK 
Steel in Ashland, Kentucky----
    Secretary Ross. Yes, sir.
    Mr. Rogers [continuing]. Is a part of the group that filed 
a complaint with ITA and ITC at Commerce.
    Secretary Ross. Yes.
    Mr. Rogers. That is one where we have 700 employees laid 
off.
    Secretary Ross. Yeah, I am familiar with AK Steel. And we 
have been in touch quite recently. If I am not mistaken they 
participated in the group of CEOs that came to the White House 
a few weeks ago. As it happens on the very day that the 
President announced what his decision was going to be on the 
232s. So we are actively in touch with AK. I am quite familiar 
with their problems, both in their Kentucky operation and with 
the electrical steel situation elsewhere in their system. And I 
think you will find that they are very happy with the 232 
measures that we have put in.
    Mr. Rogers. They are indeed. What affect on these pending 
cases will the President's 232 proposal, if put in place, how 
will that affect these pending cases?
    Secretary Ross. Oh, they will go forward. The concept of 
the 232 is that those tariffs are in addition to any normal 
trade case that we bring. Ones before this and ones subsequent 
to it. Now, if we have designed the 232s right, there should be 
somewhat fewer cases in the future because it covers such a 
wide range of products. Between the two cases I think it is 
some 700 odd products that are covered. So our hope is that 
this kind of omnibus thing will reduce somewhat the flow of 
cases. But it is always possible that the serial dumpers will 
decide to eat the tariffs and find some other way to get around 
them. And therefore we'll be at least as diligent going forward 
on dealing with individual infractions as we have been 
heretofore.
    Mr. Rogers. Well, Mr. Secretary, if this 232 action is 
successful I would like to visit with you and we'll sample a 
taste of bourbon together. How does that sound?
    Secretary Ross. I am sorry, I didn't hear. Someone coughed 
and I don't know if that was a nervous reaction to your 
comments or what, but it drowned it out so I couldn't hear it.
    Mr. Rogers. I said if it is successful we'll toast each 
other with a glass of bourbon.
    Secretary Ross. All right. The bourbon may be readily 
available if the EU falls through.
    Mr. Rogers. Ms. Lowey.
    Ms. Lowey. Welcome, Mr. Secretary.
    Secretary Ross. Congresswoman Lowey, good to see you.
    Ms. Lowey. Good to see you. We usually see each other in 
July.
    Secretary Ross. Right.
    Ms. Lowey. And I hope to see you same place, same time.
    Secretary Ross. Yes.
    Ms. Lowey. Nice to see you. And I would love to take you to 
my district. The question that I am going to ask relates to the 
Lamont-Doherty program, which is superb. It is in Rockland 
County.
    Secretary Ross. I am sorry, I couldn't hear.
    Ms. Lowey. I was just saying that I would like to take you 
to the Rockland County part of my district. It used to be all 
Westchester. Now I have both. And there is a program called 
Lamont-Doherty, which is really an important service to the 
community. And I would like to--I will even take you to lunch. 
We could have a visit there one of these days. So----
    Secretary Ross. Well, given the sensitive attitude about 
men and women interacting we have to be very cautious to have 
the lunch be well attended.

                         NOAA SEA GRANT PROGRAM

    Ms. Lowey. And I won't offer you bourbon, you could be sure 
of that. I would rather have an ice cream soda, but OK. Mr. 
Secretary, for the second straight year, the Trump 
administration is proposing to eliminate the National Sea Grant 
Program. This national network of colleges and universities 
conducts vital scientific research in support of the 
conservation and practical use of the coasts, Great Lakes, and 
other marine areas. In addition, according to information 
provided by the Sea Grant network and reported by NOAA, in 2016 
alone, the Federal investment in Sea Grant helped produce more 
than $600 million in economic benefit, with more than 7,000 
jobs created or sustained and 1.4 million acres of habitat 
restored or protected, to name just a few of the program's 
impacts.
    Given these statistics, isn't there a credible and 
persuasive case for continuing the federal investment in the 
National Sea Grant program? Which refers to my invitation 
before.
    Secretary Ross. Right.
    Ms. Lowey. That this is such a valuable program. And I have 
met with those who run the program, I have talked to students 
that have produced real economic benefit.
    Secretary Ross. The Sea Grant Program is a successful 
program, we certainly agree with that. But providing grants to 
states is a lower priority than the core NOAA functions. And 
therefore things like surveys, charting, weather forecasting 
and fisheries management, in our view, unfortunately the monies 
needed for those overwhelm the monies that we would have had to 
put into the Sea Grant program. In budget stringency periods 
you simply have to make difficult choices. And this was one of 
the very difficult choices we made.
    Ms. Lowey. Well, I do hope if I can encourage you to come 
visit the program, that you may understand how important it is 
and how essential the benefits are, and maybe we can change 
your mind. I think it would be a worthwhile trip. And we will 
follow up. You don't have to respond right now, but I hope 
you----
    Secretary Ross. Thank you for the invitation, 
Congresswoman.
    Ms. Lowey. OK. The Commerce Department's new strategic plan 
makes special mention of the need to reduce extreme weather 
impacts. Yet once again the Trump administration is proposing 
to eliminate funding for the Regional Coastal Resilience Grant 
program, which provides competitively awarded funding to enable 
coastal communities to withstand extreme weather and related 
hazards. In announcing the most recent grants provided under 
this program, Dr. Russell Callender, the Assistant NOAA 
Administrator for the National Ocean Service, stated, and I 
quote, ``From restoring estuaries that provide natural 
shoreline protection to reducing coastal flooding impacts, the 
projects supported by these grants assist in ensuring the 
safety and vibrancy of our nation's coastal communities and 
economies. We are pleased to be partnering with local agencies 
and groups on the ground to have the greatest impact.'' Mr. 
Secretary, would you agree with Dr. Callender that the funding 
provided through the Regional Coastal Resilience Grant program 
is of great value?
    Secretary Ross. Once again, we are in the unfortunate 
position, NOAA needs lots of money and the Department needs 
lots of money. But we are in a very budget constrained period. 
And consequently we had to make some very, very uncomfortable 
decisions, including that one.
    Ms. Lowey. Well, frankly we are in the middle of 
negotiating the bill, the big omnibus bill, which we hope will 
be completed on Thursday, and there is still items outstanding. 
And it seems to me that it is more money than we have ever had. 
And so it is a matter of choices. And I would hope that we can 
continue the conversation so I can encourage you or persuade 
you to understand the value of these programs. There are some 
that I wouldn't even discuss. But these two programs I think 
are essential, and I would appreciate your consideration.
    Secretary Ross. Thank you. And I know you have given it 
very serious thought.
    Ms. Lowey. Thank you. Thank you, Mr. Chair.
    Mr. Culberson. I will recognize the gentlemen from Texas, 
Judge Carter.

              INTERNATIONAL TRADE ENFORCEMENT CASE BACKLOG

    Mr. Carter. Thank you, Mr. Chairman. Mr. Secretary, 
concerning your 232 exemptions and your backlog we were just 
previously discussing with Chairman Rogers, we will talk about 
backlogs in a minute. But 232 exemptions that allow countries 
to petition for relief from imposed tariffs, it is been 
reported the Department expects 4,500 applications that could 
result in 24,000 hours of increased workload to process. Does 
this budget proposal take into account that number and that 
number of hours? And how do you intend to address the increased 
workload?
    Secretary Ross. Well, we have provided for more staffing in 
the 2019 budget request. And we have gotten more staffing in 
earlier periods. We believe that we can handle the influx. The 
4500 was our estimate as to the number of exemption requests 
that we would receive. We have no way to judge whether that is 
correct or incorrect. But as you know we are required to make 
an estimate of those factors. And that was the best judgment we 
could make at the time.
    Mr. Carter. Well, having inherited a bench which had a 
2,000 case backlog, the only way you can deal with a backlog is 
build a fire under both parties and make them come in for 
resolution. And I worked until ten o'clock at night every night 
for two years to get it done. Maybe your boys can't do that, 
but you can't live with a backlog in a business community, as 
you well know, you are a businessman.
    Secretary Ross. Oh, no. And that is why we waived a lot of 
the normal trade procedures about hearings and response dates 
and all that. Also, as I am sure you are well aware, we took 
enormous amounts of testimony, oral and written, and had 
enormous amounts of meetings with parties prior to issuing the 
232. So we don't come to this process with a blank canvas.
    Mr. Carter. Well, I know you are famous for being very 
efficient. And I know you are well aware that the business 
community gets very nervous when they see backlog, potential 
backlogs that could keep them from having access.
    Secretary Ross. Well----
    Mr. Carter. And I encourage you, as you sound like you are 
going to do that.
    Secretary Ross. Well, that is what we do. That is what we 
do, Congressman.
    Mr. Carter. Thank you. Thank you, Mr. Chairman.

                           DISASTER RECOVERY

    Mr. Culberson. Thank you, Judge Carter. Mr. Secretary, I 
would like to ask you about the disaster relief supplemental. 
EDA is--you have heard from our other members of the committee, 
is an important agency that has a lot of vital and important 
functions. One of which is to provide grants where they can do 
the most good for people recovering from disasters through the 
emergency supplemental bill that the Congress passed. We 
provided $600 million for EDA for areas that had multiple major 
disaster declarations. And that certainly includes Houston. The 
way that was written we want to make sure Houston and Texas are 
at the top of the list. And that money can be used for, not 
only for economic development, but for mitigation of flood 
damage to help repair damage to existing flood structures and 
to mitigate or enhance flood control structures to promote 
economic growth. That money was specifically appropriated for 
that purpose.
    And one of the reasons I had to step out for a moment is 
Secretary Carson is next-door on my other subcommittee on THUD 
and he is a capable good man, as are you. But these agencies 
move so slowly. One of our greatest sources of frustration as 
members of Congress is when we have an emergency like this when 
Puerto Rico got hammered by the hurricane, and we urgently need 
this money to reach our constituents to help them recover and 
rebuild. HUD has a reputation of moving like frozen molasses. 
That is just not acceptable. Judge Carter is right, we are 
going to light a fire under whoever we need to light a fire 
under to get help to our constituents.
    I know, Joe, you have got family, friends in Puerto Rico 
that have suffered as a result of that terrible storm. The EDA, 
the $600 million that we provided EDA needs to get out the 
door, sir. Could you tell us the status, what progress have you 
made in getting those EDA grants out the door to where they can 
do the most good to help these communities that have suffered 
so much from these terrible hurricanes?
    Secretary Ross. I think we are acutely aware of the 
immediate need for solutions to the distribution of the money. 
And we have been working quite actively and aggressively with 
state and local authorities to make sure that we go about it in 
a proper fashion. We understand that sooner is infinitely 
better than later because people are very much in a crisis 
condition. So I assure you we are doing our level best not to 
be a source of delay in Houston or in Florida or Puerto Rico--
--
    Mr. Culberson. Thank you, sir.
    Secretary Ross [continuing]. Or Virgin Islands or anywhere 
else.
    Mr. Culberson. Thank you. While ensuring that our money is 
spent efficiently, again, we share the same goal.
    Secretary Ross. Yes, sir.
    Mr. Culberson. We don't want to just shove the money out 
the door. We want to make sure it is spent efficiently and it 
is actually reaching the people who are hurt. And in particular 
this funding I was heavily involved, of course, in drafting 
this part to make sure that it----
    Secretary Ross. Oh, I am well aware.
    Mr. Culberson [continuing]. Goes to help repair damaged 
flood control infrastructure and to enhance existing flood 
control infrastructure where it will have the greatest economic 
benefit. And I point out I had in mind as I was drafting West 
Houston is to the oil and gas----
    Secretary Ross. Right.
    Mr. Culberson [continuing]. Industry what Silicon Valley is 
to the computer industry.
    Secretary Ross. Sure.
    Mr. Culberson. British Petroleum's North American 
headquarters were completely flooded out.
    Secretary Ross. Right.
    Mr. Culberson. And they still are not back in their 
offices. We have had major damage to a lot of the oil and gas 
service companies, oil and gas exploration and production 
companies in West Houston. So the economic impact of flood 
mitigation work in West Houston will be profound. And that is 
why I wrote that language that way. So thank you for making 
sure it goes out the door efficiently. But boy do we need it to 
get out in the hands of the Harris County flood control 
district, needs that money as quickly as possible.
    Secretary Ross. Oh, we know that, Mr. Chairman. We also 
though have to be mindful, we don't want to have some of the 
problems that have accompanied other disaster relief in other 
hurricanes. We are not going to be having trailers sitting idle 
and all sorts of programs----
    Mr. Culberson. Exactly.
    Secretary Ross [continuing]. That occurred elsewhere. So it 
is a balancing act to make sure that we do it fast but 
correctly.
    Mr. Culberson. Efficiently.
    Secretary Ross. Fast but correctly is our----
    Mr. Culberson. Yes, sir.
    Secretary Ross [continuing]. Motto.
    Mr. Culberson. That is why I appreciate you focusing on 
local government. The Harris County flood control district has 
a superb reputation of using scarce and precious tax dollars 
wisely and frugally and managing our flood control network very 
well. So appreciate that very much.
    And I also want to mention that Texas has submitted a 
request, Mr. Secretary, to the Department for a fishery 
disaster declaration in the wake of Hurricane Harvey. Can you 
tell us the status of that request? When can we expect to see 
the outcome of that review?
    Secretary Ross. Many of the disaster requests already have 
been granted. We have a plan to submit the spend plan for the 
remaining 200 non-fishery disaster funding around the 26th of 
this month. NOAA is developing a spend plan overall for how to 
allocate the disaster funds. And we hope to provide it to the 
Congress very, very quickly.
    Mr. Culberson. Thank you, Mr. Secretary. $400 million of 
the money in the emergency supplement was also for NOAA that 
was broken out help repair and replace damaged assets, debris 
removal, mapping, charting, improving weather forecasting and 
200 million for fishery disasters----
    Secretary Ross. Right.
    Mr. Culberson [continuing]. In 2017.
    Secretary Ross. Now, the weather forecasting I am happy to 
say in this past hurricane season, even though the outcome was 
horrible, we don't control the weather, we just get to forecast 
it. And the statistics show that our forecast were 25 percent 
more accurate this time than in the last big hurricane season. 
So NOAA is performing pretty good work. And I believe the new 
satellite that has been put up just a couple of weeks ago will 
help a lot with that, especially in the western part of the 
U.S. and out into the eastern part of the pacific. Because 
these new sensors will have three times the resolution, four 
times the speed and accuracy. They are much, much improved. We 
therefore think that there can be further improvement, at least 
in giving people earlier and more accurate warnings. Because as 
you know that helps a lot to mitigate damage if people get 
enough warning in advance and it is accurate.
    Mr. Culberson. Thank you, Mr. Secretary. Let me recognize 
my good friend from New York, Mr. Serrano.
    Mr. Serrano. My next question was going to be--so I will 
simply say ditto. The question that the Chairman asked about 
the monies getting out that were voted on by Congress. And as 
you know I was--I have a special interest in Puerto Rico 
because I was born there.
    Secretary Ross. Right.
    Mr. Serrano. And we want to see that--there is still a 
large percentage or a significant percentage of people without 
lights. There are still roads that need to be cleaned. There 
are different things that need to be done. And in fact, right 
across the hallway they are having a panel on the fact that 
this is six months since Hurricane Maria went through Puerto 
Rico.
    Secretary Ross. Right.
    Mr. Serrano. And the situation is still dire in many 
places. So if at the minimum I want to tie my sentiments to the 
Chairman in saying that we need to see that money go out. I 
understand your desire not to see money wasted and we support 
you on that. But Congress saw a need, Congress voted an amount. 
And it is not that easy to get money out of Congress for these 
kinds of programs, as the Chairman knows. So anything you could 
do would be helpful. To all the people, but especially those 
folks in Puerto Rico.
    Secretary Ross. Yes. We are devoting a huge amount of time 
and effort to that very project. It is complicated, as you 
know, because there are multiple U.S. Government agencies 
involved. And particularly Army Corp of Engineers in terms of 
the electricity situation. So we are doing our best. We have 
dedicated staff to it and they are reporting to me quite 
frequently as to what they are getting done. It is a horrible 
situation, we have to get it fixed and we have to get it fixed 
quickly. So we are keenly aware of the dire need.

                             NOAA STAFFING

    Mr. Serrano. Thank you so much. Appreciate anything you 
could do on that. Mr. Secretary, among the President's 
administration's many proposed cuts in NOAA, there is a cut of 
248 funded positions from field offices of the National Weather 
Service as part of a new framework for staffing weather 
forecast offices. The budget submission notes that the 
implementation of this proposal could present some short term 
risks. So my questions, Mr. Secretary, isn't there a real 
possibility that these cuts will create the risk of reduced 
timelines and accuracy in weather forecasting?
    Secretary Ross. We really don't think so because the 
satellite activity is becoming more and more important. And we 
have had a lot of automation in the offices. The layoffs can 
only occur by agreement with the union, unless we get into a 
RIF, reduction in force, situation. We are trying to avoid that 
by negotiation with the union. But we are not going to layoff 
anybody or leave any positions unfilled if we think there is 
any material risk of reducing the accuracy and timeliness of 
the forecast.
    Mr. Serrano. Thank you. I hope so because more than ever 
now we need the National Weather Service to be able to function 
as modern as possible, if there is such a phrase.
    Secretary Ross. I am personally aware of it because my 
normal residence before coming here was a coastal community in 
Florida. So I understand the problem.

                           TRADE ENFORCEMENT

    Mr. Serrano. OK. Thank you. Mr. Secretary, both you and 
other officials in the Trump administration have spoken of the 
need for strong enforcement of our trade laws. I want to ask 
you about the President's meeting last week with the Canadian 
Prime Minister, as well as the President's statements following 
the meeting. It was reported that in a fund-raising speech last 
Wednesday President Trump boasted that he made up information 
in his meeting with the Canadian Prime Minster, claiming that 
the United States runs a trade deficit with Canada. On Thursday 
morning, President Trump posted on Twitter that the United 
States is running a trade deficit with Canada. In reality the 
U.S. had a trade surplus with Canada of $12.5 billion in 2016. 
So, Mr. Secretary, what does this do to the credibility, in 
your opinion, of the United States in trade negotiations and in 
trade enforcement when the President of our country makes a 
public claim about trade that simply has no basis in fact?
    Secretary Ross. Well, I was not at the meeting with the 
Canadian Prime Minister, so I am not aware of the context. I 
only knew of it from the newspapers. But I do know that the 
Canadian Government reports to the Canadian public that it has 
a trade surplus with the United States. That is in their 
published records on their website.
    Mr. Serrano. And therefore.
    Secretary Ross. There is no therefore. I was not part of 
that discussion.
    Mr. Serrano. OK.
    Secretary Ross. I have met subsequently with the Trade 
Minister for Canada and I have not noticed any change in the 
relationship that we have with her or with the Government 
overall.
    Mr. Serrano. Well, I hope we don't because, you know, more 
and more we are finding countries throughout the world that 
disagree with us. And we have a partner like Canada we should 
not get caught up in comments that could hurt that relationship 
in any way when they are not necessary. I mean if something is 
wrong of course you bring it up. So I would hope that you play 
a role behind the scenes there, as I know you are capable of, 
of just saying, you know, some things need to be left alone.
    Secretary Ross. Thank you, sir.
    Mr. Serrano. Thank you.
    Mr. Culberson. Thank you, Mr. Serrano. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. Mr. Secretary, thank 
you for being here today. Over the past decade the worldwide 
consumption of fish and seafood has increased 17 percent. This 
means more seafood is being imported and exported around the 
world from more countries into the U.S. According to the CDC 
study report in February of 2017, 97 percent of fish and 
shellfish consumed in the United States are imported. Last year 
we had a U.S. dollar trade deficit of 4.5 billion from shrimp 
alone. And representing the historic seafood capital of the 
world, Biloxi, Mississippi, could you tell me what is the 
Department doing to help reduce the seafood trade deficit?
    Secretary Ross. Well, it is one of my pet peeves. I hate 
the idea that with all the water surrounding us and all the 
water inland that we have a trade deficit in fish. And I have 
been putting a lot of pressure on the fisheries management 
group at NOAA to try to deal with the situation. I think there 
is some potential that some of the constraints that we have had 
on fresh catch here maybe need to be relaxed a little bit. I 
think it is easy to be a little bit over zealous and therefore 
hold down the production of fish.
    Second, I believe there are some inappropriate practices in 
some of the foreign countries in their aquaculture. It seems to 
me that we should be very careful about importing seafood from 
places that do not adhere to the same standards we would have 
for aquaculture here in the U.S. So we are mindful of it both 
from the point of view of seeing what we can do either with 
aquaculture or reevaluation of what are the needs of the fish 
stock so that we--my goal is to have maximum sustainable catch 
be the target for our domestic fishing industry. And as to the 
foreign industries to the degree that they are conducting their 
activities inappropriately we are going to try to constrain 
them as best we can.

                           DISASTER RECOVERY

    Mr. Palazzo. Well, thank you. And I appreciate your 
agency's work on that subject. Switching gears, being that I 
represent a gulf state and we have been hit really hard by 
natural and manmade disasters in the recent past, these 
disasters have had the negative environmental and economic 
impacts, particularly on commercial and recreational fishing 
industries, their supply chain and their communities. Could you 
tell me, if any, what investment is the Department of Commerce 
making to help industry and these communities recover and be 
more resilient?
    Secretary Ross. Well, we have repeatedly declared a fishery 
disaster situation. And I don't remember just all the places 
where we have, but it is quite a few. And there are a couple 
more applications that are pending. So that is one very 
specific step. The best thing we can do though is to try to get 
an early warning system so that people can try to get prepared. 
Because it is not just the fish themselves, it is also the 
vessels that are at issue.
    And I don't know if you were in the room when I mentioned, 
but in this past hurricane season our forecasts were 25 percent 
more accurate and they were more timely than they had been 
before. We are trying to increase the advance warning that we 
can give to the affected communities so that they can try to 
prepare themselves. And also trying to be more accurate in the 
location and the severity. So that is one of the major steps 
that we are in a position to take. Then when disasters do hit, 
as you know, Congress has made appropriation and we will try to 
deal with that.

                           NAFTA NEGOTIATION

    Mr. Palazzo. Well, thank you for your support and 
assistance in that regards. Last question. You know, I come 
from a very rural state where agriculture is our number one 
industry. And as you know overall NAFTA has been good for U.S. 
agriculture. Since implementation agricultural exports to 
Canada and Mexico have totaled approximately 310 billion and 
increased by more than 300 percent from pre-NAFTA levels. The 
administration is wrapping up final talks with our trading 
partners in Mexico and Canada. And the U.S. farm economy is in 
a major downturn right now. And the farmers in my district are 
very worried about our Mexican and Canadian markets going to 
other countries for their ag products. In fact, Mexico 
announced they have already begun discussions with numerous 
countries in South America for corn and other grain products. 
Could you provide the Committee with the latest update from the 
NAFTA negotiations from an agriculture perspective?
    Secretary Ross. Surely. We have now had seven rounds of 
negotiation. And a lot of issues, mostly not the most 
contentious ones, but a lot of issues have been negotiated. A 
lot of language has been put to bed. We think there is a 
practical time limit, not a contractual one, not a legislated 
one, but a practical time limit on the negotiations due to the 
political calendar. Mexico, as you know, has a general election 
coming up in the beginning of July. Canada has its provincial 
elections in June. Our fast track authority, the trade 
promotion authority expires on the 8th of July here in the 
States. And, of course, we have the midterm congressional 
elections in the fall.
    Why all that is important is it is my view that if we don't 
have a resolution within the next month or so very likely it 
will be kicked over for quite a little while because of the 
election cycle. Especially in Mexico where, as you know, there 
is one candidate who is running on a quite anti-American 
platform.
    Mr. Palazzo. Mr. Secretary, thank you very much. Mr. 
Chairman, I yield back.
    Mr. Culberson. Thank you, Mr. Palazzo. Mr. Kilmer.

                         MBDA BUSINESS CENTERS

    Mr. Kilmer. Thank you, Chairman. The budget proposes to 
close the business outreach centers for the Minority Business 
Development Agency and establish the MBDA as a policy office in 
Washington, DC. The City of Tacoma, which I represent, was 
fortunate enough to receive a grant to operate an MBDA business 
center and I got to visit with the folks who were really 
benefitting from the technical expertise and from additional 
resources. That is not unique in the western region. MBDA 
offices have helped businesses access over $200 million in 
loans and equity investments, as well as $800 million in 
procurement contracts. So can you explain how a centralized 
MBDA will serve the needs of minority business owners located 
in communities around the country, many of whom face difficult 
barriers as it is, and can you give us the rationale for 
closing these business centers?
    Secretary Ross. Surely. The general concept, well, first of 
all, I have been individually very supportive of the efforts of 
the MBDA. As you know I have addressed minority groups all over 
the countryside and have tried very hard to foster their 
activities. The good news is that minority businesses are 
growing very, very rapidly and are constituting an increasing 
percentage of the new businesses created in the country. And 
they, of course, are very major beneficiaries of the overall 
economic strength and growth that has come on with the Trump 
administration.
    But in terms of MBDA specifically we intend to refocus it 
as a policy-based and as a leveraging-based entity, rather than 
one making direct grants out in the field. We think that at the 
end of the day that may very well better equip the agency to 
fulfil its mission. Because it is a limited number of 
localities that can get grants in a given year. Whereas, if we 
can change overall policies, we can influence the direction of 
policy more effectively, that might very well have a broader 
impact to the benefit of minority businesses.

                  MANUFACTURING EXTENSION PARTNERSHIP

    Mr. Kilmer. You know, I can understand the value of policy 
development here, that is what we do. But I got to tell you, 
you know, seeing the benefits on the ground in communities that 
benefit from this really makes a difference. So I would 
certainly ask that the Department reconsider that.
    I similarly was disappointed to see the Manufacturing 
Extension Partnership also under attack for a second year in a 
row. The program's stated goal is to help bring manufacturing 
back to the United States. And in the State of Washington our 
local MEP affiliate, Impact Washington, has done a tremendous 
job. Has really made a difference for manufacturers and has had 
substantial statewide impact. Can you explain how eliminating 
the MEP program that has such local and national impact on job 
retention and growth in manufacturing aligns with the 
President's focus?
    Secretary Ross. Surely. Again, it was a very difficult 
decision. But if you go back to the original concept of the MEP 
it was really meant to be a bridge to elicit local support as 
well. And we have had indications that in many, many localities 
because of the success the obligation to continue it in some 
form at some level of activity will now be subsumed by the 
private sector. And so our hope is that there will be a lot of 
the objectives met in that format. But again, it is one of the 
difficult decisions that we had to make in a time of extreme 
budgetary stringency.
    Mr. Kilmer. I would just point out, I think that in both 
MBDA and the MEP that decision is sort of divorced from the 
reality on the ground. You know, in Tacoma the ability to 
receive those resources, that technical expertise to 
entrepreneurs is something the MBDA has done very well. And 
Impact Washington, which is the MEP program in Washington 
State, you know, I look at the rural parts of my district where 
you have seen expertise provided on the ground that has led to 
job creation. You know, there is not a whole lot of, you know, 
private capacity to step into that void if the federal 
government backs away. So again, I would just ask that the 
Department reconsider that.
    Secretary Ross. Thank you very much for your comment.
    Mr. Kilmer. Thank you. I yield back.
    Mr. Palazzo. Thank you, Mr. Kilmer. The Chair recognizes 
Mr. Cartwright for 5 minutes.

                             TRADE TARIFFS

    Mr. Cartwright. Thank you, Mr. Chairman. I don't know that 
I will take that. But I want to follow up about trade a little 
bit, Mr. Secretary. I sent the Department of Commerce multiple 
letters supporting using Section 232 of the Trade and Expansion 
Act to help the struggling aluminum and steel industries. I 
also know you were a strong advocate to the President to take 
such action.
    I do have deep concerns about the rollout by the 
administration of tariffs. There are, as you know, certain bad 
actors around the globe who artificially dump and depress steel 
and aluminum prices. Those advocating the use of Section 232 
made very clear that we wanted you to go after the bad actors 
and not our friends and allies. And my concern is the way we 
are going about this is we are going to hurt the 6.5 million 
Americans who work in industries where steel or aluminum is 
used. It could also damage our relationship with close allies, 
lead to a trade war that could severely damage our whole 
economy and undermine the international trading system. And it 
could raise prices for every American for everyday products.
    My question is do you believe that a directed application 
of Section 232 would have been insufficient for our national 
security needs and to protect these industries?
    Secretary Ross. Well, as I believe you know, the 232 
reports recommended a variety of ways of achieving the same 
objective. The President chose one of those alternatives in the 
case of steel and a similar one in the case of aluminum. The 
reason we are now going through an exclusion process and an 
exemption process is to try to make sure that that broad 
approach does not do undue harm in either category.
    Mr. Cartwright. Are you personally involved in that 
exemption process?
    Secretary Ross. Oh, extremely. Extremely.
    Mr. Cartwright. And will you do your dead level best to 
make sure we don't hurt our friends and allies and the people 
that are playing by the rules?
    Secretary Ross. Right. Well, certainly the people who are 
playing by the rules we will try our best not to hurt. A 
complication is that not everyone who is a defense ally is 
necessarily playing by the fair trade rules.
    Mr. Cartwright. Thank you, sir. I yield back.
    Mr. Palazzo. Thank you, Mr. Cartwright. The Chair 
recognizes Ms. Meng for 5 minutes.

                        CENSUS COUNT OF CHILDREN

    Ms. Meng. Thank you, Mr. Secretary. I wanted to ask a 
question about the traditional census undercount of young 
children. Children, particularly those under the age of 5 are 
at high risk for an undercount during the 2020 decennial 
census. According to data published by the Census Bureau the 
undercount for these children in 2010 was a net 4.6 percent. 
And this undercount interferes with our ability to accurately 
provide needed resources for federal programs, such as TANF, 
special education grants, Head Start and the National School 
Lunch program.
    I represent a district in the bureau of Queens, which was 
in the top ten counties in the country for undercount of young 
children. And I wanted to know what are some steps the Census 
Bureau is taking to address this issue?
    Secretary Ross. Well, it relates to the overall issue of 
how do we encourage count? And you were here when I described 
the additional marketing efforts we are doing, the additional 
community outreach with community partnership. Anything you can 
do to encourage local organizations within your district to 
cooperate with us is probably the best way to do it. Because 
the local people have a different relationship to the 
population in their immediate neighborhood. And therefore I 
would hope that being one of those that apparently had a very 
severe undercount that you will try your best to get people to 
cooperate at the partnership level and even at the individual 
level. We can't require people to cooperate. And it is the--so 
the best we can do is to try to encourage them, try to make it 
easy for them through the multiple languages, through the 
marketing and through voices such as yours that have the 
respect of the community.

                         GATEWAY TUNNEL PROJECT

    Ms. Meng. Thank you. And my other question is about the 
Gateway Project. Mr. Secretary, as someone who was born and 
raised in New Jersey and commuted two hours daily to attend 
school in Manhattan, I wonder what your views and thoughts are 
on the Gateway Tunnel Project that will connect New Jersey and 
New York.
    Secretary Ross. Well, as you know, the Port Authority of 
New York and New Jersey was originally conceived decades ago to 
provide linkages between New York and New Jersey. And as far as 
I know the original project that it was mandated to do never 
occurred. So it is not new, the idea of needing gateway 
projects. The infrastructure bill, assuming that the Congress 
passes it, will provide funding and the funding has an 
allocation formula to it that you are, I think, well aware of. 
We hope that legislation will be passed. And we are sure that 
Gateway will get due consideration, along with other projects.
    Ms. Meng. Thank you. As you know, up to 100,000 people per 
day travel between New York and New Jersey. You are right, it 
is not a new issue. Tunnels are corroding. There will be a 
harsh economic impact to America's economy if these workers 
were not able to go to work. This is just one example of how 
important the Gateway Tunnel Project is to New Jersey and to 
New York, but also to America's broader economy. Respectfully I 
encourage you to do everything you can within the 
Administration to ensure that this project is treated fairly 
and that it remains a top priority of our federal government.
    Secretary Ross. Thank you for your comments.
    Ms. Meng. Thank you.
    Mr. Palazzo. Thank you, Ms. Meng. Secretary Ross, thank you 
for your time today and thank you for your service to our 
nation. The Committee on Commerce, Justice and Science stands 
adjourned. Thank you.
    Secretary Ross. Thank you.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                         Wednesday, April 11, 2018.

    FISCAL YEAR 2019 NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

                                WITNESS

REAR ADMIRAL TIM GALLAUDET, PH.D., USN RET.
    Mr. Aderholt. All right. Good morning. The hearing will 
come to order, and I would like to welcome our witness here 
today, Admiral Gallaudet, the Assistant Secretary, the acting 
Under Secretary of Commerce of Oceans and Atmosphere.
    Certainly your past experience makes you uniquely suited 
for this job and I appreciate your scientific background and 
your leadership experience that you bring to the agency, and we 
thank you for your service.
    Mr. Gallaudet. Thank you, sir.
    Mr. Aderholt. It is good to have you here.
    For fiscal year 2019, you are requesting 4.6 billion, which 
is a decrease of more than a billion dollars, or 23 percent, 
from fiscal year 2018. This budget was formulated before we had 
an agreement on adjusting the budget caps and seeks to cut 
almost every program that funds research or NOAA partners in 
academia and the states. And while I agree that we need to 
spend tax payer money wisely, we will carefully review the 
budget proposal to ensure that we are adequately funding 
mission critical expenses at NOAA in 2019.
    So before we proceed with your statement, I would like to 
recognize the ranking member, the Honorable Mr. Serrano, for 
any remarks that he may have at this time.
    Mr. Serrano. Thank you, Mr. Chairman. I would also like to 
join you in welcoming our guest this morning, Admiral Tim 
Gallaudet, the Assistant Secretary of Commerce for Oceans and 
Atmosphere, and current acting Under Secretary of Commerce for 
Oceans and Atmosphere. I look forward to your testimony before 
our subcommittee as we discuss NOAA's fiscal year 2019 budget, 
and learn more about the vital work our friends are doing as we 
speak.
    I believe that NOAA is one of the most underrated agencies 
under the jurisdiction of this subcommittee. The invaluable 
work and research that NOAA quietly conducts each year has a 
profound impact on our national economy and way of life, yet so 
many Americans do not even realize it.
    NOAA's mission is to understand and predict changes to our 
climate, weather, oceans, and coasts. The data and information 
it collects is used by businesses, other federal government 
agencies, and state and local governments to help them make 
informed decisions that affect consumers and the public at 
large.
    NOAA also protects and manages our nation's oceans and 
marine resources that make up a large part of the beautiful 
American landscape.
    For fiscal year 2019, NOAA's requesting just over $4.5 
billion, which represents more than $1.3 billion reduction from 
the fiscal year 2018 level. Coastal Zone Management Grants, 
climate and oceans research, national marine sanctuaries, 
environmental literacy programs, fish catch share, and stock 
replenishment programs, the National Sea Grant program, and 
countless others will see drastic cuts or complete elimination 
if this budget request is adopted.
    Even the National Weather Service operating budget will see 
a cut of nearly 8 percent. It is as though the administration 
sees little value in the work conducted by the countless 
scientists and researchers at NOAA.
    With the damage and devastation to Puerto Rico, the U.S. 
Virgin Islands, Florida, Texas, Louisiana, and others during 
the 2017 hurricane season, now is not the time to cut NOAA's 
budget by more than a billion dollars. Even NOAA acknowledged 
that the 2017 Atlantic hurricane season was record breaking, 
and the devastation it caused was unprecedented.
    If that is true, why are we cutting this agency's budget so 
drastically? This shortsighted approach to saving money would 
only result in potentially catastrophic consequences further 
down the road. I do not say this lightly, but in the long term 
we will be paying an even higher price for these cuts in terms 
of money and lives lost. This makes no sense to me.
    Our storms, as you know, are getting stronger. Our oceans 
are getting warmer and experiencing more pollution. Our climate 
is changing rapidly, and millions of lives hang in the balance. 
Certainly, Mr. Chairman, I know that the phrase climate change 
upsets a lot of people. So I have just decided to call it 
something is happening.
    Mr. Aderholt. Very good. Proceed.
    Mr. Serrano. Something is happening. Of course, it is 
obvious.
    I believe that we should be making stronger investments in 
NOAA so we can get a better understanding of these atmospheric 
changes and address the growing national security and economic 
challenges we face as a result. Therefore, I cannot support 
this administration's budget request for NOAA, as it represents 
a clear abdication of the agency's core mission.
    I am hopeful that my colleagues on this Subcommittee can 
come together and spare this agency and its invaluable work 
once again. We must look at the larger picture here. If we do 
not get serious about the threat of climate change--and work to 
mitigate it through research, data collection, and 
collaboration, we will be putting nearly half of the American 
population, especially those who live along the nation's 
coastline at risk.
    Thank you for joining us this morning, Admiral. I look 
forward to hearing your testimony about the great work that our 
scientists and researchers are doing, and know I also look 
forward to working with my colleagues on this Subcommittee to 
draft a CJS Appropriations Bill that we can all be proud of.
    And may I say, Mr. Chairman, very briefly that the first 
round of the last bill had problems. The second round was one 
that we felt very comfortable about. So hopefully we can move 
in that direction as we put together this bill.
    Mr. Aderholt. Thank you.
    Mr. Serrano. Thank you.
    Mr. Aderholt. Thank you. You mentioned climate change, and 
I think most of us do know there is climate change out there. I 
think we agree to that. So you can say that. It is a----
    Mr. Serrano. Wow.
    Mr. Aderholt [continuing]. Well, sometimes the cause----
    Mr. Serrano. Yeah.
    Mr. Aderholt [continuing]. Of it sometimes is the----
    Mr. Serrano. I know.
    Mr. Aderholt [continuing]. Thing that is debated. But 
needless to say, climate change is something, I think, that 
most of us can agree on.
    But anyway, Admiral Gallaudet, thank you for being here, 
again. As I mentioned earlier, without objection, your written 
testimony will be entered into the record. At this time, I 
would ask you to summarize your statements, and you may 
proceed.
    Mr. Gallaudet. Chairman Aderholt and Ranking Member 
Serrano, thank you very much for your support of NOAA, and for 
the entire subcommittee I also thank you for your support in 
the recent Omnibus Appropriations Bill and the Hurricane 
Supplemental Appropriations. Your support will ensure NOAA will 
be able to successfully continue its very diverse and critical 
mission.
    It has been a true honor to serve the past several months 
as the Assistant Secretary of Commerce for Oceans and 
Atmosphere and acting NOAA Administrator. I have seen first 
hand how the women and men of NOAA benefit public safety, 
economic growth, and national security.
    I have been fortunate to visit a number of NOAA's 
facilities, including sites in seven states, and to meet 
hundreds of meteorologists, oceanographers, fisheries managers, 
scientists, engineers, lawyers, and devoted professionals that 
make up NOAA's diverse and first rate workforce. I have also 
had many people in your communities talk to me and tell me of 
the great work that NOAA does, and I have been very moved by 
their appreciation.
    The past year was an extremely successful one for NOAA. I 
will share with you three examples of many that are--of our 
remarkable achievements.
    First, we responded effectively to a record setting 
hurricane season, which you mentioned, Congressman Serrano, 
where we saw storms that impacted over 25 million people. Our 
efforts saved thousands of lives despite Hurricanes Harvey, 
Irma, and Maria being three of the five most costly hurricanes 
in history. Our track forecast accuracies for the three 
Category IV hurricanes that made landfall in the U.S. were 25 
percent better than the last five-year average, and we are 
continuing to help communities recover today through our 
response efforts.
    Second, NOAA had perfect launches of our GOES and JPSS 
satellites in March and November, respectively. Those platforms 
have already proved their worth by supporting emergency 
managers responding to wildfires and severe storms.
    Third, NOAA installed a system of precision navigation 
sensors in the port of Long Beach. That allowed a four-foot 
increase in ship draft for the ships entering port there, 
resulting in millions of dollars of extra cargo that each ship 
can carry every day in just that one port.
    NOAA's fiscal year 2019 budget request of just over $4.5 
billion is focused on two priority areas. The first one is 
reducing the impacts of extreme weather and water events by 
implementing the Weather Research and Forecasting Innovation 
Act. I will refer to this priority as the Weather and Water 
Priority.
    The second priority is increasing our sustainable economic 
contributions of our fisheries and ocean resources. I will 
refer to this as our Blue Economy Priority.
    Under the Weather and Water Priority, this budget invests 
more than $1.1 billion in weather forecasting capabilities, 
including an increase to the advanced weather interactive 
processing system, or AWIPS, which is the cornerstone of our 
field operations at the National Weather Service. This budget 
also invests $878 million in our polar orbiting satellites, and 
$408 million in our geostationary weather satellites that are 
essential for our weather forecasts and warnings.
    NOAA's budget increases investment in the Office of Space 
Commerce, and the Commercial Remote Sensing, and Regulatory 
Affairs Office, both that promote growth in the commercial 
space industry.
    Under the Blue Economy Priority, NOAA's budget ensures its 
oceanographic capability continues by investing $75 million to 
recapitalize our fleet of survey ships. Through a $200 million 
investment in hydrographic surveys, charting, and mapping, 
NOAA's budget promotes the safe and efficient navigation to 
maximize maritime commerce.
    NOAA's budget continues investment in fisheries management, 
and the scientific research that supports it, and this budget 
request also supports domestic seafood production through a 
$9.3 million investment in marine aquiculture. This will 
support job creation and the growth of America's seafood 
industry.
    Thank you for the opportunity to present NOAA's fiscal year 
2019 budget request, and I am happy to take any questions.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Aderholt. Thank you, Admiral. And it is Chairman 
Culberson's policy that we do the five-minute rule, so we will 
each take five minutes to go around to ask questions. And I'll 
start out.
    In the last six months, NOAA has successfully launched two 
flagship satellites, which you mentioned, JPSS-1 and GOES-S. 
First, I congratulate you and your team for a huge 
accomplishment. So we are certainly proud of that, but now that 
GOES-S is successfully launched, we have five GOES satellites 
on orbit, if I am correct.
    My understanding is that the program only requires a total 
of three satellites, two operational satellites and one on 
orbit spare. Given the current surplus of GOES satellites, why 
should we continue building GOES satellites at the current 
rate? Is it best to use the taxpayers' dollars to build GOES 
satellites faster than we actually need them?
    Mr. Gallaudet. Thank you for your question, Chairman, and 
you're right. This has been a fantastic program, the--our GOES 
and JPSS satellite programs, and I did happen to see the GOES-S 
launch firsthand at Cape Kennedy, and it went off perfectly to 
the second on the planned launch time.
    Now, we have--you are correct that we have three--a 
requirement for three satellites, two operational in east/west 
positions, and one to spare, on orbit as a--because it is 
really a no-fail mission in these weather satellites.
    We have two extra surplus satellites currently that are all 
beyond their service life, so that we are just--they are just 
basically bonus and we are fortunate to have them flying still. 
They--we did not--they were not engineered to last this long.
    So with that surplus, we are having discussions with the 
Department of Defense because they have a gap in the Indian 
Ocean region and the Western Pacific, and so we--if we--well, 
we continue to operate those extra satellites, we will share 
some of that data with--we are having discussions to 
potentially use one of them for the Department of Defense 
mission.
    Mr. Aderholt. So would you be giving it to them, or would 
they just have access to that information? How would that be?
    Mr. Gallaudet. Well, we are not resourced to operate for 
them in that orbit, but we would probably partner in some way, 
and we are--those--that has been the focus of our discussions 
right now.
    Mr. Aderholt. OK. So no decision has been made yet? Are you 
all still in discussions on that?
    Mr. Gallaudet. Yes, sir.
    Mr. Aderholt. OK. The GOES and JPSS and their predecessors 
have provided critical weather and earth observation data for 
decades and remain a primary input for weather models, but 
space is evolving, as we know. Launches are getting cheaper, 
and space is no longer just the domain of governments. What is 
NOAA doing to take advantage of these changes and lower the 
cost of our observing infrastructure?
    Mr. Gallaudet. We have several efforts underway, Mr. 
Chairman. One is that we are studying the potential of using 
commercial satellite data for our weather models, and so we are 
in the second year of a pilot project to study that.
    We also are conducting a fairly extensive satellite 
architecture study, and in that study we are assessing the 
potential for future commercial capabilities and integrating 
those within our current satellite programs using either 
commercial data or even different satellite designs like 
NanoSats and CubeSats.
    Mr. Aderholt. I understand that the commercial weather data 
pilot program has gotten off----
    Mr. Gallaudet. Yes, sir.
    Mr. Aderholt [continuing]. To a slower start than was first 
expected; is that correct?
    Mr. Gallaudet. I don't think we had a--it was--it is a 
modest endeavor. We don't have a large amount of funds 
dedicated to it, and it was primarily a kind of crawl, walk, 
run effort where we envisioned just looking at one type of 
data, radio occultation, and then in the future, should we 
receive more appropriations funding to conduct studies like 
this, we would look at other types of data.
    Mr. Aderholt. Oh, and what would be your next steps for the 
pilot program?
    Mr. Gallaudet. We are--we have done the radio occultation 
study. We are going to examine that a little more as new 
commercial sources become available. And the idea would be in 
the future we would look at other data types. It could be 
anything from sea surface temperature to atmospheric 
measurements.
    Mr. Aderholt. From what you observe from the pilot program, 
what are some of the things that stood out as far as things you 
have learned from that?
    Mr. Gallaudet. Well, one of the things we have learned is 
the industry isn't evolving as fast as we thought it would. In 
fact, the radio occultation systems that are available 
commercially are very few in number. I think there is only one 
company currently that has the potential to provide it.
    So it is--but then again Secretary Ross, my boss in the 
Department of Commerce, he has been involved in a pretty active 
campaign to promote the development of commercial space 
capabilities, and so we anticipate growth in that area.
    Mr. Aderholt. OK. Thanks very much. Mr. Serrano.
    Mr. Gallaudet. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you, Mr. Chairman.
    Admiral, the hurricanes last year caused significant damage 
to NOAA facilities and equipment in the south and southeast of 
the United States, as well as Puerto Rico, and the U.S. Virgin 
Islands. The recently enacted bill provides funding for repairs 
or replacement of those facilities and equipment. Can you give 
us an update as to how that is going?
    Mr. Gallaudet. Sure, and I want to thank you very much, 
Congressman Serrano and this entire subcommittee, for 
appropriating that disaster supplemental funding. We will put 
that to very good use.
    Currently, we have a spend plan for the 200 million 
allocated for the weather damage and weather research that we 
will use those funds for, and it is currently at the Office of 
Management and Budget under review.
    We intend of that 200 million that 100 million will be 
dedicated to weather research and improved weather forecasting 
and warning, and then we will have another about--the other 100 
million will be used for a number of different things like 
marine debris removal in Puerto Rico and in the southeast 
caused by the hurricanes.
    And then there is also another 200 million that will be 
applied to fisheries disasters along the Gulf Coast, and Puerto 
Rico, and the Virgin Islands, and even some West Coast 
fisheries that were disasters--were declared last year.
    Mr. Serrano. Now, is that money flowing already or will be 
flowing?
    Mr. Gallaudet. Not yet. OMB has to approve it, our spend 
plan, and as soon as they do, we will start--and we are lining 
up, you know, our contracts and all the work to be done so we 
can execute it as soon as those funds are available.
    Regarding Puerto Rico, we have much underway already in 
terms of removing marine debris, performing post-storm 
assessments. We worked with the Department of Defense to get a 
weather radar to replace the damaged one that we had--we 
operated there. And I will tell you personally, I have great 
sympathy and appreciation for all the people of Puerto Rico. 
During Hurricane Katrina, my house on the Gulf Coast of 
Mississippi was entirely washed away in 28 feet of storm surge, 
and so I have personal knowledge of what--of the sacrifices and 
loss they have experienced. And so you can be assured, 
personally I will be providing as much support and personal 
involvement I can to ensure we can recover quickly.
    Mr. Serrano. Thank you. The budget as presented by the 
administration cuts 248 funded positions from field offices of 
the National Weather Service, and we know how important the 
National Weather Service is, especially these days. So Admiral, 
won't these further cuts in Weather Service personnel as 
proposed by the President create a very real risk of reduced 
time lines and accuracy in weather forecasting?
    Mr. Gallaudet. Congressman, thank you for your interest in 
the Weather Service and support. They are all heroes in my 
opinion. I visited a number of the Weather Forecast offices, 
and they have made great sacrifices during the storm season. I 
have seen in Houston for example, the forecasters were there in 
the office five days straight, sleeping in the office, 
providing warnings to emergency managers, and then that is just 
one of many examples.
    To answer your question, we don't believe that that 
reduction in the number of positions will introduce significant 
risk. In fact, there have been three studies on the work force 
at the Weather Service, and all have concluded that the Weather 
Service can operate more efficiently. There are just a number 
of either operating practices, like reducing the number of 
forecasters on watch, or even the hours any given forecast 
office operates, as well as using automation and improved 
processing technologies like the one I mentioned in my opening 
statement, the AWIPS.
    So technology and better business practices at the Weather 
Service, I think, will allow for us to absorb the reductions in 
people in this budget.
    Mr. Serrano. Admiral, my last question for this round, the 
silliest question you will get all day today, but it is just 
something I came up with last night. So whenever I turn on the 
TV or the radio, wherever I hear the weather forecast, they get 
that from you guys, right? They don't do their own weather 
forecasting?
    Mr. Gallaudet. Actually, TV meteorologists sometimes do 
their--often do their own forecast, but they get the baseline 
data and warning information from us, yes, sir.
    Mr. Serrano. I was wondering if they pay you for that.
    Mr. Gallaudet. Our taxpayer dollars pay for us.
    Mr. Serrano. I know.
    Mr. Gallaudet. The American taxpayers pay for our service, 
sir.
    Mr. Serrano. All right. Thank you, sir.
    Mr. Gallaudet. Thank you.
    Mr. Aderholt. Mr. Palazzo.
    Mr. Palazzo. Well, thank you, Mr. Chairman. Admiral 
Gallaudet, it is great to see you again. Thank you for being 
here today.
    During last year's hearing, Secretary Ross made a 
commitment to me and to this Subcommittee to work with the Gulf 
States to find a solution to better manage our red snapper 
fisheries. And Admiral, you and I have spoken about this issue 
as well. Fast forward to today, this administration has stood 
by these commitments, and I want to first say how much I and my 
Gulf colleagues appreciate the willingness of this 
administration to work with our states and the recreational 
fishing community on ways to improve red snapper manager, and 
which, as everyone knows, is by far the most popular and 
contentious off-shore fish in the Gulf of Mexico.
    I am proud of the work that Mississippi and the other Gulf 
states have put into the developing proposals that will allow 
each of the States to manage recreational fishermen in both 
State and Federal waters over the next two years. Mississippi 
is more than capable of managing its fishery in a way that 
ensures conservation while maximizing access, and I believe it 
should be given the maximum management flexibility possible 
under this proposal.
    And I know that the question I am about to ask could very 
easily be answered any time this week or next week, so without 
being a spoiler, Admiral, will you commit NOAA fisheries to 
working with Mississippi and the other states to ensure these 
proposals are approved and provide whatever assistance is 
needed to ensure their success?
    Mr. Gallaudet. Yes, Congressman, we will. And I think the 
red snapper story this year is a fantastic one, especially in 
light of the last year's season. And so I think we are going to 
be very successful, and I will work with Mississippi and all 
the Gulf states in managing the--in co-managing the red snapper 
fishery.
    Mr. Palazzo. Thank you for that commitment.
    Shifting gears a little bit, as you know from your own 
science background as the--and career as oceanographer of the 
Navy, maintaining the competitive edge in the maritime 
environment is critical for both defense and non-defense. There 
is legislation introduced in both the House and Senate for the 
purpose of developing a NOAA Navy program for the assessment 
and acquisition of unmanned maritime systems to the benefit of 
several NOAA offices, including Ocean Exploration and Research.
    However, the President's budget has reduced or eliminated 
programs that aim to maintain that competitive edge, especially 
through competitive programs and cooperative institutes with 
university scientists, such as with the University of Southern 
Mississippi, my alma mater, and others. What is your strategy 
for maintaining the United States competitive advantage in the 
area advanced technologies relevant to the NOAA mission, 
especially in unmanned maritime systems and ocean exploration 
with such dramatic reductions to the budget?
    Mr. Gallaudet. So Congressman, I understand and appreciate 
your interest and support of our technology development, 
certainly with respect to ocean capabilities, as well as the 
unmanned systems work we are doing, and we have discussed 
together personally.
    And so yes, the budget choices, in terms of the unmanned 
systems work and our office of Ocean and Atmospheric Research, 
as well as many others that are important, we may because this 
administration is committed to prioritizing national security 
funding. And in it--from my past experience in the Navy, I 
support that prioritization.
    And so we had to cut--we decided to reduce programs that we 
felt were either redundant or had--were primarily supporting 
grants to local stakeholders or States, and it was the core 
government work that we preserved.
    With respect to unmanned systems and ocean exploration, we 
didn't zero those out. So even though we removed the unmanned 
systems research effort, there is still a vast amount of great 
unmanned work going on all across NOAA. Our fisheries, for 
example, are doing amazing things serving marine mammals, and 
acoustically with unmanned surface vehicles and underwater 
vehicles looking at fish and fish stocks that--in ways that are 
just much more efficient in cost-savings compared to our 
previous efforts.
    And so we are flying drones. We are doing underwater and 
surface type of activity, and advancing that still in our--in 
the current line of funding we have today, but I will look 
forward to working with you and the Navy going forward to see 
how we can best continue those operations and the research and 
development behind it.
    Mr. Palazzo. Well, thank you, Admiral. Thank you for your 
service. And with that, I yield back.
    Mr. Aderholt. Thanks, Congressman. Ms. Meng.
    Ms. Meng. Thank you, Admiral, for being here.
    I wanted to ask a question about a project that is near my 
district. The National Center for Coastal Ocean Science funds a 
critical research project called Mapping the Long Island Sound 
Floor. The Long Island sound is vital to the region's economy, 
security, and ecology. As you know, the challenge for effective 
coastal planning is balancing the demands of proposed 
development activities, such as telecommunication and cables, 
gas pipelines, and other infrastructure whilst ensuring the 
sustainability and health of marine environments there.
    Your budget proposes significant cuts to the account that 
funds this project, and proposes to eliminate a number of 
navigation observations and positioning grant programs under 
the National Ocean Service that impact these projects. Please 
explain why you think these programs should be eliminated.
    Mr. Gallaudet. Sure, Congressman Meng. Thanks for your 
question. Thanks for your support of our National Ocean Service 
and the offices under it.
    The Ocean Service is a particularly high interest item for 
me as--with my degrees in oceanography, and the fact that I've 
been a coastal state resident in three states for my entire 
adult life, and overseas, and so I--and currently live on the 
Chesapeake Bay and I very much enjoy and value our coasts and 
all the work that the Ocean Service does.
    With respect to the project you mentioned, again, our 
rationale behind the budget cuts wasn't that we thought these 
projects weren't good or valuable. It was just that we had to 
apply our cuts somewhere, and so we preserved much good work 
that the Ocean Service does in terms of coastal modeling, 
navigation, and surveying, but it was the grants that--to 
states that we decided to reduce because we just felt the core 
government services that we provided had a higher priority, and 
it wasn't that the work wasn't important. We just had to apply 
the cuts somewhere.
    Ms. Meng. Okay. I hope that you will continue to 
prioritize. Any way that we can help--I mean, do you believe 
that--piggybacking off of Ranking Member Serrano's comment 
about climate changing and that something is happening within 
our oceans and the climate as a whole?
    Mr. Gallaudet. Oh, absolutely. From my background in the 
Navy, where I helped establish the Navy's climate change task 
force, and my scientific experience and knowledge, I am very 
aware of it. In fact, our organization does much great work 
still in terms of monitoring climate and climate change and the 
studies behind it, including the various aspects of it, whether 
it be drought or sea level rise, and we are applying that 
information every day in studies and assessments, and work with 
local officials to help manage and adapt to those changes.
    Ms. Meng. Great. And back to hurricanes a little bit. You 
mentioned in your testimony about the accuracy and success of 
many of these programs.
    NOAA requests a decrease of $4 million in reducing the 
overall computational capacity of research and development in 
high performance computing system. This decrease will eliminate 
one of NOAA's super computing systems jet located in Colorado, 
and reduce the super computing use and associated contract 
support in West Virginia. Some major transition projects 
include hurricane forecast, improvements, next generation 
global prediction system, and storm surge modeling that will no 
longer have use of the super computing system.
    Why actively seek--why are you seeking to reduce our 
capability to forecast storms, such as Sandy that devastated 
New York City and the tri-state area? Harvey, Irma, Maria are 
just some examples that you've mentioned.
    Mr. Gallaudet. Yes, Congresswoman, and forgive me for 
calling you Congressman up front earlier.
    We--first off those reductions are--they are not--we are 
not zeroing out the programs. We are--we made reductions based 
on the fact that we feel the current funding is sufficient, the 
funding that we have proposed, still to continue to improve our 
work.
    For example, we see great opportunity for research super 
computing in the cloud, and our--my counterpart, the Assistant 
Secretary for--of Commerce for Earth Observations and 
Predictions, Dr. Neil Jacobs, comes with great experience in 
that area, and he is already working on plans to leverage cloud 
computing for research applications.
    The other piece about improving our modeling in super high 
performance computing to support modeling, we have much 
underway that is very good, and in fact, I will thank you for 
supporting the Sandy supplemental funding because that has led 
to many of the great advances in our weather modeling. We have 
an research or experimental model we call the Global Forecast 
System Finite Volume Cubed, or GFSFV3, that is in the process 
of transitioning to the Weather Service.
    This model outperformed the European models for the 
hurricane track forecast for the three Category IV hurricanes 
that made landfall. So we are--our goal is to regain world 
leadership, take number one back for our weather model, and we 
are on track to do it. We expect to do that before 2020.
    Ms. Meng. OK. Thank you. I yield back.
    Mr. Aderholt. This young lady from Alabama.
    Ms. Roby. Well, good morning, sir. Thank you. I know you 
can tell that this committee is--has good representation from 
the Gulf States. And I want to apologize up front for the 
coming and going. I think every single one of us have all of 
our subcommittees meeting at the same time right now. So I just 
really want to make a quick comment and that is--and if we have 
some questions, we will submit for the record, but I just, 
alongside my colleague, Mr. Palazzo, I just want to commend you 
and the National Marine Fishery Service for your collaboration 
and your approval of allowing the State of Alabama, as well, 
recreational red snapper season to be set at 47 days in 2018 
and next year, as well.
    We all believe that cutting out the federal red tape and 
getting the local and state leaders involved in decision making 
is a true testament to working together. Each state and fishery 
are unique in our country and having decisions that are made 
jointly is key to finding the appropriate solution. So again, 
thank you so much for all you and your partners do in allowing 
our fisheries in Alabama, and around the nation, to thrive with 
innovative policies and cooperative decision makings. And I 
just want to thank you for your service to our great country 
and appreciate you being here today very much.
    Mr. Gallaudet. Thank you.
    Ms. Roby. So thank you.
    Mr. Gallaudet. Thank you, Congresswoman. Thank you for your 
support. And I will say that the credit goes to Chris Oliver, 
the director of our National Marine Fishery Service. He has got 
great experience and he is doing the right thing for our 
fisheries. And I thought the red snapper management plan is 
exactly what it should be.
    Ms. Roby. Great. Thanks again on being a role model. I will 
yield back.
    Mr. Aderholt. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. And good morning, 
Admiral. Thank you for joining us and thank you for your many 
years of public service.
    I want to follow up on Ms. Meng's questioning a little bit 
if I can. I think we are on the same page about the importance 
of climate change research. And I am going to rip through a 
number of quick questions to----
    Mr. Gallaudet. Sure. Yes, sir.
    Mr. Cartwright [continuing]. Make sure we are on the same 
page about this. First, do you agree that the past three years 
have been the warmest three years in recorded history?
    Mr. Gallaudet. To the best of my knowledge, yes, sir.
    Mr. Cartwright. Do you acknowledge that 17 of the 18 
warmest years on record have happened since the millennium, 
2000?
    Mr. Gallaudet. I will acknowledge that we have seen a trend 
in warming. I don't know the exact numbers.
    Mr. Cartwright. Do you agree--the amount of carbon dioxide 
is higher now than at any time in the last 800,000 years and 
largely due to this carbon dioxide, the IPCC believes that 
global temperatures are expected to increase by at least 2.7 
degrees Fahrenheit during the 21st century?
    Mr. Gallaudet. So I acknowledge that the carbon is at a 
record high in terms of the historical record in the atmosphere 
and oceans, but the 2.7 degree forecast rise that the IPCC 
acknowledges is also a forecast with uncertainty.
    Mr. Cartwright. OK. Do you agree that global sea level rise 
in the next century will be better measured in feet and not 
inches?
    Mr. Gallaudet. I acknowledge that the sea level is rising. 
And again, forecasting the amount it will rise by the end of 
the century is--there is a significant uncertainty in our 
ability to do that accurately.
    Mr. Cartwright. And finally, you acknowledged that we still 
have a lot more to learn about climate change and its dramatic 
effects on almost everything we do.
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. So I think you and I both recognize this. 
The subtle science on climate change, and we both know it is an 
existential threat to everything we know, I think we can agree 
we need to improve our understanding of climate change so that 
we can adapt and mitigate its effects. Fair statement?
    Mr. Gallaudet. I would say that that is--it is important to 
continue our NOAA research behind climate change because there 
is much we still don't know.
    Mr. Cartwright. EPA administrator, Scott Pruitt, has 
repeatedly stated that carbon dioxide is not a primary 
contributor to the warming that we observed. Did you know he 
said that?
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. Last fall, you presented the 
administration's three top priorities for NOAA and let me make 
sure I have them correct before I dive into it. Number one, 
leading the world in weather prediction. Number two, minimizing 
the impacts from severe weather. Number three, increasing 
sustainable economic contributions from our fisheries and 
oceans. Have I got all of that correct?
    Mr. Gallaudet. Yes, Congressman.
    Mr. Cartwright. And I notice that climate change is missing 
and for years NOAA has played an essential role in deepening 
our understanding of climate change, does that concern you? I 
know you have said in the past that, ``The administration will 
continue to support NOAA's climate mission.'' Are you concerned 
about dropping that off the list?
    Mr. Gallaudet. I would say it is imbedded within all three 
of those priorities, Congressman. In fact, so when we talk--in 
my opening statement, we have combined those first two 
priorities to what we call a weather and water priority and 
minimizing the impacts of extreme events. And so that involves 
events on scales that are in weeks to seasonal and even sub-
seasonal, and climate type of scales.
    Mr. Cartwright. All right. I am looking at the numbers in 
your budget requests and it seems to me the administration has 
proposed to cut NOAA by over a billion dollars. That is about a 
20 percent cut. Am I reading that correctly?
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. That is troubling. Let's talk about some of 
these cuts. Admiral, let's look how they align with the 
administration's priorities for NOAA, how they align with our 
shared understanding. Budget proposed is stripping $2.4 million 
from regional climate centers, which answer millions of 
requests from businesses, farmers, and local communities every 
year. Am I correct in that?
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. It will eliminate the climate resilience 
grants to states. And now the climate resilience grants showed 
us that for every one dollar invested in resilience, it results 
in $6 in savings from future extreme weather damages. Am I 
correct in that?
    Mr. Gallaudet. I don't know the exact number, sir, but I 
know that there is--the work our climate predictions provides 
the country saves money and lives.
    Mr. Cartwright. The budget will eliminate the climate 
competitive research grants, right?
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. It will dismantle, and that is the language 
the administration used, the climate program office as it 
currently exists, right?
    Mr. Gallaudet. I am unaware of that. That office is still 
funded in the fiscal year 2019 budget, sir.
    Mr. Cartwright. The budget will cut research on ocean 
acidification by 23.4 percent. Am I correct in that?
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. Even though ocean acidification can 
potentially harm and deplete our fishing stocks, right?
    Mr. Gallaudet. We are still continuing--even though there 
is a reduction in the funding, we still continue to do that 
research to support shellfish growers, for example, in the 
State of Washington. So yes, there are reductions in the 
program, but we are still looking at it, studying it, and 
supporting those who are affected by it.
    Mr. Cartwright. We will come back to this, but the budget 
also proposes decreases to hurricane forecasting research, 
doesn't it, even though hurricanes cost our country an eye 
popping $306 billion in damages last year, and even though 
400,000 American citizens in Puerto Rico are still without 
power over seven months after Hurricane Maria, correct?
    Mr. Gallaudet. So the rationale, as I mentioned earlier, 
Congressman, was not to--we didn't remove all hurricane 
research, for example. As I mentioned to Congresswoman Meng, we 
have a very solid and robust research program supporting 
hurricane forecast research. I went down to our Atlantic 
Oceanography and Meteorology Laboratory last week in Miami that 
has a hurricane research division. They are, and continue, and 
will be doing in this fiscal year 2019 budget terrific work to 
improve our hurricane forecasting and the research behind it. 
So we haven't zeroed it out. We have just made reductions in 
various areas we thought either were redundant or were--we had 
sufficient capability.
    Mr. Cartwright. I think we will come back to this, but at 
this point, Mr. Chairman, I yield back.
    Mr. Aderholt. Thank you. Let me switch gears and talk a 
little bit about--we have talked a little bit about hurricanes. 
Let me talk a little bit about tornadoes, as we had mentioned 
briefly before the hearing started. Of course, tornadoes in the 
southeast result in more deaths per capita than any other 
region in the United States. Since 2015, we have been funding 
the VORTEX-southeast program, SE program, which brings together 
meteorologists, researchers, and social scientists to better 
understand the storms and conditions that cause tornadoes in 
the southeastern part of the United States.
    Can you share a little bit about what the program has 
accomplished thus far and how it will help protect the folks 
that I represent back in Alabama from these deadly tornadoes?
    Mr. Gallaudet. Yes, Mr. Chairman. The VORTEX program I 
think is a terrific one. Yeah, over the last year I know that 
our--it has been managed by our national severe storm lab in 
Oklahoma, but they have partners in your state that they have 
actively done field research in to study the damage, for 
example, at different--where different tornadoes have occurred 
in Alabama.
    And then with that information, they have been able to 
reduce the uncertainty in tornado warnings and predictions and 
also better understand the decision/support type of work and 
how we provide warnings to emergency managers and the advice 
they should give the people because of the different nature of 
the storms in that--in, say, your region to those, say, in 
Texas. And so there has been great, I think, advances made by 
that program.
    I note your concern about the fact that the 2019 budget 
reduces that funding for the VORTEX program. And again, that 
was one where we felt that the national severe storm lab was 
still doing, with their baseline funding, had a good tornado 
research program, as required by the Weather Act I mentioned in 
my opening statement. So we didn't pull back all the research 
in terms of tornado warning, but we made a reduction based 
again on what we thought was a sufficient level of capability.
    Mr. Aderholt. OK. Well, please know that this is certainly 
important to us in the southeast and, of course, in Alabama, my 
home State.
    It is my understanding that half of NOAA's ships are past 
their designated service life and are scheduled to retire by 
2028, is that correct?
    Mr. Gallaudet. Yes, sir.
    Mr. Aderholt. In light of that, NOAA has proposed $75 
million each year to recapitalize its fleet. Before buying new 
ships for NOAA, we want to ensure that NOAA is fully utilizing 
commercial and partner assets. How does NOAA determine whether 
a mission can be completed by a partner vessel or are there 
additional missions that NOAA can use external ships to 
complete or reduce pressure on the NOAA fleets?
    Mr. Gallaudet. Yes, sir. We perform our oceanographic and 
hydrographic and fisheries research work with actually a kind 
of suite where we have our own vessels, but we also match that 
with sometimes contracted vessel support. And we do this in 
hydrography all the time. In fact, I would say it is roughly, I 
think 43 percent of our hydrographic surveys are contracted. 
The reason I think we can't entirely contract and use partner 
vessels, even though--because ships are expensive, is the fact 
that there are just some capabilities and instances where we 
will need a government only solution.
    A great example was the hurricane season, sir. NOAA's ship, 
Thomas Jefferson, was able to go in to Puerto Rico and all 
around the southeast, actually, right after the storms hit and 
do critical hydrographic surveys to open ports. Now, that ship 
opened up 18 ports in as many days following Hurricane Maria in 
the U.S. Virgin Islands and in Puerto Rico. And so that was 
something we, a surge capability we just couldn't contract out.
    Mr. Aderholt. OK. Let me go ahead and Mr. Serrano.
    Mr. Serrano. Maybe this is not a question for you, but for 
other people, but I would like to get an answer from as many 
people as I can. Right after Hurricane Maria hit Puerto Rico 
and the devastation that we saw, that many people claim is the 
worst ever under the American flag, it took such a long time 
for things to get going. And some of the excuses they were 
giving was that Puerto Rico was an island. And I sarcastically, 
or profoundly, said it was easy to invade it in 1898, so it was 
probably not difficult to reach it now. What was the problem? 
Was it administrative delays? Was it indifference, if you are 
free to say that? Is it the fact that it is a territory and 
they don't play in the same ballfield as states? I mean, 
something went wrong. Here goes that phrase again. Something 
went wrong and even people who are keeping quiet about it 
because they don't want to attack the administration or the 
agencies know that something went wrong.
    Mr. Gallaudet. Well, Congressman, again as I mentioned 
earlier based on personal experience, the people of Puerto Rico 
have my deepest sympathy. In my position at NOAA, I really--it 
is not mine to comment on the overall response of first 
responders and of FEMA. I met with Brock Long and we have a 
great partnership. I think I can tell you that NOAA's response, 
as I mentioned with the ship, Thomas Jefferson, and much the 
work we are doing now to remove derelict vessels and areas 
where hazardous material and oil has been spilled, restored 
habitat in many areas that--and thank you again for the 
supplemental appropriations, which we will apply. It is a very 
good effect in Puerto Rico and other areas that were affected.
    So I can tell you that NOAA's response has been terrific 
and I am very proud of the people of my organization.
    Mr. Serrano. Thank you. Well, you know, I just wanted to 
throw more information into the pot, if you will, because I 
have no qualms with NOAA. NOAA and NASA are two of our favorite 
agencies here, you know, except you are not sending anybody out 
into space anytime soon, right?
    Mr. Gallaudet. No, sir. No, and we are not funded to do it 
either. But I will tell you that we have----
    Mr. Serrano. Some staff members only.
    Mr. Gallaudet. The former administrator had some experience 
there, you know. But we have a very active ocean exploration 
program with our ship, Okeanos Explorer, which is discovering 
new things every year: a new species, new phenomena, and I 
think it is a program we are really proud of.
    Mr. Serrano. That is great. That is great. Among the many 
NOAA programs the administration wants to eliminate are the 
National Sea Grant Program and the Educational Partnership 
Program with Minority Serving Institutions. Among the many 
benefits these programs have provided is that they have 
encouraged a pipeline of talented young scientists to choose 
careers at NOAA. Admiral, won't the elimination of these 
programs harm NOAA's ability to maintain a high quality work 
force in many critical areas? I mean, you have been getting a 
lot of talent from those programs. How difficult is it going to 
be now?
    Mr. Gallaudet. Well, I will acknowledge and thank you for 
your support of both of those programs. And I will say that the 
sea grant program is a great one. It is very--we have recruited 
out of sea grants and the educational partnership program great 
talent. I have met many of our--of scientists in NOAA now who 
are veterans of those two programs. And in fact, last month, I 
spoke at the educational partnership program event at Howard 
University and I was able to see some new, young students who 
are all doing great research and partnership with NOAA. NOAA 
mentors these students. Our scientists enjoy that. And we gain 
because of it.
    So I will tell you yes. We have benefitted from and we have 
been able to build a more diverse workforce based on those--
support from those two programs. So they are important. I can 
only explain to you how previously that we had to make some 
tough calls given the cuts we were required to execute. And so 
some of the core services, like weather forecasting and the 
oceanographic and hydrographic surveys, are what we preserved.
    Mr. Serrano. Thank you. One last question here, Admiral. 
Would you please talk about the backlog of maintenance and 
repair needs at weather forecast offices? How bad is the 
problem, and to what extent is the backlog further harming the 
ability of the National Weather Service to make timely and 
accurate weather forecasts?
    Mr. Gallaudet. Thank you, Congressman. And again, I really 
appreciate your support to the weather service. It is just a 
really terrific organization, affecting Americans for the 
better every day. Yes, we have identified facilities across all 
of the weather service that are in need of repair. And I don't 
believe they are posing significant risk to the mission today. 
We are still saving lives, protecting property all across the 
country. And we proved it during this hurricane season.
    But you are correct in acknowledging that I am concerned 
about a number of our facilities and that--not only at the 
Weather Service, but across all of NOAA. And so we are looking 
closely at what we need to recapitalize at fisheries too, and 
in other locations to ensure our workforce has the best place 
to do the best job.
    Mr. Serrano. Thank you. Just one last comment, a selfish 
comment, but important to our districts. Some years ago, you 
set up a weather station at a community center populated by a 
lot of young people in my community. And in all honesty, you 
know, the years go by and I don't know in what condition that 
weather station is. If you could just check on it to see if it 
is where it should be because at one point, we were having 
local cable T.V. channels pick up the weather forecast from the 
weather station at the community center, which was really a 
great thrill for the kids and a great learning experience. So 
if you could just check on that, we would appreciate it.
    Mr. Gallaudet. We sure will, Congressman. Thank you.
    Mr. Serrano. Thank you. Thank you, Mr. Chairman.
    Mr. Aderholt. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. Admiral, I want to 
pick up on--we were talking about some specific cuts and really 
these are--the overall budget is something that comes from the 
administration and some--many of the folks in your position are 
treated as, well, this is something we have to live with that 
is coming down from on high. And we have talked about some of 
the comments from the administration officials basically 
denying climate change. A lot of the cuts seem to align with 
those beliefs. I went through a bunch of them with you already.
    The one that may be absolutely heartbreaking to you, 
Admiral, is the administration has proposed eliminating the 
arctic climate research program, hasn't it?
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. And I know you spent much of your career 
working on arctic research. Are you concerned about the effects 
of the elimination of that program on our national security?
    Mr. Gallaudet. Congressman, I thank you for your interest 
in this important area. I am not concerned because we are 
doing--even though that research line has been eliminated, it 
doesn't mean we are not doing arctic research. I was just at 
the Pacific marine environmental lab in Seattle and they have a 
very active program that is continuing various lines of arctic 
research, but not in the name of an arctic research program.
    For example, we have just contracted with an organization 
called Saildrone that operates unmanned surface vehicles. And 
we actually executed an arctic survey this year, just near the 
Bering Sea. And so we are undertaking a good amount of arctic 
research in the ocean and on the ice and we operate the 
National Ice Center in Suitland, Maryland, which I encourage 
you to visit sometime.
    So we do have a fairly--we are still continuing to do 
arctic research, sir.
    Mr. Cartwright. I want to follow up about talking about 
ice. I know NOAA published its 2017 arctic report card last 
December. It found that the arctic was warming at a rate that 
was unprecedented. Am I correct in that?
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. That is something the world has not seen in 
the last 1,500 years, am I correct in that?
    Mr. Gallaudet. I don't know the exact number, sir, but it 
has been warming, yes.
    Mr. Cartwright. And it is warming at twice the rate of the 
rest of the globe in the arctic, right?
    Mr. Gallaudet. That is correct.
    Mr. Cartwright. Last month, arctic sea ice, which we were 
just talking about, hit a record low, never before seen in the 
satellite era, correct?
    Mr. Gallaudet. For the winter, yes, sir.
    Mr. Cartwright. And it was 62,000 square miles smaller than 
the previous record set just the previous year, right?
    Mr. Gallaudet. Yes, sir.
    Mr. Cartwright. Well, warmth in the arctic affects the jet 
stream, does it not?
    Mr. Gallaudet. Yes, sir, it does.
    Mr. Cartwright. And you said that before. What you said 
was, ``Unlike Vegas, what happens in the arctic doesn't stay in 
the arctic, it affects the rest of the planet.'' Have I quoted 
you correctly?
    Mr. Gallaudet. You have done your homework, Congressman.
    Mr. Cartwright. All right. Well, Admiral, you were the one 
who delivered the 2017 arctic report card to the 
administration, right?
    Mr. Gallaudet. Correct, yes, sir.
    Mr. Cartwright. And you said, ``The public should have high 
confidence in us,'' and that, ``The White House is addressing 
the report, acknowledging it, and factoring it into its 
agenda.'' Did you say that?
    Mr. Gallaudet. That is correct. The Office of Science and 
Technology policy under the White House is supporting our 
arctic research efforts.
    Mr. Cartwright. But with all these cuts to climate 
research, does it not seem like the White House is failing to 
address it and properly factor it into its agenda?
    Mr. Gallaudet. Again, sir, I think that the answer is no. 
The Office of Science and Technology policy under the White 
House has supported, for example, our arctic research and the--
if not zeroed out our climate work. If you go to drought.gov or 
the Climate Prediction Center's website, you will see that we 
continue to put out seasonal and long range outlooks that are 
benefitting Americans and businesses in terms of drought 
temperature.
    We continue to look at the arctic and support arctic with 
research and forecasting. The Navy recently completed or is 
conducting--just conducted its ice exercise, something I 
attended two years up in the (indiscernible) where two 
submarines were basically doing research and tactical 
development. And we provided forecasts for--of the ice and the 
weather that supported the safety of those operations.
    So I believe that through NOAA, we are continuing to do 
very good work. We haven't eliminated our climate work, it has 
just been reduced.
    Mr. Cartwright. Well, I want to leave you with this. I want 
to have confidence in you, Admiral Gallaudet, and I do. You are 
clearly a good scientist, an able leader. I would say a good 
soldier or in your case sailor----
    Mr. Gallaudet. Sailor.
    Mr. Cartwright [continuing]. Sticking up for the folks up 
top. But looking at this budget, I just don't have confidence 
in the administration. I think this budget is going to hurt our 
national security. I think it is going to hurt our economy. I 
think it is going to hurt our country and the world for 
generations to come. And I think this is a budget written by 
climate deniers that would derail the great work that has been 
going on, largely under your leadership at NOAA. And I hope 
this committee can fix the serious problems in this budget 
proposal. And I yield back, Mr. Chairman.
    Mr. Kilmer. Thank you, Chairman. And thank you, Admiral, 
for being with us. I have got a few things I was hoping to ask 
about. First off, I would like to ask for a status update on 
the process of distributing funds to communities impacted by 
recent fisheries disasters. As you know, Congress approved $200 
million in supplemental funding to support those communities, 
but they continue to wait for relief while the agency works to 
develop a plan for how to distribute those funds. Can you tell 
the committee what the process--you know, when the process will 
be completed so that those funds can get out the door? We have 
got communities and folks who have been waiting for years.
    Mr. Gallaudet. Yes, Congressman. Thank you for your support 
of NOAA and your interest in this issue of fisheries disasters. 
We have developed a spend plan on how to allocate the $200 
million of funding, both for the west coast fisheries disasters 
that were declared in 2017 and, of course, those that were 
declared in the wake of the hurricane season.
    And so our spend plan is currently being reviewed at the 
department and will go to OMB we hope by the end of the--in the 
next two weeks or so. And then when OMB approves that, then we 
will be able to share--we will share with the states the 
allocations and then we will figure out exactly what those will 
fund in concert with your state and others.
    Mr. Kilmer. Great. If that is something once it is cooked 
by OMB that you can share with us, it would be very helpful.
    Mr. Gallaudet. Absolutely, sir.
    Mr. Kilmer. Thanks. I want to shift gears and thank you for 
visiting my state and learn more about the NOAA programs that 
are done in partnership with UW and that are pretty central to 
the economy in the Pacific northwest. In our neck of the woods, 
one of the most important programs is the IOOS program, which 
provides some real time data about ocean conditions, that is 
used by fishermen, and shellfish growers, and a host of other 
industries, and agencies, and stakeholders. Unfortunately, the 
fiscal year 2019 budget doesn't reflect the value of this 
program. The proposed cut of more than 30 percent would really 
cripple that system and jeopardize the livelihoods of folks 
that rely on that data, not to mention the impact it would have 
on other critical services, like search and rescue, and flood 
warnings, and navigation safety that also depend on this data.
    Now that you were able to go to Washington State and see 
the value and success of that program, I would be interested to 
hear whether you believe it is in the Nation's best interest 
for NOAA to divest from that critical program.
    Mr. Gallaudet. That is a great question, Congressman, and I 
have met with all the IOOS regional managers just recently in 
Washington, DC and I will say--I will agree it is a very 
important and impactful program. Being a career oceanographer, 
I get it very well. Again, as I mentioned, I don't think you 
were in the room, but we--in coming up with our fiscal year 
2019 budget, we had to make some tough calls. And we decided to 
prioritize core government services, and so grants and local 
related work was what we had--we picked to reduce or in some 
cases eliminate, not because we didn't think they were 
important or good, it was just that we had to prioritize.
    Mr. Kilmer. Finally, let me ask about the role your agency 
plays in mitigating coastal hazards. About 40 percent of the 
U.S. population lives in coastal areas, so NOAA is very 
important in everything from protecting communities from 
hurricanes, to tsunamis, to sea level rise. Unfortunately, the 
administration hasn't made this a priority. The district I 
represent is already experiencing some of the threats of sea 
level rise. We also happen to be a tsunami zone. So NOAA is an 
incredibly important partner in our region from the national 
tsunami hazard mitigation program to regional coastal 
resiliency grants.
    NOAA provides a lot of funding and expertise that is really 
important for communities like Westport, where I was just last 
Friday, and Neah Bay, Ocean Shores. I could give you countless 
examples from my home state. But the fact is, every single 
coastal state, roughly half of all states in the Nation, 
benefit from these programs. In my view, we should be doubling 
down on them because these are communities that are really at 
risk. That is what I am going to advocate as part of this 
committee. And I am not going to ask you to defend the proposed 
cuts to these programs, but I would like you to tell the 
committee how these cuts would affect NOAA's ability to 
continue to protect vulnerable coastal communities?
    Mr. Gallaudet. Sure, Congressman. And I, again, have deep 
appreciation for your interest and support of these--of the 
coastal zone management programs and resiliency efforts that we 
will leave reduced. Again, we are not eliminating all of our 
coastal work and support, if you will. I mentioned this to 
Congressman Meng, that I have been a coastal state resident in 
three states and several countries, so I--and I live on the 
Chesapeake Bay. So I very much appreciate these programs.
    And I will tell you, there is good work that will continue. 
Habitat restoration, for example, in Louisiana I visited a 
restored marsh that had been under water for decades that we 
restored and that is--that provided an effective storm surge 
barrier during this hurricane season to the residents of that 
state.
    And in your state, there is great work we are doing too. We 
have restored an estuary in your district, I believe, that is 
now very active for the salmon hatchery. We will continue good 
work and we just had to make reductions.
    Mr. Kilmer. Thank you, Chairman. I appreciate the time. I 
will just say as I yield back, I was in Westport and visited 
the Coast Guard station there and was meeting with a group of 
Guard members and their families and asked them, ``What is 
keeping you up at night?'' And the number of people who have 
mentioned the risk of tsunami was really significant.
    Mr. Gallaudet. Well, and that is great, sir. I will say, 
though, that again we continue to fund our tsunami program in 
this budget. It is reduced, but not eliminated. And I think the 
men and women that are working at our tsunami warning centers 
are experts, doing very good work, and we will--it is important 
for us to continue that capability.
    Mr. Kilmer. I agree. Thanks. I yield back.
    Mr. Jenkins. Thank you very much. Welcome, Admiral, it is 
an honor to have you here. I am from West Virginia and NOAA has 
made a real investment in our State. One of your supercomputers 
is in Fairmont, West Virginia, and that has been an important 
driver of high tech talent into our state coming out of our 
universities and bringing people to West Virginia. Can you give 
me any sense of kind of NOAA's view of that positioning in West 
Virginia, and the supercomputer, and your investment in our 
state, and the future that you see of NOAA in West Virginia, 
that facility in Fairmont, in particular?
    Mr. Gallaudet. Yes, Congressman. And thank you for your 
interest and support, again. And definitely I enjoy your state. 
I am going to be visiting it next month for the Eagle Horizon 
exercise, that is our backup site, if you will, for when we 
have to do continuity of operations. And I look forward to that 
time.
    And our supercomputing capability there is important to us. 
It is foundational for our numerical or high performance 
computing numerical weather prediction. And so we will maintain 
our presence in your State because that capability is so 
important.
    Mr. Jenkins. Great. Thank you. There was a proposal for 10 
years' worth of contracted work in the $533 million range. I 
appreciate your comments about the continued commitment to West 
Virginia. On your radar screen, some of this potential 
contracted work, half a billion dollars in West Virginia at 
this facility, your familiarity, what the game plan is, and 
what the outlook is?
    Mr. Gallaudet. Sir, I actually can't comment. I am not a--I 
will have to take this for the record on what our exact--in the 
fiscal year 2019 budget, what our program funds are for and our 
plans going forward in the future. I don't recall the numbers 
and so I will have to come back to you with that one.
    Mr. Jenkins. Right. Thank you. I have no further questions. 
Thank you for being here. I understand we have had two rounds 
already, so unless there is nothing else, I will move that this 
hearing is adjourned.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                         Wednesday, April 18, 2018.

                      OVERSIGHT OF THE 2020 CENSUS

                               WITNESSES

RON S. JARMIN, ACTING DIRECTOR, U.S. CENSUS BUREAU
ROBERT GOLDENKOFF, DIRECTOR OF STRATEGIC ISSUES, 
    GOVERNMENT ACCOUNTABILITY OFFICE
DAVID POWNER, DIRECTOR OF INFORMATION TECHNOLOGY,
    GOVERNMENT ACCOUNTABILITY OFFICE
    Mr. Culberson. The Commerce, Justice, Science Appropriation 
Subcommittee will come to order. We are here today to receive 
testimony from the Census Bureau and the Government 
Accountability Office in preparation for the 2020 census, one 
of the things that the Constitution requires us to do, we want 
to make sure it is done correctly, frugally.
    And the Census Bureau today is represented by Ron Jarmin. 
We are glad to have you with us. He is the acting director. And 
from the Government Accountability Office, we have Robert 
Goldenkoff and David Powner. Thank you very much for the work 
that you do on behalf of the taxpayers. And we welcome you to 
today's hearing and reiterate the importance of the job that 
you are doing.
    We are having this oversight hearing to ensure that our 
constituents' very scarce, precious, and hard earned tax 
dollars are wisely spent, that the charge given to us by 
Article 1, Section 2 of the Constitution is fulfilled, that it 
goes off flawlessly, we hope, and accurately. We are required 
by the Constitution to conduct an actual enumeration of the 
population every 10 years. And ever since Thomas Jefferson ran 
the first census, we have met that goal, but we haven't always 
been within budget and that is a source of real concern.
    Director Jarmin, we are entrusting you with our 
constituents' hard earned tax dollars and we are expecting you 
to be very frugal and careful in how they are spent. We have a 
big job ahead of us. Today I hope you will be able to convince 
the committee that the Census Bureau is working diligently to 
ensure an accurate enumeration that is on time and within 
budget. That is absolutely essential.
    We have seen discouraging signs regarding cost, which are 
really distressing. Last May, your predecessor came before this 
committee to report a $300 million cost overrun. And by 
October, this had ballooned into a $3 billion overrun with the 
2020 census estimated now to cost 15.6 billion. The overruns 
have just got to stop. We just can't function this way. And it 
has got to be done correctly.
    The Commerce Department then asked the committee for a 
bailout and we just simply cannot repeat that episode under 
either yours or Secretary Ross' watch. I know that he is 
personally overseeing the operation of the census. I know there 
are a lot of very capable career people that work under your 
direction, but this has just got to be done correctly, 
accurately, completely, and frugally, and within budget, and no 
more cost overruns.
    Aside from cost, another major concern is cyber security. 
With all of the sensitive personal data that you have on 
Americans, the Census Bureau is a prime target for cyber 
criminals and hostile state actors. And like most Texans, I 
really treasure our privacy and am very wary of the federal 
government's overreach. When Americans give sensitive data to 
the federal government, we need to be confident that you can 
keep it safe.
    It is a really important question. And as David, you and I 
visited about earlier, the fact that the IRS had a website 
crash yesterday is of real concern. I know that part of your 
oversight includes the IRS, so I want to be sure we talk about 
that today, about what happened with the IRS, if you--whatever 
you can tell us, and then to be absolutely certain that the 
census is secure, safe, and we are not looking at any similar 
problems.
    One of the great things about this Committee on 
Appropriations is we all work arm in arm and I have really been 
pleased to have as our ranking member this year Joe Serrano of 
New York, who we worked together for many, many years as good 
friends. And this is the best subcommittee on appropriations. 
And delighted to have you back, my friend, to join us and happy 
to recognize you for any remarks you would like to make.
    Mr. Serrano. My remarks, as you can imagine, will be a 
little longer than yours, but I have been doing that since we 
began. That is why he did not hear me.
    Thank you, Mr. Chairman. I would also like to welcome the 
acting director of the Census Bureau, Dr. Ron Jarmin, as well 
as Robert Goldenkoff, director of strategic issues, and David 
Powner, director of information technology. I apologize if I 
have mispronounced your names, but we can get into a 
conversation about what I have been called throughout the 
years. No one rolls their Rs anymore.
    Mr. Culberson. When New Yorkers can mangle language like 
Texans. We can really mangle ours.
    Mr. Serrano. I started by saying that my statement would be 
a little longer than yours, but you understand.
    Mr. Culberson. Of course.
    Mr. Serrano. The Census Bureau is now at a critical stage 
in preparation for the 2020 census. Final testing is underway 
in Providence. Staffing requirements are being finalized. 
Leases are being decided and rollout plans are happening now. 
Unfortunately, significant questions remain about the cost of 
the 2020 census and this administration's commitment to 
ensuring an accurate count.
    Before I go further, I want to thank the Chairman for 
working with our side and the Senate to greatly increase Census 
Bureau funding in the fiscal year 2018 Appropriations Act. The 
$2.8 billion included in that bill will help ensure the Bureau 
can ramp up critical preparations to allow the decennial census 
to get back on track and to replicate the successful 
partnership program of 2010. However, the Bureau's costs will 
continue to increase as we get closer to 2020, and I am 
interested to hear how you are using the fiscal year 2018 money 
and how your 2019 budget requirements are evolving.
    However, with this administration, it often seems like we 
go one step forward and two steps back. No sooner does this 
subcommittee attempt to rectify significant funding problems 
and in a bipartisan fashion support the efforts of the Census 
Bureau, when we are forced to address another census crisis of 
the administration's own making. Of course, I am referring to 
the recent addition of a citizenship question to the 2020 
census form.
    The addition of a citizenship question to the decennial 
census without justification or testing is deeply troubling. It 
points to the politicization of what should be a non-partisan 
effort, a problem underlined by reports that this question was 
added over the objections of career officials at the Bureau.
    The constitutional requirements to count all persons in our 
nation every 10 years allows the census to give us an important 
snapshot of how our communities are growing and changing. 
Unfortunately, with a citizenship question added to the form, 
many individuals will simply refuse to respond.
    I represent a large immigrant community in the Bronx that 
feels targeted by this administration. This latest action will 
undermine efforts to build trust and participation in the 
census in my hometown and elsewhere, which in turn will 
undermine census accuracy, but also distort the important 
functions that we use this information for, like the 
distribution of federal formula funds. Ironically, this will 
greatly harm not just blue states but so-called red states too 
like Texas, Arizona, and Florida. All of those states could 
lose congressional seats and electoral votes that they would 
otherwise gain in an accurate census.
    Aside from these important concerns, there is a significant 
literal cost to asking a citizenship question in the 2020 
census. We know that Census Bureau experts and the Census 
Scientific Advisory Committee anticipated lower initial 
response to the 2020 census because of the inclusion of this 
question. Additionally, we know that lower response rates 
translate into higher costs for in-person follow up visits. Add 
to that the lack of testing of this subject matter, and we here 
at the Appropriations Committee will be left to foot the bill, 
a larger bill than anticipated without a clear understanding of 
what that will be.
    That is, in part, why I hope to work with the Chairman and 
others to prevent these problems from occurring by precluding 
the Census Bureau from moving forward with this wrongheaded 
proposal. I know we all share the goal of an accurate and cost-
effective decennial census. However, it is troubling that all 
this--at this late stage, we still have serious questions about 
the administration's commitment to the same. And I am looking 
forward to that discussion today.
    Before I end, Mr. Chairman, let me just say that at these 
committee hearings, we always try to keep the issues on the 
issues, if you will, and not get into personal feelings. But I 
personally feel offended that part of that citizenship question 
asks the following: were you born in the United States? And 
then you answer yes or no or you skip it. That is what will 
happen with some people.
    Then it asks where were you born, and it lists all of the 
territories, Puerto Rico, and so on. Now, the census form 
doesn't ask were you born in Texas, were you born in 
California, were you born in New York, but it does ask were you 
born in a territory? If I fill it out correctly and not boycott 
that question, I will become part of a group of people that 
wrong-minded people, or people who hate, or people who are not 
in tune with what should be, will say look, we have 5, 10 
million people who were born in a territory, or we have X 
amount of people who were not born--they will be seen as not 
being born fully Americans, when in fact, I was born an 
American citizen in a territory.
    Which then begs the question that I have been asking for 
years. Why not include the territories in the total count? In 
other words, what is the population of the United States? Is it 
the 50 states and then the territories, which is what we do 
now? No, the full population is everybody who lives under the 
American flag. And that should be counted as one number. So you 
don't have X amount of Hispanics, you have X amount plus Puerto 
Rico, plus the Virgin Islands, plus other places.
    And so this question troubles me personally, and it offends 
me personally because it sets me apart. I grew up in New York 
since the age of 8. I served in the military. I am a Member of 
Congress. I have been blessed, and I can't be prouder of being 
an American. And to single me out, or to single my community 
out by saying were you born in a territory, the question asks 
itself. Why are we asking these questions? What is it that we 
hope to gain unless we are going to use it for something good?
    If you tell me, were you born in a territory, and then you 
include it in the total population of the U.S., we can discuss 
that. But if you are just going to allow people to single it 
out, those--that small percentage of Americans who still can't 
get used to the fact that we exist or that Barack Obama was 
president, you know who I am talking about, they will get to 
use this information in their own way.
    So I am sorry, Mr. Chairman, that I took extra time, but it 
has been a long time since a question or an issue bothered me 
personally more than this one. Thank you.
    Mr. Culberson. Mr. Serrano, I absolutely understand. No 
problem. And we are glad to have you with us today to answer 
our questions. And Dr. Jarmin, you are recognized for your 
opening statement, which we would encourage you to summarize, 
and if there is no objection, we will enter your statement in 
its entirety into the record.
    And I would ask each one of you to please keep your 
statements to five minutes. We will have additional time for 
questions. And you are recognized. Thank you very much.
    Mr. Jarmin. Thank you, Mr. Chairman. Good morning, Chairman 
Culberson, Ranking Member Serrano, and members of the 
subcommittee. Before we begin, I want to express my 
appreciation for the appropriations bill passed by Congress 
three weeks ago. We are thankful not only for the financial 
resources but also for the flexibility that allows us to commit 
the resources required for the census when they are needed.
    This year's appropriation helps to reduce overall risk to 
the 2020 census by enabling us to make critical investments 
beginning on October 1st. This appropriation and the way that 
it is structured underscores your commitment to the 2020 census 
and its success.
    Today, we are actively testing systems and operations in 
the 2018 end to end test. This is our final major test before 
the 2020 census. We are validating the interfaces between 44 
critical systems and their integration with 24 major 
operations. As we speak today, we are in peak data collection 
operations in Providence County, Rhode Island. And just an 
aside, we just spoke with a Boy Scout troop from Providence on 
the way in the door here this morning. And the Scout leader's 
father works as an enumerator, so I thought that was 
interesting.
    So anyway, Providence is an ideal location choice for this 
because it presents many of the different situations and 
challenges that we will face across the country in 2020, and 
its demographics mirror those of the nation. The self-response 
phase of the test began with a series of mailings that were 
sent to housing units last month. I monitor self-response 
daily, as do many others at the Bureau and the department. 
Notably, we were receiving a high number of responses via the 
internet and the overall response rate is as anticipated. As of 
this morning, we are at 32 and a half percent.
    All of the planned innovations for the 2020 census are 
coming together in the test. And the lessons learned will 
provide a firm foundation for success in 2020. We are looking 
closely at the data from the address canvassing operation to 
make sure that our blend of in office and in field address 
canvassing meets our standards. Our internet and telephone 
operations are being thoroughly tested as is our paper data 
capture operation. And we are continuing--or confirming our 
ability to make it easier for people to respond with a smart 
phone or a tablet.
    In a few short weeks, our field staff will begin collecting 
information with handheld devices and we will leverage 
automation to manage their work efficiently. Finally, we will 
examine the use of administrative records to inform final 
determinations about our ability to improve the efficiency of 
the non-response follow up operation with information that 
people have already provided to the government.
    During and after the tests, we will adjust our systems and 
operations based on what we have learned to make sure that both 
are ready for the 2020 census. As we enter peak operations for 
the test, 40 out of the 44 systems required for the test have 
been deployed. No system will be released without completing 
the necessary integration testings and security authorizations. 
And all 44 are on track to be fully integrated and deployed 
when they are needed to support test operations.
    The Census Bureau has been working closely with the 
Government Accountability Office to ensure that we have 
consistent understanding of the status of systems readiness and 
we are closely monitoring the final development and testing of 
the remaining systems. We are working intently to ensure that 
the systems are secure and they are authorized to operate.
    The ATO process is critical as it ensures that 
cybersecurity standards are addressed and risks are minimized 
for all of the systems. GAO is reviewing our progress to ensure 
that our processes and procedures are consistent with best 
practices, are well understood, and are followed.
    We value the independent assessment of GAO and we are 
thankful for their continued engagement. We are also engaging 
with NIST, the Department of Homeland Security, other federal 
agencies, and with the private sector to address and reduce 
cybersecurity risk. We are working together to make sure that 
participating in the census is safe and secure, and that the 
information we collect is protected.
    Finally, we have a well-developed process for conducting 
the scalability test on our systems during 2018 and we are 
eager to meet this critical milestone and fine tune our systems 
to scale to predicted loads in 2020. All of our preparations 
are aimed at achieving our objective of the complete and 
accurate 2020 census. This means that we must also encourage 
people to respond.
    As in past decennial censuses, we will mount a robust 
communication and partnership program to encourage everyone to 
respond, including those who are traditionally hard to count. 
For 2020, we are compiling research and data that will serve as 
the foundation for our communications and partnership program 
that was stronger than in 2010. With the support of the recent 
appropriation, we are looking at accelerating communications 
activities and ramping up our partnership staff earlier than 
planned.
    Seasoned partnership specialists with many decades of 
experience have been working since January 27 to help tribal, 
state, and local governments to develop complete count 
committees which bring leaders and government officials 
together to develop plans to support the 2020 census. As we 
ramp up to 1,000 partnership specialists in fiscal year 2019, 
our goal is to exceed the 248,000 community partners that we 
had in 2010.
    Census partners help everyone know that responding to the 
census is safe and important. Thank you and I look forward to 
your questions. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Culberson. Thank you very much, Director Jarmin. We 
look forward to hearing from you, Mr. Goldenkoff. Thank you 
very much.
    Mr. Goldenkoff. Thank you. Chairman Culberson, Ranking 
Member Serrano, and members of the subcommittee, GAO is pleased 
to be here today to discuss the Census Bureau's readiness for 
the 2020 head count.
    As you know, in recent years, we have identified a number 
of operational, IT, and other challenges that raise serious 
concerns about the Bureau's ability to conduct a cost effective 
enumeration. And in February 2017, we added the 2020 census to 
our list of high risk government programs. My remarks today 
will focus on two such challenges: implementing design 
innovations aimed at controlling costs and developing reliable 
cost estimates that better account for risks and inform annual 
budget requests.
    My colleague, Dave Powner, will then discuss the challenges 
the Bureau faces in implementing and securing critical IT 
systems. The bottom line is that while the Bureau has made 
important progress toward mitigating some of the risks facing 
the census, and we are encouraged by the top level oversight 
being applied by the Department of Commerce, the census is now 
projected to cost $15.6 billion, a $3 billion increase over the 
Bureau's original estimate, and what's more, significant 
uncertainties lie ahead.
    For example, with respect to design innovations, to help 
control costs while maintaining accuracy, the Bureau will use 
new procedures and technology for 2020 including greater use of 
automated data collection methods, administrative records in 
place of data collected by enumerators, verifying addresses 
using aerial imagery and other in office procedures rather than 
by going door to door, and allowing households the option of 
responding to the census via the internet.
    While all these new methods show promise for controlling 
cost, they also introduce new risks in part because they have 
not been used to a great extent in prior decennials, if at all. 
So to help ensure that key systems and procedures will function 
as planned, since 2012 the Bureau has held a series of tests at 
various sites across the country. However, citing funding 
uncertainties, the Bureau has curtailed recent testing efforts.
    As one example, the Bureau is currently conducting, as was 
mentioned, the 2018 end to end test. Essentially, it is a dress 
rehearsal for the actual enumeration. And the 2018 test is 
critical because it is the Bureau's final opportunity to 
demonstrate that essential census taking activities will 
perform under operational conditions.
    While the Bureau originally planned to conduct the 2018 
test in three locations, two sites, areas of Washington State 
and West Virginia, were eliminated from a full test because of 
budgetary concerns. And a complete dress rehearsal will now 
only be held in Providence, Rhode Island. Without sufficient 
testing across a range of geographic locations, housing types, 
and demographic groups, operational problems can go 
undiscovered and the opportunity to refine procedures and 
systems will be lost.
    Another risk factor is the Bureau's 2020 life cycle cost 
estimate. We found that the October 2015 version of its 
estimate fell short in our four best practices, only partially 
meeting the characteristics of comprehensiveness and accuracy, 
and minimally meeting characteristics for being well documented 
and credible.
    In December 2017, the Bureau provided us with the 
documentation used to update its cost estimate. And based on 
our preliminary analysis, we have found that the Bureau has 
improved its cost estimation process in each of those four best 
practices.
    So in short, while the Bureau and Department of Commerce 
have taken important steps to keep preparations for the 
decennial on track, a number of challenges and uncertainties 
remain. Going forward, continued leadership attention and 
congressional oversight will be needed to help ensure key 
components and systems are fully tested and will function as 
required, preparations stay on schedule, management functions 
follow leading practices, and any further cost growth is 
capped.
    This concludes my prepared remarks. I will now turn it over 
to my colleague, Dave Powner.
    Mr. Culberson. Thank you, Mr. Powner, you are recognized.
    Mr. Powner. Chairman Culberson, Ranking Member Serrano, and 
members of the subcommittee, thank you for inviting us to 
testify on the Bureau's efforts to deliver and secure 
technologies for the 2020 census.
    Since the last time we appeared before this subcommittee, 
the Bureau has announced a $3 billion increase to the overall 
cost of the decennial. About half of this increase or 1.5 
billion is associated with IT. On a positive note, since 
Secretary Ross announced this cost increase, we have seen 
strengthened governance at both the Department of Commerce and 
at the Bureau. This includes the Bureau meeting monthly with 
Secretary Ross and weekly with the undersecretary for economic 
affairs.
    Although positive, we still see room for improvements to 
the executive level reports that go to commerce on systems and 
security readiness. Your congressional oversight is essential 
to this transparency and I would encourage Congress to request 
these status reports to ensure that progress continues and 
risks are mitigated.
    This morning I will briefly summarize the status of systems 
development and testing as well as security readiness. Starting 
with systems readiness, the Bureau has made progress having 
completely development on 30 of the 44 systems. I would like to 
note that that number differs a little bit than what--the 40 
that was mentioned by Director Jarmin and perhaps we could talk 
about that during the Q and A. Key systems that need to be 
completed are the operational control system, the enumeration 
application, and the fraud detection system.
    Despite delays, the Bureau has plans to have the 
operational control system and the enumeration application 
fully deployed by July so that it can be included as part of 
the end to end test. The fraud detection system has been 
delayed eight months. It is not planned to be ready now until 
October of this year.
    Most of the systems that have been developed still need to 
undergo key integration testing to ensure that they interface 
or interact appropriately with other systems. My written 
statement shows that all but 8 of the 44 systems still need to 
undergo some sort of testing. And the 14 systems that must be 
delivered require significant testing, meaning that they must 
undergo systems as well as integration testing.
    Mr. Culberson. Could you say that again please? All but 
eight?
    Mr. Powner. Yes. All but eight of the systems need--so even 
though some systems are developed, there is still key 
integration testing that needs to occur. So what you do is you 
test them to make sure the system alone works. But the 
integration testing to make sure that they interact effectively 
is very important. And you want that done before it goes to the 
end to end test so that you test as much as this--as they 
operate as a unit of systems. OK?
    It is important to note that since the--once the end to end 
test is completed, there will be additional development and 
testing that needs to occur in 2019 to address new 
functionality, additional scaling and performance issues, as 
well as defects that are found during the end to end test. In 
addition to the 44 systems, the Bureau needs to ensure that key 
infrastructure is in place and secure. This includes cloud 
solutions as well as the network and security operations.
    Regarding cybersecurity, the Bureau, like other agencies, 
is constantly under attack. Recent incidents involved 
unauthorized access, phishing, and malware. The Bureau is 
working diligently to assess security controls, fix known 
deficiencies, and to have the proper sign off by both the chief 
information officer and the head of the decennial office to 
ensure that each system is ready for operations. 6 of the 44 
systems have this sign off. 32 need to be reassessed given 
changes to the systems. And another 6 need to be completed, 
including the fraud detection system.
    These reviews are important to ensure that cyber risks are 
at acceptable levels, especially since 39 of the 44 systems 
contain personally identifiable information. We remain 
concerned that the late delivery of several systems will not 
leave ample time to complete the reviews and approvals.
    I would like to conclude with three recommendations 
regarding IT for the decennial. Number one, executives at both 
the department and Bureau need to stay engaged on the delivery 
and status of the systems and closely monitor the key risks. 
This includes the timely delivery of software to the technical 
integration for the integration testing that we just discussed, 
Mr. Chairman.
    Second, the Bureau needs to have rigorous oversight of its 
contractors both during the end to end test and after as we 
lead up to the decennial.
    And third, they need to aggressively manage cybersecurity 
risks of the systems and the infrastructure given the threats 
and vulnerabilities confronting the Bureau. Mr. Chairman, this 
concludes my statement.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Culberson. Thank you very much, Mr. Powner. I would 
like to start out asking you and Mr. Goldenkoff, what could be 
done in your opinion to improve accountability at the Census 
Bureau?
    Mr. Goldenkoff. Well, you know, we are GAO. Accountability 
is quite literally our middle name.
    Mr. Culberson. Right, right.
    Mr. Goldenkoff. So anything that can be done to improve 
accountability, we are all for it. Are you talking about 
individual--accountability of individual employees or more 
organizational performance?
    Mr. Culberson. Both.
    Mr. Goldenkoff. Both? OK.
    Mr. Culberson. Both, because if you were in the private 
sector, clearly you would be able to reward people for their 
good work with a raise or promotion. People that, you know, 
have habitual problems, you know, which is one of the great 
frustrations I think in the--one of our great frustrations I 
think as taxpayers is the inability to fire people----
    Mr. Goldenkoff. Sure.
    Mr. Culberson [continuing]. If they don't do their job. And 
why wouldn't we give, for example, the secretary who comes out 
of the private sector, a very successful businessman, the 
ability to frankly hire and fire people that aren't performing 
in the Census Bureau to----
    Mr. Goldenkoff. Sure.
    Mr. Culberson [continuing]. Increase accountability. 
Because ultimately, that is why the private sector obviously 
works so well. People know they are going to be rewarded for 
good work and they could be--lose their job if they are not 
performing.
    And I will tell you, the overruns are just appalling. I 
mean, it is just unacceptable these $3 billion and we just 
can't have this anymore. And I am looking for some bold ideas.
    Mr. Goldenkoff. Sure. First of all, you are absolutely 
right. If there is--if there are circumstances where there has 
been gross negligence and mismanagement, particularly at the 
top levels, we should be able to remove and terminate people 
who----
    Mr. Culberson. You can't do that.
    Mr. Goldenkoff [continuing]. Are not performing well.
    Mr. Culberson. That can't be done today, right?
    Mr. Goldenkoff. Well, and I think this is not an issue with 
the Census Bureau. It is a government-wide issue.
    Mr. Culberson. It is. This is a great case study.
    Mr. Goldenkoff. Exactly, and you know we have looked at 
this just from a government-wide perspective--we haven't looked 
at it for the Census Bureau, and so everything, it needs to be 
dealt with on a facts and circumstances basis. But speaking at 
a higher level, there are things that agencies can do and short 
of termination to hold top executives accountable.
    One is making sure that you have a good performance 
management system and it is used, and a lot of agencies don't 
have that. What I mean by that is making sure that there is a 
line of sight between individual performance and organizational 
results. And that starts with your senior leaders. I would take 
a look at their performance contracts, their SES contracts, and 
see what are they being held accountable for.
    Mr. Culberson. And I appreciate that. I know David--Mr. 
Powner was talking about a moment ago how important it was. He 
recommended that the executives to commerce monitor, there be 
good oversight, that you are watching for, you know, cyber 
intrusions. I would just like you to think, both of you, 
outside the box for a minute. What would you recommend to this 
committee if we really wanted to be bold and ensure that the 
census does not--there is no more overruns, that things run 
efficiently, if we really wanted to make some bold, out of the 
box recommendations to the committee about using, again, this 
is a great case study--and we know there is a lot of--Mr. 
Jarmin, you have got a lot of superb, top notch, professional 
people there who are committed to do their job. But this is a 
constant source of frustration throughout the entire federal 
government.
    I would just like you to think outside the box for a 
minute, what about creating some system where the secretary 
could absolutely decide that somebody needs to be fired in 
order to make sure that people are held accountable and we 
don't see any cost overruns if this works as it should. People 
know there are consequences if they--and rewards if they are 
doing a good job.
    Mr. Powner. So a couple of things. I mean, that is probably 
a longer term solution to get that addressed, right?
    Mr. Culberson. It may be sooner than you think.
    Mr. Powner. One of the things I will say to the credit of 
the Bureau is they moved some individuals in terms of who is in 
charge and who is driving the ship because I think we have a $3 
billion overrun. You said, well, what is going to change? You 
have improved governance from Secretary Ross, but are the same 
players still in? There have been changes. So they did move 
some of the parts and everything.
    I think the thing that would really help that this 
committee could really help is there is nothing that drives 
performance like having an executive or Congress breathing down 
your neck, OK? And that is why I think the undersecretary and 
Secretary Ross having governance as well as----
    Mr. Culberson. Right.
    Mr. Powner [continuing]. Director Jarmin, that drives 
performance if there is accurate status reports that go up on 
the delivery of systems, security of systems, the operations 
performing where it is--say at least quarterly from Congress.
    Mr. Culberson. Right.
    Mr. Powner. If there was a quarterly status report came 
here that you could actually look at the progress that is being 
done and whether the progress is according to the plan. So for 
instance, you know, like in our report in the appendix, we have 
44 systems and we say 19 of them were delayed.
    OK. So we get into this back and forth with the Census 
Bureau. Well, it is not delayed because they claim that the 
operations were pushed back as part of the test. That is 
semantics. OK? If it is supposed to be done here and it is not 
done here, what are we doing to mitigate risks and ensure that 
it is successful. I don't really care what word we use, but we 
need to make sure that this gets integrated, tested, and 
secured in time.
    And I think your oversight, back to my opening paragraph 
and my oral statement, I think if you got those status reports 
at least on a quarterly basis and dogged the hell out of 
progress to ensure that they stay on schedule, that would be 
helpful along with what is being done with Director Jarmin and 
also at the Department of Congress.
    Mr. Culberson. Yes, I like that a lot. Relentlessly bird 
dog this. Secretary Ross I know is personally involved. This 
subcommittee will be personally involved. I know Mr. Serrano 
and I, Ms. Lowey, Chairman Frelinghuysen, we will all be 
working together to ensure that--we just can't have anymore of 
these $3 billion cost overruns. It is just unacceptable.
    And this end to end census test began last month, but 
according to GAO's testimony, close to a third of the IT 
systems required for the test are still being developed. I 
mean, you have known about this test for years and I don't 
understand why all the IT systems aren't ready for tests. What 
is up with that?
    Mr. Jarmin. Thank you, Mr. Chairman. The systems that Mr. 
Powner is referring to are actually being used right now. We 
have a phased approach to--there are different product releases 
and certain functionalities ready for when it is needed. And 
the systems have been reviewed by the director of the decennial 
census and the CIO to ensure that all the public facing systems 
have an ATO and that they are as secure as possible.
    We often have findings and we do work on those to make sure 
that we have all of the documentation and that we have checked 
all of the boxes on that.
    Mr. Culberson. But why, for example, isn't the fraud 
detection system ready in time?
    Mr. Jarmin. The fraud detection system is actually 
something that we planned to use post-data collection and we 
didn't need it for while we were in the field for the end to 
end test. It is something that we can test later, so that was a 
resource issue. We decided to focus resources on the things 
that we needed to get up and running for the test.
    Mr. Culberson. But one of the ones that you have got to get 
done is security system testing. What about the security 
testing for the systems?
    Mr. Jarmin. That is ongoing all the time, and will remain 
ongoing until we are done with the census. We are constantly 
working on improving the systems, testing the systems, and 
ensuring they are secure. That will be an ongoing effort for--
--
    Mr. Culberson. You know, are you, Director Jarmin, 
confident we are not going to see anymore increases in the cost 
of the census in fiscal year 2018? How confident are you that 
we are not going to see any more increases?
    Mr. Jarmin. So as Mr. Goldenkoff noted that we worked 
closely with the Secretary and his team at the Department of 
Commerce last year to do a very deep dive into the 2020 Census, 
life cycle cost estimate. We brought in a team of folks that 
have been working on cost assessments for satellites at the 
Department. We had the best people available to work on that. 
We did a very deep dive and a very thorough review of the 
program. And I think we are confident that the $15.6 billion 
will cover the cost of the census.
    Mr. Culberson. So that is it?
    Mr. Jarmin. We will be monitoring what happens in the test. 
I think there is sufficient contingency in there that even most 
kinds of fixes that we anticipate should be covered within the 
$15.6 billion. But if there is something that we need to come 
talk to you, you will hear from us right away.
    Mr. Culberson. And I assure you we will be aggressively and 
rigorously conducting oversight of the way that you are 
proceedings. And obviously, we want to see people that do a 
good job rewarded, but those that are not, I mean, this 
subcommittee, we just can't tolerate any more of these cost 
overruns.
    And there is a whole variety of financial tools available 
to us as a subcommittee that I will use, as needed, to ensure 
that you stay within those cost boundaries. I will do whatever 
I can to help Secretary Ross hold people accountable, reward 
those who do a good job, and hold other people accountable.
    I am confident that with his background in the private 
sector, he could--he would do--if we gave him the tools that he 
had in the private sector, I am confident Secretary Ross would 
really be able to ride herd on the census and ensure that our 
tax dollars are not wasted and that the count would be 
accurate, and complete, and timely, and secure.
    The private sector just doesn't have any problem with these 
things. It is maddening to us as taxpayers to see that the ease 
with which you can--whether it be ordering something online, 
transferring money in an account you can be in any state, any 
country, and move money easily and securely, and to see these 
problems with the federal government is just--it is maddening.
    And that is why I encourage the Government Accountability 
Office to think outside the box. Bring us some bold new 
suggestions on what you think we could do to help give 
Secretary Ross the tools he needs to really hold people 
accountable to encourage that--to make sure that the census is 
accurate, complete, timely, secure, and frugal.
    Mr. Jarmin. Yes. Thank you, Mr. Chairman. We are striving 
to do that and we have made a number of personnel changes over 
the last several months that I think are aimed at accomplishing 
just that. We have some very good people on the team, 
experienced with issues we have had in prior censuses that are 
able to aggressively manage the schedule and the cost of the 
census.
    Mr. Culberson. Thank you, because this has to be done 
right.
    Mr. Jarmin. Yes.
    Mr. Culberson. Thank you very much. I understand Ms. Lowey 
is on a tight schedule. So Mr. Serrano, with your gracious 
understanding and agreement, Ms. Lowey, I am pleased to 
recognize you because I know your schedule is full today.
    Ms. Lowey. Well, thank you very much, Mr. Chairman. And I 
want to thank my ranking member and friend. I know what a 
passionate advocate my friend, Mr. Serrano from New York, has 
been for an accurate census count. So thank you for giving me 
an opportunity. Unfortunately, there are all kinds of conflicts 
going on. So I appreciate it.
    I have just a question I would like to ask. I strongly 
oppose this administration's decision to include a citizenship 
question on the 2020 census. A bipartisan group of six former 
directors of the Census Bureau wrote to Secretary Ross in 
January, urging him not to include this language. They wrote, 
and I quote, ``We strongly believe that adding an untested 
question on citizenship status at this late point in the 
decennial planning process would put the accuracy of the 
enumeration and success of the census in all communities at 
grave risk.''
    Can you tell me, why does the Trump administration think it 
knows better than the bipartisan group of six former census 
directors?
    Mr. Jarmin. Thanks for that question. As you know, Title 13 
of the U.S. Code delegates the responsibility for deciding 
which questions are on the census to the Secretary of Commerce. 
And when the request from the Department of Justice came in in 
December, he directed a three-pronged review: a legal, a 
policy, and a technical review.
    The Census Bureau was responsible for the technical review. 
As part of that review, I think the census folks, as well as 
stakeholders outside, like the six former directors, noted that 
one of the main concerns that people have with the citizenship 
question is that there could be reduced response rates, 
especially in certain communities like the Hispanic community 
and the immigrant communities.
    There is not a lot of direct evidence that that happened. 
What can we look at to make that assessment? The citizenship 
question has been on the American Community Survey since 2005 
and it had been on the long form of the census since 1970. And 
so there is some--we could get some circumstantial evidence of 
what the differential response rates are, but it is not a large 
difference and it is hard to pinpoint it to the citizenship 
question.
    The Census Bureau provided three options to the Secretary. 
One was to do nothing, to continue to provide the citizen 
voting age, population data from the American Community Survey 
as we have done. One was to put the question on the census. And 
the other was to use administrative records, primarily from the 
Social Security Administration, but also from CIS and from the 
State Department, which is--those are in negotiation.
    The Census Bureau, suggested the best approach would be to 
use administrative records, but we noted that there were 
strengths and weaknesses in terms of providing high quality, 
block level, citizen voting age population data to meet the 
request that the DOJ had stated in their letter.
    The Secretary reviewed that and with all of the other 
inputs that he had, including from the six former directors, 
opted for a hybrid approach of using--both the administrative 
records and the question on the 2020 questionnaire so that is 
how the Secretary made that assessment.
    Ms. Lowey. I understand that. And I just want to be sure my 
facts are the same. In Secretary Ross' March 26th memo, he 
points out that prior decennial censuses asked citizenship 
questions up until 1950. And Census Bureau surveys of sample 
populations continue to ask a citizenship question to this day. 
The Secretary also asserted that the citizenship question has 
been well-tested.
    But we don't really know what Secretary Ross means by this, 
and I am highly skeptical that this administration has 
thoroughly tested this question to see if it would allow for an 
accurate count. So I want to follow up, Dr. Jarmin. Given the 
significance of the 2020 census and how important it is that we 
count everyone accurately, can you review again for me what 
data or information did the census rely on to come up with this 
proposal? And given the fact that a citizenship question has 
simply not been well-tested or asked widely in nearly 70 years, 
it seems to me the Census Bureau must treat this matter very 
carefully and should only proceed if there are credible 
assurances that it will do no harm.
    Can you tell me what assurances can we expect to receive, 
if any?
    Mr. Jarmin. As you know, we are under litigation on this, 
so I can't comment in detail. I can summarize what was already 
in the Secretary's decision memo, which I did pretty 
thoroughly.
    I think the question is being asked today. There are folks 
getting the American Community Survey, and that question is on 
that form. That question has been answered by the population on 
the American Community Survey and prior to that on the long 
form of the decennial census in 1970, 1980, 1990, and 2000. In 
2005, is when we moved it to the American Community Survey, so 
it is the case that people understand and can answer the 
question.
    What we don't know, and you are very perceptive, is that in 
the 2020 environment where the data will be used for 
reapportionment and redistricting and the allocation of federal 
funds, we don't necessarily know how people will behave in that 
environment. There really is, unfortunately, no way to test 
that, outside of doing it in the census. There is no other 
situation where the data are going to be used for those 
purposes, so we can't say definitively what that would be.
    But there is some information that is being put together, 
the administrative record for these court cases, and when that 
becomes available, that is something that we will share with 
the subcommittee and that you will be able to review and 
understand the information that the Census Bureau reviewed and 
to provide to the Secretary.
    Ms. Lowey. Now, what is the time frame?
    Mr. Jarmin. I am not a lawyer, so I can't tell you the 
answer to that question, sorry. Soon, I hope.
    Ms. Lowey. Thank you, Mr. Chairman.
    Mr. Culberson. Thank you. Mr. Serrano.
    Mr. Serrano. Thank you. Just a comment before I ask my 
questions. There are some people who may react to this and 
apply pressure on themselves by not answering the question, 
and, therefore, there are even some groups who I don't support 
asking for a boycott of the census. And what I have told them 
is that we have worked today hard, all of us, to get people in 
certain communities to fill out the census form for it to now 
go back. You know, and this is being transmitted to the world, 
so then, you know, I am going to get a lot of comments about, 
you know, you should be part of the boycott. Well, I don't 
believe in the boycott because we worked too hard to get people 
to believe in the census.
    On the other hand, if the census brings pressure that this 
is going to take another route if this information goes out 
there, it begs the question, why would you ask it this time 
other than the way you have been asking it on the long form, 
which has not caused much problems, if any. So that is--you 
know, we keep harping on that, but it has to be.
    Director Jarmin, it has been reported that Secretary Ross 
made the decision to add a question on citizenship to the 2020 
Census over objections from senior career officials at the 
Census Bureau. Without putting you on the spot, is this true, 
and how heavily involved was the Census Bureau in this 
decision-making?
    Mr. Jarmin. We were involved in the technical review that 
the Secretary had asked for. Again, we made the recommendation 
of using administrative records, but we noted, there were some 
strengths and weaknesses to that approach. There were some 
strengths and weaknesses to putting a question on the 
questionnaire and there are some strengths and weaknesses 
associated with not doing anything at all.
    After that, it was up to the Secretary to use that 
information with other information that he gleaned from talking 
with legal staff and with talking to, for instance, the six 
former directors and a number of other stakeholders from around 
the country, on both sides of this question, when he made that 
decision. The Census Bureau is an apolitical professional 
organization and we will do our best to do a safe and secure 
and complete and accurate census that we are directed to do so, 
by the Department and by the Congress.
    I do want to emphasize, though, that, nothing has changed 
in terms of the security and the culture that the Census Bureau 
brings to the table in terms of making sure that the data are 
kept confidential. The census will remain to be safe and 
secure. We will not share statistical information with other 
government agencies. This will not go to law enforcement.
    We work hard also to make sure that everybody feels like 
participating in the census is an important part of their civic 
duty and we will continue to do so, whether the question is on 
the form or not.
    Mr. Serrano. Well, I just want you to remember something, 
and I don't expect you to, nor will I ask you to comment on 
this, unless you want to, because I don't want to bring you 
into waters that you should not be in, but it is clear to 
everybody that there is tension in this country between some 
minority groups and other people and the Justice Department and 
some of their comments and some of their views and how they 
handle certain things.
    So if you are worried about that, and then you read or you 
hear that the Justice Department is asking the Department of 
Commerce, i.e., the Census Bureau, to put this question in, 
your immediate reaction is, This can't be good. Finding out 
whether I am a citizen or not, it is not a problem, but why are 
they asking this question?
    And the belief on the street, if you will--and we get to 
hear the people on the street--is that it is done to keep 
people from signing up and not being counted and that helps in 
redirecting and so on--who knows? But when fears start to grow, 
they are very hard to stop.
    Just like I told you before, when you asked me where I was 
born and you don't ask Mr. Kilmer--and I am not picking on him, 
where he was born--you are actually drawing a line between us. 
You are saying that I am a citizen, but different than he, 
because I had to put down where I was born and he did not and 
that creates all kinds of mind games that we have been dealing 
with for a lot of years. We have made a lot of progress in this 
country, but we still have a lot of things to do.
    Mr. Jarmin, as you know, numerous Members of Congress, 
including myself, have expressed serious concerns about the 
impact of the citizenship question. Dr. Jarmin, what is the 
latest point at which content changes could be made to the 2020 
Census questions, without causing disruption to ensure that 
printed forms and information technology systems are still 
ready in time for Census Day? In other words, if my amendment--
and I will have an amendment--wins, you know, then you guys 
will hate me because you will have to change the forms, what is 
the time?
    Mr. Jarmin. Thank you for the question, Ranking Member. But 
let me tell you, we will never hate you, regardless of that. I 
used to work with his brother, so----
    Mr. Serrano. My brother did 30 years, right, with the 
Census Bureau?
    Mr. Jarmin. Yes.
    Mr. Serrano. And I want you to know, Mr. Chairman, for the 
record, and for any reporter in the room, that he got that job 
before I came to Congress.
    Mr. Jarmin. In our plans, I think we would like to have 
everything settled for the questionnaire this fall.
    Mr. Serrano. This fall?
    Mr. Jarmin. Yes, that is in our plans. That reflects our 
inherent conservatism on these matters, so----
    Mr. Serrano. You are putting a lot of pressure on the 
chairman, you know, to accept my amendment.
    Mr. Jarmin. But there is time after that. If it extends 
beyond say, next spring or early summer, you are getting into 
where changes are going to cost money. So, obviously, the 
Census Bureau would like this resolved very quickly.
    Mr. Serrano. Can I ask one more and then I will turn it 
over?
    Mr. Culberson. Of course.
    Mr. Serrano. Secretary Ross's memo asserts that, quote, 
``No one provided evidence that they are residents who will 
respond accurately to the decennial census that did not contain 
a citizenship question, but would not respond if it did.'' 
However, at the very end of the secretary's memo, he announces, 
``To minimize any impact on the decennial census response 
rates, I am directing the Census Bureau to place the 
citizenship question last on the decennial census form.''
    Now, since the census suggests the Justice Department knows 
there will be a very real and negative impact associated with 
adding this question, if so, why isn't the Department testing 
the question as part of the 2018 end-to-end test currently 
being conducted in Rhode Island?
    Mr. Jarmin. Thank you. I think there are two parts to that 
question. One was, whether or not there was--about the response 
rate. I think both the Census Bureau and other external folks 
highlighted that that was a concern to the Secretary. I think 
he recognizes that concern. There was not a lot of direct 
evidence to say that it would be, X percent of an increase in 
non-response, so he made a cost-benefit decision, using several 
criteria. I think that is how he came to that conclusion.
    In terms of putting the question last, I think that is a 
mitigation thing, to make sure that if someone is going through 
the questionnaire and if they are put off by that question, 
that they complete as much of the questionnaire before that, as 
possible. We are also doing other things to mitigate possible 
negative impacts to the question.
    We have right now a survey out in the field called the 
Census Barriers, Attitudes, and Motivators Survey. That is a 
survey to 50,000 people to ask their likelihood to participate 
in the census and what makes them more likely to participate or 
not to participate. Associated with that, we have focus groups 
from around the country. Enrique Llamas is heading to Puerto 
Rico this afternoon to participate in some of those.
    Mr. Serrano. There is a game tonight, you know, between the 
Indians and the Twins.
    Mr. Jarmin. If we see him on Twitter or something that 
will--but--so we have instructed the folks that are sort of 
moderating those focus groups to add an inquiry about people's 
attitudes about the citizenship question. We will use this data 
to work with our advertising and our partnership specialists to 
try to come up with strategies to do, just like you said, to 
make people understand that participating in the census is 
important, that it is safe and secure, and that we need 
everybody to participate.
    Mr. Serrano. One closing comment. On my comment about, you 
know, the territories being counted differently--and, again, 
for any reporter listening to me, this is not a statement 
against non-citizens--but here is the truth. If you are living 
in New York and you are here legally, you will be counted in 
the census as part of the population of the United States. If 
you are living in Puerto Rico, and you are therefore for a 
citizen, you won't be counted in the population of the United 
States. Something is wrong with that picture, and I don't think 
when they wrote the Constitution, they necessarily closed the 
door on what interpretations we can give it.
    I know they don't like me to say it is a moving document or 
evolving document, but it has been, and I would hope that the 
census continues to study the issue of, can you or will you 
include the territories in the total population of the United 
States, because we are cheating ourselves as a country. We 
actually have more people than we claim we have.
    Mr. Jarmin. I am sure there is a lawyer who has an opinion 
on that, but we will definitely take that back and have some 
conversations.
    Mr. Serrano. I have an opinion on that.
    Mr. Jarmin. Yes.
    Mr. Serrano. Thank you.
    Mr. Culberson. We need to remember those people are a part 
of the United States and also the extra--the territorial--I 
mean, the exclusive economic zone of the United States is 
about--land-wise, 50 percent larger than we realize because of 
the territories and all the underwater exclusive economic zone 
that we have as a result.
    Mr. Kilmer, I want to thank you for your patience. I think 
it is important to let everybody have a chance to ask 
questions, so I am pleased to recognize the gentleman from 
Washington state, Mr. Kilmer.
    Mr. Kilmer. Thank you, Chairman, and thanks for being with 
us.
    I want to echo the concerns of the ranking member. You 
know, I think there are real concerns that the inclusion of 
this citizenship question can add uncertainty and risk and 
cost. You know, folks in my region know all too well the 
history of politicizing the census. It is--history in World War 
II, as a tool to discriminate against and intimidate Japanese-
Americans.
    I have heard from--we just did a round of town hall 
meetings in my district and we heard from constituents who 
still remember that very well and I am worried that the 
citizenship questions hearkens back to that, not to mention the 
risk just from a science standpoint, the data needs to be 
accurate so that Congress can make informed decisions about 
where money goes.
    So I guess I am--I would like to ask you, we have heard 
multiple experts who have suggested that this could impact 
response rates and the accuracy of the data. So has there been 
an estimate of what the non-response rate might be with and 
without the citizenship question and what the range of 
potential increases in non-response might be, due to the 
inclusion of that question?
    Mr. Jarmin. Thanks for the question, Representative Kilmer, 
and good to see someone from my home state of Washington here.
    I think, again, this is where the litigation probably 
limits what we can say right now. I think some of the numbers 
you have asked for are in some documents that were provided to 
the Secretary. If they become part of the administrative record 
and are made public, we will be glad to get those to you and 
then to have any conversations you might want to have to follow 
up from that.
    Again, I can say that, from me being an economist and, 
running regressions and trying to understand causal impacts of 
things, there is not a clean analysis that we can do to really 
determine if differential response rates were due to the 
citizenship question or due to some other factors.
    Mr. Kilmer. You haven't seen that evidence in previous 
censuses?
    Mr. Jarmin. Well, in the previous censuses, it was only 
long form, so that is one of the reasons why it is hard to tell 
what it would look like in this environment. I think we had 
some staff who made a good effort at this, but it is 
imperfect--it is not going to be a definitive answer.
    Mr. Kilmer. So a range was provided to the secretary that 
suggested some impact on response rates?
    Mr. Jarmin. Yes. Not a large impact, but some impact.
    Mr. Kilmer. So what is the increase in costs for every 
increase in percent non-response?
    Mr. Jarmin. If I recall, the last estimates we saw were in 
the fifty-million-dollar range for percent non-response, but 
what we are talking here, because this would impact a 
relatively small part of the population it would be felt among 
subgroups, and so for the overall cost, it would not be 
particularly large.
    Mr. Kilmer. Can you say a little bit more what you mean by 
that when you say that the--so I understand that there would be 
a differentiated non-response based on certain population, 
but----
    Mr. Jarmin. Right. For many people, we don't expect that 
this would impact their response patterns, at all, citizens, 
largely, and that's the majority of the population, so it just 
wouldn't have a big impact on the overall response rate. It 
would be the response rates of subgroups that would matter.
    Mr. Kilmer. So there was a range that was provided to the 
secretary that suggests some percentage reduction and it is 
about $50 million per 1 percent?
    Mr. Jarmin. Yes, but we don't expect a one-percent 
reduction in response----
    Mr. Kilmer. In the aggregate?
    Mr. Jarmin. Right. Yes.
    Mr. Kilmer. OK. What are the risk mitigation steps that are 
being taken, just in case there is an increase in non-response?
    Mr. Jarmin. That was some of the information that I 
provided to the ranking member. I think the current research 
that we are doing to have a more explicit focus on the 
citizenship question, that will be used with Y & R, our 
advertising partner, to come up with strategies to message to 
the communities that we think might be impacted by that.
    Mr. Kilmer. I see the red light of doom, so I will hold my 
other questions for--if we are holding another round, I am 
happy to stick around and ask them.
    Mr. Culberson. To make sure I understood you to say you do 
not expect a one-percent decline in participation?
    Mr. Jarmin. Total, no.
    Mr. Culberson. Some significantly smaller amount may be 
minimal?
    Mr. Jarmin. I think, let's wait until we can provide the 
information in a more robust way when the administration record 
comes out and then we would be really happy to come back and 
have a conversation with you about what we think the impacts 
would be. I think that is probably the best way to----
    Mr. Culberson. Is it fair to say the impact would be 
minimal?
    Mr. Jarmin. I think, you know, let's wait until we can 
provide the information in a more robust way when the 
administrative record comes out and then we would be really 
happy to come back and have a conversation with you about what 
we think the impacts would be. I think that is probably the 
best way to----
    Mr. Culberson. Is it fair to say the impact would be 
minimal?
    Mr. Jarmin. I wouldn't say minimal. I would say it could 
be--in some communities, it might be important, but it is not--
--
    Mr. Culberson. It is not going to reach 1 percent?
    Mr. Jarmin. No.
    Mr. Culberson. Thank you. We are ready now for the 
gentleman from Alabama, Mr. Aderholt.
    Mr. Aderholt. Thank you. It's good to be here. Thank you, 
Mr. Chairman.
    I just wanted to follow up. You, in one of your first 
comments that you made and in your written statement, you talk 
about in the midst of the 2018 end to end census test, and I 
will admit I have not spent a lot of time on researching how, 
you know, you developed this over time and get ready for the 
census, but from a thirty-thousand-foot level, if you are going 
into a Rotary Club and speaking and you are asked about this 
2018 end to end census, just make a little summary and explain 
it from a thirty-thousand-foot level, exactly what this does.
    Mr. Jarmin. The 2018 end to end test is primarily meant to 
make sure that all of our systems and processes are ready for 
2020. So, it is roughly a dress rehearsal. We are not testing 
everything. There is a bunch of post-data collection activities 
that we are not testing during the 2018 test, but it included 
an address-canvassing portion--that was last fall--that was 
done in West Virginia, Washington state, and in Providence.
    Mr. Aderholt. The three areas that you mentioned?
    Mr. Jarmin. Yes. And then we did peak operations in just 
Providence County, Rhode Island, that includes providing people 
the opportunity to respond on the internet, and that is what 
has been going on lately. You could respond via the telephone, 
which we have also been getting a good number of phone calls, 
and via paper.
    And then in May, for the folks who haven't responded, just 
like we would in the actual census, we will be sending 
enumerators out with smartphones to collect the data from those 
who haven't been counted yet.
    I was in Providence last week talking to a group there and 
sort of polled the folks to see if they had been filling out 
their 2018 census tests, and several of them actually had, so 
that was--a bit. So we have got about 31 and a half--32 and a 
half percent response rate right now.
    Mr. Aderholt. So you will have folks on the ground with 
smartphones----
    Mr. Jarmin. Yes.
    Mr. Aderholt [continuing]. Who will be taking a lot of this 
information. Will this be the first census taken with 
smartphones that have been on the grounds or was that----
    Mr. Jarmin. Yes. Yes. Yes.
    And that is one of the key innovations, not just that they 
are using a smartphone, but that we are assigning their work 
electronically, remotely. In prior censuses, it was a paper-
based operation, and people would meet their crew leader in the 
morning, physically meet them and get their work assignments 
and go out and enumerate households and then have to process 
that paper back. This is a much more efficient way.
    Like my colleagues, there is the added risk, we haven't 
done that before, so we are watching this, really carefully. I 
think we are in good shape so far. We will see what happens in 
May.
    Mr. Aderholt. Can you explain to me a little bit about how 
you work with states and do you have--is there a Federal Census 
Bureau assigned to each particular state to make sure that 
particular state is ready to go or how--explain to me how it 
works.
    Mr. Jarmin. Our outreach in partnership activities include 
what we call complete-count committees. Many of those are done 
at the level of the governor, but they can be at any level. We 
have robust partnership programs working with all levels of 
state and local government around the country, tribal 
governments, as well. I think we have a very robust and diverse 
program of reaching out to all different parts of the community 
around the country to make sure that people can know that the 
census is safe and secure.
    Mr. Aderholt. Do you have one particular person that is 
over each state?
    Mr. Jarmin. I don't think we necessarily have one person 
over each state. We have multiple people in each state 
attacking different levels of the problem.
    Mr. Aderholt. So what I was wondering is if, you know, if 
you have--because, obviously, you hit on a little bit earlier, 
it depends on a lot about how much federal help and, you know, 
it's significant. And just to make sure that someone is looking 
after that particular state; whereas, one state may be--and, 
you know, I am just throwing this out--Alabama might be very 
focused on it, whereas Georgia may, you know, say, This is 
important, but they are just not making it a focus. I just want 
to know if there is somebody there who is saying, you know, I 
am watching this state.
    Mr. Jarmin. We have contacts with all of the governors' 
offices in all 50 states and in the territories, as well. We 
have a very robust, outreach.
    Mr. Aderholt. But do you have one particular person, 
federal person, that's assigned to that?
    Mr. Jarmin. We have headquarters people who are in charge 
of the overall partnership program----
    Mr. Aderholt. In other words, if I wanted to ask about how 
Alabama is doing on there, is there a person that it will be 
the go-to person that can say, I am in charge of Alabama?
    Mr. Jarmin. I can definitely get you someone who will get 
you the someone. I don't think we have someone who is in charge 
of Alabama, but we have people who are in charge of----
    Mr. Aderholt. Regions?
    Mr. Jarmin. Yes. We have, both at headquarters and in the 
regional offices, people that are working with different levels 
of state and local government and with private sector 
organizations and companies and churches and what have you. In 
2010, we had 248,000 different partners. We expect to have 
close to 300,000 this time and all of the major governmental 
organizations below the federal government will be represented 
in that.
    Mr. Aderholt. OK. I see my time is up. Thank you, Mr. 
Chairman.
    Mr. Culberson. Thank you, Mr. Aderholt.
    Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman.
    Dr. Jarmin, do you believe that immigrant populations are 
harder to count?
    Mr. Jarmin. We have many groups that are in hard-to-count 
populations and immigrants are one of those subgroups, yes.
    Ms. Meng. Do you believe that adding a last-minute question 
like the citizenship question will have a bigger impact on 
higher immigrant populations?
    Mr. Jarmin. So this, hearkens back to some of the 
conversations that we had before. We do expect if there is a 
negative impact, it would be largely felt in various subgroups 
and immigrant populations, Hispanic populations would be where 
we would expect to find that if we did find it.
    Ms. Meng. If you could clarify something you mentioned 
before about how this question will not affect most people, 
mainly, citizens.
    Mr. Jarmin. The citizens won't have the same negative 
reaction to the question that we might expect non-citizens to 
have, but, again, there is not a lot of evidence in what we do 
in the American Community Survey that says that that impact is 
very large.
    Ms. Meng. But you are acknowledging some sort of potential 
impact on response rates from people who might not be citizens 
or larger immigrant communities?
    Mr. Jarmin. There could be some, yes.
    Ms. Meng. I think that is reason enough to fear an 
inaccurate count, which is the main and sole purpose of the 
census, as required by the Constitution.
    If you could also clarify something else that you said in 
your answer before about if someone wasn't comfortable filling 
out that citizenship question specifically on a census, that 
they would be able to not answer it.
    Mr. Jarmin. So on all surveys, including the census, there 
is often items of non-response. And we process many surveys 
with incomplete responses. The census is certainly one of those 
in the past; it will be in the future.
    If you don't fill out--you know, we encourage people to 
fill out the questionnaire completely and fully. If you don't, 
there is some probability that we may need to follow up with 
you at a later date, either on the phone or in person. So, 
obviously, we want people to fill out the survey as completely 
as possible.
    But, it is the case, just generically, that in the survey 
world, some people don't fill out whichever questionnaire they 
are being provided; whether it is a business survey, a 
household survey, there are often many questions that are left 
blank.
    Ms. Meng. So if someone were to fill out the survey almost 
completely, but not fill out the citizenship question, would 
their survey still be counted?
    Mr. Jarmin. Yes.
    Ms. Meng. Thank you.
    Mr. Jarmin. We would definitely encourage people to fill it 
out as completely as possible.
    Ms. Meng. A couple other communities like immigrant, 
diverse immigrant population, who we fear will be undercounted 
are rural Americans and children, particularly under the age of 
5. Rural Americans are at a high-risk for an undercount, as you 
know; often, homes are spread far apart, hidden from the main 
road, may not have city-style addresses.
    For the 2020 Census, the Census Bureau has chosen to focus 
its efforts on electronic responses which can also present 
challenges for rural communities where access to reliable 
internet is already an issue. What steps are you taking to 
ensure that these communities are properly counted?
    Mr. Jarmin. That is an excellent question. In the 2018 end 
to end test in the address-canvassing portion, we were in 
Beckley, West Virginia, which is a very limited internet access 
area testing our systems and our equipment and our processes in 
that type of environment. We need to count everybody, 
regardless of where they are.
    I think that folks that are in a limited--we know from the 
American Community Survey which areas have limited internet 
access. We will be sending those folks paper forms on the first 
mailing. Obviously, our goal is to hire our enumerators from 
local areas who know the area, know the people. So we will use 
many of the same methods that we used before to reach folks in 
rural areas. But again, partnership and outreach activities are 
critical here. But we will be using a range of response 
options. Areas with limited internet access should have plenty 
of opportunity to respond by phone or through paper.
    Ms. Meng. Thank you, I yield back.
    Mr. Culberson. Thank you. The gentleman from Pennsylvania, 
Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. Dr. Jarmin, with 
respect to the census, in a September 2017 memo census staff 
noted unprecedented fears about confidentiality from 
respondents. Both respondents and field representatives 
expressed concerns at the very highest rates ever seen before 
during a pretesting project. And you are familiar with that. 
Obviously these concerns have strong implications for the 
accuracy of our census. And the question is how concerned are 
you about that, about the fears about confidentiality and what 
are you doing about it?
    Mr. Jarmin. Thanks for that question. I think there is a 
general unease in the public about how their data are used, 
both by the government and by private organizations. The Census 
Bureau, the data that we collect from American households and 
businesses is covered by Title 13 of the U.S. Code, that means 
it has to be kept confidential, is used for statistical 
purposes only. So, we will be using our communications and 
outreach program to try to communicate to the public that 
participating in the census is safe and secure and that their 
data will be used only for the purposes for which it was 
stated.
    I think that trying to combat this problem is bigger than 
just the census. I think we are constantly--we know that when 
there is a data breach at a company that people have issues 
sometimes responding to some of our surveys because it is fresh 
in their mind. And so, it will be important for us to get out 
and to really drive home the point that the census is safe and 
secure and that regardless of what is happening in the 
community at the time, if there is a data breach, at another 
company or what have you that they know that participating in 
the census is something that is important and is safe.
    Mr. Cartwright. Can you reassure me that this is a very 
high priority for you and it is not just, oh, we are going to 
throw that in the outreach information?
    Mr. Jarmin. Oh, no, absolutely. So, we work with our 
colleagues from GAO and from other government agencies to make 
sure that the systems that we process, collect and process the 
data on are secure, that the data are secure when they are 
moving and when they are at rest. The protection of the data 
and the confidentiality of the responses are part of the Census 
Bureau culture. It is something we take very seriously that we 
know that we are not going to get the willing participation of 
American households and businesses for the surveys that we 
conduct if they know that the data are not safe. And so this is 
something that we take as one of the highest priorities of the 
agency.
    Mr. Cartwright. And of course one of the biggest fears you 
are going to be facing is that the information will be 
transferred to another government agency, and specifically ICE, 
for example. Are you envisioning specific reassurances that you 
are going to give the respondents about not sharing their data 
with other government agencies?
    Mr. Jarmin. Yes. We give those reassurances now and will 
continue to do so.
    Mr. Cartwright. All right. Also, the 2020 census is going 
to implement a number of innovations aimed at increasing 
efficiency and decreasing costs. And one of them is using 
internet responses. I know Chairman Culberson touched on this, 
but I want to follow up. An October 2017 GAO report titled 
``2020 Census: Continued Management Attention Needed to Oversee 
Innovations, Develop and Secure IT Systems and Improve Cost 
Estimation'' found that the Census Bureau has not yet addressed 
several security risks and challenges to secure its systems and 
data, including making certain that security assessments are 
completed in a timely manner and that risks are at an 
acceptable level. According to the most recent GAO report as of 
this month only eight out of forty-four IT systems have 
completed all testing for the 2018 end to end test. When will 
the remaining thirty-six IT systems be developed and tested for 
the 2018 end to end test and why is this process taking so 
long?
    Mr. Jarmin. Many of those systems are currently in use 
right now. They have authority to operate. There is still some 
additional functionality that we plan to add to some of them 
that will require additional testing and security assessments. 
And that is something that we will be doing until we go live 
with the census. We will be constantly testing and improving 
and improving the security of our systems until the census. And 
that includes robust work with other government agencies and 
private sector organizations to be continually load testing, 
scalability testing and security testing these systems.
    Mr.  Cartwright. Is that a no problem answer?
    Mr. Jarmin. No, it is not a no problem. It is a we are on 
this all the time answer.
    Mr. Cartwright. Well, the most recent GAO report found 
``The Bureau plans to rely heavily on both new and legacy IT 
systems and infrastructure.'' Considering 85 percent of these 
IT systems are going to be dealing with sensitive information 
from respondents, are you going to be able to test all the IT 
systems?
    Mr. Jarmin. Yes. In the schedule I think we are on track 
for completing all of that work. Again, this is something that 
we take very seriously. The security of these systems is 
tantamount and we will be on top of this all the way.
    Mr. Cartwright. Well, I thank you, Dr. Jarmin, and good 
luck to you.
    Mr. Jarmin. Thank you.
    Mr. Cartwright. Yield back.
    Mr. Culberson. I am just double checking with the staff 
here, Mr. Cartwright. If the law as a result of the concerns 
with the Japanese Americans of World War II prohibits the 
Census Bureau from sharing individual data about individual 
Americans answering the survey with any other governmental 
entity, my staff tells me a felony.
    Mr. Jarmin. Absolutely. It is five years in prison and 
$250,000 fine. And that law was passed in 1954 partly as a 
result of that regrettable incident in World War II.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Culberson. One of our most sacred obligations is to 
ensure that every American, all of us, every person is 
treated----
    Mr. Jarmin. Right.
    Mr. Culberson [continuing]. Has equal protection and due 
process under the law no matter who you are.
    Mr. Jarmin. And that, I will just say that this extends, 
you know, we use a lot of administrative data from other 
government agencies, from the IRS and Social Security 
Administration. The same protections are provided to all 
individually identifiable or company identifiable data that we 
get from--this is a part of how the Census Bureau operates. And 
so the culture of confidentiality is extremely strong at the 
Census Bureau.
    Mr. Culberson. It is a good thing.
    Mr. Serrano. Can I?
    Mr. Culberson. Yes, certainly.
    Mr. Serrano. This is something that is trouble----
    Mr. Culberson. You are not on. Try it again. You good? OK, 
go.
    Mr. Serrano. This is something that has troubled elected 
officials for a while. So when I go to a church, as I have been 
doing a couple--for a few years now and saying please sign the 
form, fill it out, no information, nobody is going to pass this 
onto anyone else, I was telling them the truth?
    Mr. Jarmin. Absolutely.
    Mr. Serrano. All right, thank you.
    Mr. Culberson. It is important for people to know that. I 
am confident the census form probably says that too. So when 
you are filling it out it says----
    Mr. Jarmin. It does say that.
    Mr. Culberson [continuing]. Your information is private, it 
is not going to be shared.
    Mr. Jarmin. Yes.
    Mr. Culberson. No worries.
    Mr. Jarmin. It also says your response is required by law.
    Mr. Culberson. Yes. I want to be sure because when we get 
to full committee that we all understanding that the testimony 
you have had here today is that you don't expect the--that the 
presence of this question is going to have a less than one 
percent impact and probably far less than that.
    Mr. Jarmin. I think it is hard to predict what that would 
be. I am not in the business of----
    Mr. Culberson. Plus it is confidential anyway.
    Mr. Jarmin [continuing]. Predicting the future, but it is 
confidential. And I think this is something that we need to, 
part of the way how we react and, people will follow what their 
leaders do. And I think this is something where if we assure 
people regardless of what questions are on the form that 
participating in the census is absolutely an essential thing to 
do----
    Mr. Culberson. Yes.
    Mr. Jarmin [continuing]. Then we will be in good shape.
    Mr. Culberson. And it is confidential. Texans like that.
    Mr. Jarmin. It is confidential.
    Mr. Culberson. We all like that as Americans. We like the 
government out of our lives, out of our business, it is a good 
thing. I would like to ask the GAO, if I could, to talk to us a 
little bit about the--how accurate is the cost estimate that 
the--revised cost estimate that the Census has given us, how 
reliable and accurate is that?
    Mr. Goldenkoff. Sure. Thank you for that question. We have 
not looked at the actual number. What we have looked at was the 
process that the Census Bureau used to develop the cost 
estimate. And as you know when we were here we have testified 
on this before and we have reported on it in the past, is that 
the Census Bureau did not follow our four best practices for a 
quality cost estimate. Those four best practices are it needs 
to be comprehensive, it needs to be well documented, it needs 
to be accurate, and it needs to be credible.
    What we found when we looked at the 2015 cost estimate is 
it fell short in each of those categories. It minimally met the 
categories of well documented and credible and only partially 
met the categories of accurate and comprehensive. So for 
example, some of the things that we were looking for and 
weren't there, not all costs were accounted for, not all risks 
were accounted for, we couldn't independently verify the 
calculations. And it was discouraging because we first brought 
issues with the Census Bureau's cost estimates to the Bureau's 
attention back in 2008. So this has been a longstanding 
problem.
    Mr. Culberson. Ten years ago.
    Mr. Goldenkoff. Yes. So and the Census Bureau did make some 
changes. One of our recommendations was to bring in more 
experts on cost estimation. The Census Bureau did that. It was 
still an issue with the 2015 estimate in terms of the quality 
of it. But then the Census Bureau updated its cost estimate. We 
reviewed the documentation for that beginning in December 2017. 
It is still a work in progress. Our review is still a work in 
progress. The good news is that the quality is much improved. 
So at least preliminarily the Census Bureau now has 
substantially met the categories of accurate and credible and 
fully met the categories of being comprehensive. Where the 
Census Bureau still fell short is in the area of being well 
documented.
    Mr. Culberson. And independently verifiable.
    Mr. Goldenkoff. So there have been improvements. And so to 
the Census Bureau's credit and the Department of Commerce's 
credit we know that, from the Secretary of Commerce all the way 
on down the Census Bureau has really been focusing on this. And 
so now what we will be looking for is additional documentation. 
Our report should be out in late spring, early summer. And what 
we will be looking for going forward is the extent to which the 
Census Bureau manages off the cost estimate, that this is not 
just a one time thing, you shouldn't be doing it just because 
GAO wants it, but it is something that you manage as conditions 
change, environmental conditions in the field. The 
circumstances, operational conditions are going to evolve over 
time and that is going to affect costs.
    Mr. Culberson. Mr. Powner.
    Mr. Powner. Yes, I would like to reiterate a point too that 
Director Jarmin made. Your question earlier about whether the 
15.6 is enough. There is a contingency in there and hopefully 
it is enough and the contingency covers it.
    Mr. Culberson. Fifty million.
    Mr. Powner. 15.6 billion.
    Mr. Culberson. Right. But I mean I think we----
    Mr. Powner. 15.6 billion, Yes.
    Mr. Culberson [continuing]. Have got a contingency of--you 
have asked for in the 2018 bill a fund contingency of $50 
million.
    Mr. Powner. 50 million. But that 15.6 has a larger 
contingency.
    Mr. Jarmin. A much larger contingency in fiscal year 2019 
and fiscal year 2020.
    Mr. Powner. And so that is the question. And we should know 
a lot more, to reiterate what Dr.--Director Jarmin mentioned, 
at the end of the--near the end of the end to end test how well 
the systems are performing, how well the security is, how well 
the operations are performing. We should have a pretty good 
indication by the end--this fall for instance, whether there is 
going to be additional work and whether that contingency will 
cover the additional work that will remain.
    Mr. Jarmin. Right. We also will know a lot of parameters 
that are in the life cycle cost estimate. We will be able to 
get a more precise estimate of those, sort of buy down some 
risk there. We should know quite a bit more after the end of 
the test.
    Mr. Culberson. I hope you will include in your report 
what--I mean why, if you were told about these problems back in 
2008, this hasn't been addressed. I would really be interested 
in why this has been such a persistent problem in your opinion 
and what creative solutions you would recommend to the Congress 
to give the Secretary the authority that the Secretary needs to 
help resolve the problem.
    And in the area of cyber, you know, the Census Bureau is 
going to be a prime target for cyber attacks. And could it--I 
see here that in 2016 the Australian census crashed when people 
tried to fill out their form. And Australia has five fewer 
million people than Texas. And we just saw what happened with 
the IRS yesterday. Mr. Powner, you alluded to this a little bit 
earlier. And I know part of your responsibilities include 
monitoring the IRS. What can you tell us about what happened 
with the IRS website yesterday and what steps are being taken 
to ensure that we don't have a crash like this from happening 
with the Census website.
    Mr. Powner. Yes. So regarding the IRS there is still some 
unknowns there. It appears that what happened with the IRS was 
the front end system, the modernized e-file system, not the 
backend system, which everyone looks at the individual master 
file, that's the 50-year-old system where our tax returns are 
processed, there are unknown questions there about what really 
happened. They reported it was a hardware issue. Obviously 
there is heavy traffic at this point in time, right, near tax 
day. IRS historically has done a really good job with 
performance and stress testing. So there is a question about 
was it a performance issue, was it a cyber incident, was it 
just a failure of the systems. And those are the questions that 
need to be asked. And we are going to sit down with their chief 
information officer real soon to find out exactly what happened 
and we will report back to you.
    I think the important thing here is as it pertains to the 
census and what happened with the Australian census, that was a 
denial-of-service attack. When you have a denial-of-service 
attack, I mean, clearly all these security issues that we are 
dealing with, the authority to operate that Director Jarmin 
mentioned, it is very important that we have diligence in 
ensuring that the vulnerabilities are cleaned up and we have 
less holes in our systems. We are always somewhat vulnerable.
    The other thing that is really important here is the 
performance testing that needs to occur. You want to stress 
test the heck out of these things because if everyone ends up 
hitting the internet response on certain dates or a certain 
timeframe that triggers that, and that could very well happen 
with advertising and the like, you want to make sure that the 
system can handle that irregardless of a denial of service. But 
what denial of service really does, what happened in Australia, 
is they planted, you know, certain malware and it populated 
itself throughout a network and it overloaded the system and 
then you couldn't access it for two days. So again, we have got 
security and performance testing that is really important. And 
they are working on it hard and they take this very serious.
    Mr. Culberson. So you are satisfied with the level of 
testing that is being done?
    Mr. Powner. Well, their approach is rigorous and it follows 
best practice. I think what happens is there is a lot of work 
that still remains for additional testing. The changes to the 
systems that remain and the reassessing from a security point 
of view, that is what is important. They have already--many of 
these have already been assessed once. But what you don't want 
is you don't want to change to a system that creates a 
vulnerability. And you are only as good as your weakest link. 
So those reassessments are very important. And again, I think 
the Bureau takes this very serious.
    It is also important to look at what they are going to do 
from a penetration testing point of view. We know that they 
have penetration tested the system. We have some outstanding 
questions about what the results of the penetration tests are 
and what is planned in the future. Because what you want to do, 
just when you think you are secure you have got to try to 
penetrate it as much as you can to make sure we are secure as 
possible. And again, they are working on that.
    Mr. Culberson. Will the census be using any sort of an app 
for people to be able to log on and fill out the forms more 
quickly and easily?
    Mr. Jarmin. It will basically just be an internet browser 
type. The internet response is just a website that they can go 
to.
    Mr. Culberson. A website.
    Mr. Jarmin. Yes.
    Mr. Culberson. Because I know NASA and some other apps that 
have had problems with cyber security. When they send apps out 
there and they wound up getting hacked.
    Mr. Jarmin. We will be monitoring this. Part of what we are 
doing that Mr. Powner referred, so we are doing penetration 
testing. We have put out bug bounties where we have invited 
people to come in and beat up the systems. We are also looking 
to use what is called red teams, which is basically a much 
slower longer term approach to try to find vulnerabilities in 
the systems. We are going to leave no stone unturned in trying 
to make sure that the systems are secure as possible because we 
do expect to be a big target in 2020 and we need to be able to 
do that.
    An additional mitigation thing that we are using sort of 
vis-a-vis the lessons learned from the Australian experience, 
is that we will use a mailing strategy. People will get a 
postcard or a letter in the mail that says please go on the 
website and fill out your census. Here is your housing unit ID. 
We will sort of spread that out over a period of time so that 
people aren't getting those mailings all on the same day and 
then everybody is excited to go out and fill out the census 
hitting the site all at once. So there are some things that we 
are trying to do to take some lessons from our Australian 
counterparts.
    Mr. Culberson. Thank you. Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I was going to 
apologize for all the questions we asked on one subject, but I 
think you came ready to answer those questions because you 
suspected that would be a question. Let me show you something. 
I told you before that I was personally upset, right. But some 
other people may be upset. This is the way it will appear. And 
I will share it with my colleagues. It says ``Is this person a 
citizen of the United States?'' And the first option is, ``Yes, 
born in the United States.''
    That should be the end of it. Then it says the second 
option, ``Yes, born in Puerto Rico, Guam, the U.S. Virgin 
Islands or Northern Marianas.'' That makes it look to anyone 
like being born in one of these places makes you a citizen 
different than being born in the United States. That might have 
been true when you had territories that were not states yet and 
they were not incorporated and that whole issue, but the world 
has changed.
    I mean, when we have a war, we send people from those 
territories, and they can't refuse to go, you know, and that is 
the line I always use, because that is a sign of who they are. 
This is really--opens the door for people to just say they are 
not like us, they are different. In fact, I wouldn't be 
surprised if I get an email after this, saying, so how did you 
get to be a member of Congress? Do you qualify? I say I may not 
qualify, but I certainly qualify citizenshipwise. So pin this 
up somewhere and look at it and see if you get the same 
feelings I get.
    The Census Bureau's National Advisory Committee on Racial 
Ethnic and other Populations, which among other things advises 
the Census Bureau on issues affecting immigrant populations, 
did not request the addition of a question on citizenship; is 
that correct? And doesn't that also undermine the case for 
including the question?
    Mr. Jarmin. So you are saying that they did not request the 
question?
    Mr. Serrano. Right.
    Mr. Jarmin. The request came from the Department of 
Justice.
    Mr. Serrano. And did they comment on it, do you know, or 
the Committee on Racial and Ethnic and Other Populations?
    Mr. Jarmin. We have not had a meeting of that group since 
the Secretary's decision.
    Mr. Serrano. I see. This is the scary part, you know, that 
I told you about before, the fact that it came from the Justice 
Department. And one has to wonder why would the Justice 
Department want to know that. That's the climate we are living 
in, you know.
    Mr. Jarmin. Their letter stated that it was for enforcement 
of the Voting Rights Act.
    Mr. Serrano. Well, you enforce the Voting Rights Act by 
making sure that sheriffs don't stop people on their way to 
vote like they did in Florida when President Obama was running 
for office. You do other things. I can give you a list of 
things you do. You don't stop people from voting on that day. 
You make it easy for them to vote.
    How finding out if a person is a citizen is going to 
protect the Voting Rights Act is beyond me, because, you know, 
let me tell you something I know about the undocumented. They 
are terrified of the way they live. They are not in your face 
telling you ``I am here and I am undocumented.'' The last thing 
on their mind is to go register to vote and commit such a 
crime. That is the last thing on their mind. Would they like to 
vote? Yes. They are coming into a whole new place where there 
is democracy and freedoms for everyone. But trust me, this is 
not about the Voting Rights Act. And my problem is that I am 
embarrassed to say I haven't figured out what it is about.
    Next question. Did anyone at the Census Bureau or the 
Commerce Department meet with officials from the Department of 
Justice or any outside group regarding the original request to 
add the citizenship question? Did anyone from the White House 
contact the Census Bureau or Commerce Department about this 
request? If so, will you please provide the names of those 
individuals and groups that met with Commerce Department 
officials?
    Mr. Jarmin. I can't speak for Commerce Department 
officials. I can say for the Census Bureau that I do not 
believe we met with anyone from DoJ or the White House about 
this question.
    Mr. Serrano. Well, if you didn't meet--you say you don't 
believe, so could there be someone else that met from the 
Department?
    Mr. Jarmin. No. I don't, no, I don't think so.
    Mr. Serrano. But you are pretty sure that no one met. The 
final 2018 Omnibus Appropriations Agreement directed the Census 
Bureau to ensure that its fiscal year 2018 partnership and 
communications activities in support of the census, the 2020 
census, are conducted at a level of effort and staffing no less 
than that conducted during fiscal year 2008 in preparation for 
the 2010 census. Please explain for us the ways in which the 
Census Bureau is working to abide by this directive of the 
Committee and ensure that the partnership and communications 
efforts are at least as strong this year as they were at this 
same point ten years ago.
    Mr. Jarmin. Thank you, Ranking Member. I think first of all 
we started the partnership program earlier this time. We have 
40 partnership specialists, seasoned specialists, in the field 
right now. We have had them since the beginning of 2017. We 
have a team at Census that is looking into both on the 
communication and the partnership program using those 
appropriations to accelerate both our planning for the 
communications campaign, hopefully so that we can get some ad 
buys done earlier and save some money, but also to start 
ramping up the partnership program this year.
    In addition, the other main thing that we are looking at is 
also accelerating our scalability testing of our system so that 
we can get out ahead of that a little bit and sort of buy down 
some risk. But again, we have a team working on that right now. 
We are in conversations with both the Department and the OMB 
about how we plan to do that. Once we have those conversations 
we will be glad to come back and talk to you about what exactly 
we are going to do.
    Mr. Culberson. Thank you. Mr. Kilmer.
    Mr. Kilmer. Thanks Chairman. I hate to come back to this, 
but I heard you say in response to the Chairman's question that 
you couldn't confirm that the impact on response rate would be 
less than one percent. But I kind of want to double click on 
this because I think it is important to acknowledge that even 
fractions of percent matter when it comes to the census. So I 
was messing around on your census website. Do you know what 
percentage of the U.S. population is the state of Vermont?
    Mr. Jarmin. The State of Vermont.
    Mr. Kilmer. Yes.
    Mr. Jarmin. Less than a percent.
    Mr. Kilmer. It is 0.2 percent. How about the state of North 
Dakota?
    Mr. Jarmin. Even less than that.
    Mr. Kilmer. Yes.
    Mr. Jarmin. Yes.
    Mr. Kilmer. You know, as far as I could tell there is well 
over a dozen states that are less than a percent of the U.S. 
population. So if there was a question under consideration that 
would risk counting--not counting the people of Vermont or the 
people in North Dakota, would the U.S. Census consider having 
that in the list of questions on the census?
    Mr. Jarmin. So again, we want every resident in the country 
to fill out the census regardless of what questions are on the 
form. And that is what we are going to strive our best to do. 
We know that from past experience that we will fall short of 
that, and we will have lots of people out knocking on doors to 
do it the more expensive way. But, that is the goal of the 
Census Bureau, to get a complete and accurate count.
    Mr. Kilmer. Along those lines. So the district I represent 
is largely rural. We have a big city, Tacoma. We have got a, 
you know, Navy community Bremerton. We have got, you know, but 
we have got a large sort of geographic swath that is rural. We 
have 11 federally recognized tribes. And as you know, and I 
think part of the reason we are having this broader 
conversation around response rate is that a lot of federal 
funding is distributed for things like schools and hospitals 
and roads and public works and other vital programs. It is also 
used for things like the new market tax credit and the 
opportunity zone program, which is part of the tax bill. So I 
am hoping you can tell me how you plan to ensure that rural and 
tribal communities are accurately counted in the 2020 census.
    Mr. Jarmin. Thanks for that question. There is a couple 
ways. First of all we make sure that they have all the 
opportunities to respond to the census. It is not just the 
internet. Folks who have limited internet connectivity will 
have the opportunity to respond by phone or by paper. In many 
of those communities where we know that internet connectivity 
is low, we are going to send out paper forms earlier than we do 
in other areas.
    In very rural communities, we will use other operations, 
like update leave or update enumerate, although I don't think 
we do that in Washington State. Obviously, we work with tribal 
leaders, partnership activities with local folks in both big 
cities and small towns and in rural areas. So we will use a 
very tried and true method that we have used in the past to get 
to rural communities. And that is, just boots on the ground if 
needed, but also providing people with multiple modes to self-
respond to the census.
    Mr. Kilmer. Now, kind of along those lines there is--and 
you mentioned you were from Washington State, so Seattle is 
cooking economically--there are parts of the district I 
represent that are certainly feeling left behind by that 
growth. And you are seeing just dramatic change in the nature 
of our economy and the impacts to the workforce. Two questions 
in that regard. One, what efforts are the Census Bureau 
undertaking to measure adoption and impacts of technologies, 
whether it be AI or robotics and other things, and the 
potential geographic disparity and the cost and benefits of 
that?
    And then secondly to that end, in the late '80s and early 
'90s the Census had a standalone survey called the Survey of 
Manufacturing Technology. And I notice that you no longer run 
that survey. Is that something the Census Bureau would consider 
taking up again just to look at some of these differentiated 
impacts of economic change?
    Mr. Jarmin. Thanks for asking about something on the 
economic side of the census, which is where I came from.
    Mr. Kilmer. I saw your Ph.D.
    Mr. Jarmin. I actually have a little bit to do with some of 
this. This summer we will be fielding the first ever American 
Business Survey, which is an attempt to collapse several other 
surveys. And there is going to be a question on there about the 
use of some of these nascent technologies, machine learning, 
robotics and stuff like that. That will be asked of 850,000 
firms around the country in multiple industries. So obviously 
we are concerned not just about manufacturing, but retail and 
warehousing and what have you. That is going out this summer.
    There will be a similar question added to the Annual Survey 
of Manufacturers next year. And we would be happy to come down 
and discuss whether something like the Survey of Manufacturing 
Technology--I would urge that we would think more broadly that 
manufacturing is probably a good place to the see impact of 
these technologies, but it is not the only place we should be 
looking.
    Finally I think, we had the opportunity last January to 
meet with the American Economic Association's statistics 
committee during a lunch at the annual meetings and discussed 
some of these things. And I think one thing that we have got is 
some of those folks will be coming in and assisting us as, sort 
of special sworn employees, and using these new survey items to 
link to some of the other data that we have and try to get, to 
look at the impacts of these technologies on the workforce, on 
productivity growth, things that are critical to know how these 
technologies are impacting the economy.
    Mr. Kilmer. Cool. Thank you. I really appreciate it. And I 
yield back. Thank you, Chairman.
    Mr. Culberson. One of the reasons I enjoy this subcommittee 
so much and we all work together so well is we have superb 
members who add great clarity to the subjects we are working 
on. And I really appreciate your questions. Because none of us 
would want the State of Vermont to disappear, you know.
    Mr. Jarmin.----
    Mr. Culberson. Correct. None of us. And the reason I think 
we wanted to mention the one percent is I heard you say that 
you expected if there is any impact at all it is going to be 
far less than one percent is where that came from. None of us 
want to see any diminishment at all of participation in the 
census or anybody to be undercounted. We all want to make sure 
it is accurate. I think I understood the testimony you gave us 
is that you don't know of any--you haven't seen any direct 
evidence--you haven't seen the evidence that inclusion of this 
question in censuses in the past caused any reduction in 
participation.
    Mr. Jarmin. This is a difficult thing to measure with the 
data that we have at hand. And so I think that is why I sort of 
hedge on my answer of, predicting the future is because we----
    Mr. Culberson. Correct. But you haven't seen--you have seen 
no evidence of it in the past.
    Mr. Jarmin. Not large direct evidence, no.
    Mr. Culberson. That was the concern. And Ms. Meng is next. 
And then Mr. Cartwright who is--Mr. Cartwright is a superb 
attorney and he is good at these things too, as is Ms. Meng. So 
Ms. Meng.
    Ms. Meng. Thank you. Thank you, Mr. Chairman. I was just 
curious. I know we talked about the prohibition of sharing of 
individual information. To my knowledge during the Japanese 
interment situation in our country I believe that information 
was shared with block level data?
    Mr. Jarmin. I think that is correct, yes.
    Ms. Meng. And not individuals.
    Mr. Jarmin. There was also I think some limited sharing of 
some data that was individual level, but most of it was just 
data that was shared with the Army I believe was at the block 
level.
    Mr. Culberson. That is how the government found some of 
these folks and went out and rounded them up was through the 
census data?
    Ms. Meng. From what I have read they shared block level 
data, not individual data, as you mentioned was prohibited.
    Mr. Jarmin. Yes.
    Ms. Meng. Since then, and just to acknowledge that there is 
a concern that something similar could happen again that would 
further lead to fear and reason for people to be afraid of 
filling out that question or the form in general.
    Mr. Jarmin. We do rigorous disclosure avoidance procedures 
on all the data that we release. And we do release, block group 
level data right now from the American Community Survey, which 
is pretty low level geography. This is a constant tension 
between data users who want more accurate data at a more 
granular level and trying to protect the confidentiality of 
individual households. And so, this is--I think this is a more 
general conversation. Not just about the citizenship question, 
but a general conversation about what is the optimal amount of 
detail that would be released in statistical publications 
versus sort of the utility of that data.
    Ms. Meng. Yes. I mean I just think that many communities, 
not just immigrants, but many communities want assurances and 
deserve assurances that something like that which happened to 
American citizens would not ever happen again. So thank you for 
that.
    My other question, I wanted to--to ensure that the Census 
Bureau has a smooth transition between fiscal 2018 and 2019, 
the fiscal year 2018 omnibus provided half the funding that the 
Bureau needs in 2019 for the decennial census, as you know. And 
I wanted to get an idea of how the Bureau is planning to use 
these funds, what issues will the bill prioritize, and also the 
plan for communications, advertisements and working with local 
partnership groups?
    Mr. Jarmin. One of the concerns that we have been 
expressing all along is the threat of a continuing resolution 
at the beginning of fiscal 2019 that would have slowed down our 
efforts on getting the communications program underway. And so 
a couple of things that we are prioritizing this year with the 
omnibus appropriation is to start the planning earlier for some 
of those communications activities so that when October 1st 
comes around that we are hitting the ground running. We are 
also ramping up, accelerating the hiring of some of our 
partnership specialists so that we can get partnership 
activities underway around the country. And then we are also 
accelerating some of the scalability testing.
    So all of these things are things that we would have been 
doing anyway. But we want to move some of that into fiscal year 
2018 so that we can buy down some risk and get things started 
sooner so that we can hopefully save some money on the 
advertising budget and those sorts of things. This is really 
important, and we appreciate what the subcommittee and Congress 
more generally have done for us with this appropriation. I 
think that it is going to yield a lot of great benefits for us.
    Ms. Meng. And we will have commitment from the Bureau that 
we will work with appropriate communications specialists, 
experts, and local partnership groups that will be most 
effective in reaching out to a lot of these communities that 
are hardest to reach?
    Mr. Jarmin. Absolutely, that is the plan.
    Ms. Meng. Thank you. I yield back.
    Mr. Culberson. Thank you, Ms. Meng. And I want to reiterate 
as the Census Bureau has testified earlier, the form itself 
when people fill it out will say your data cannot and will not 
be shared with any other governmental entity. It is a felony 
for us to share your private information with anyone else, just 
to reassure people that they can answer the questions with 
confidence that their privacy will be protected and they are 
not going to be handed over to ICE or anybody else. Mr. 
Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman. So obviously and 
most of the questions you got here today, Dr. Jarmin, reflect 
our concerns that we don't waste our money, we don't waste 
American taxpayer money on an inaccurate census. And are people 
going to be undercounted because they are afraid to answer the 
questions? Are people going to be undercounted because they are 
hard to get to? Things like that. And I wanted to touch on 
that. Individuals living in rural areas are harder to get to, 
right?
    Originally the Bureau planned to conduct end to end testing 
in tribal, rural, suburban, and urban areas and collect 
information from 700,000 homes. But due to under funding of 
this dress rehearsal end to end testing is only happening in 
Providence, Rhode Island. Am I correct in that?
    [The information follows:]

    To clarify, uncertainty about the timing and levels of 
final FY 2017 appropriations required the Census Bureau to 
reduce the number of sites for the End-to-End Census Test from 
three to one. This allowed the Census Bureau to stay on the 
critical path for conducting the ``peak'' operations of the 
test.

    Mr. Jarmin. That is correct.
    Mr. Cartwright. And that is for about 200,000 homes instead 
of 700,000, right?
    Mr. Jarmin. That is correct. But we did conduct address 
canvassing operations in all those areas, including remote 
rural areas in West Virginia and some in Washington State.
    Mr. Cartwright. But not the end to end dress rehearsal 
test.
    Mr. Jarmin. Right.
    Mr. Cartwright. OK. So what are the significant differences 
between suburban and urban Providence and the many rural and 
remote areas in the United States? What gaps in understanding 
of participation rates do you anticipate because you only 
tested in Providence?
    Mr. Jarmin. I don't think we anticipate a lot of the 
methods that we will be using in rural areas are the same 
methods that we have used before. There will be multiple 
opportunities for people to self respond. If they can't use the 
internet they could use the telephone or the paper form, which 
is the same as they used before. We will have robust 
partnership and outreach activities in all those communities, 
especially in tribal areas. I am, fairly confident that we will 
be able to address those areas the same as we have in the past.
    Mr. Cartwright. Well, I get it that, you know, we did it 
this way before. But we want to get better at this as time goes 
on. In the last census, in the 2010 census, nearly a million 
children under the age of five in rural areas did not show up 
in the census. Unlike other age groups the count of young 
children appears to be increasingly less accurate. You are the 
expert at this, Doctor. What are the factors that make young 
children harder to count and what are the implications of under 
counting them?
    Mr. Jarmin. This is a focus area for us in this census. For 
The Undersecretary, Acting Deputy Secretary, this is her 
personal issue. I was at an event in Providence last week that 
focused on the undercount of young children and African 
American, young African American men. I think there are a host 
of issues. I am actually not an expert on the undercount of 
young children, but I do follow the debate. There are a number 
of issues. I think often young children are in what are already 
hard to count households. So they are often in a situation 
where there is a single parent. They may be living in a complex 
living situation.
    We will be working closely with our advertising folks and 
with local partnership and community organizations to try to 
make sure that we are reaching out to these folks where they 
are and sort of ensuring that they know that participating in 
the census is important not only for the adults in the 
household, but for the children in the household.
    Mr. Cartwright. We on this subcommittee are also very 
interested in making sure we have accurate cost estimates for 
the census because it is so important to get an accurate census 
for allocating important government resources, like Medicaid, 
Social Security, housing grants, things like that. You 
understand. I know the end to end test is underway in 
Providence right now. What information have you garnered from 
the ongoing test that may call into question the cost estimate 
from 2017? Is there going to be time to update the budget for 
the census after that Providence end to end test and before the 
2020 census is already underway?
    Mr. Jarmin. Right. We haven't reviewed all the data yet 
from the Providence test. I can say I don't think there have 
been any showstoppers that have us, sort of scratching our 
heads thinking that things aren't working the way we expected 
them to. So that is a good thing. But, we haven't completed the 
test yet and we haven't reviewed all of the data. We will be 
updating the life cycle cost estimate with the 2020 budget 
submission, and we will be using the information from the test 
to inform that update of the life cycle cost estimate.
    Mr. Cartwright. Are you going to be able to have enough 
time to make those assessments before 2020?
    Mr. Jarmin. I believe so. That is, yes, that is the plan.
    Mr. Cartwright. Thank you, Doctor. Mr. Chairman, I yield 
back.
    Mr. Culberson. Thank you, Mr. Cartwright. Mr. Serrano, any 
further questions? We will submit those for the record. We will 
submit any further questions we have for the record. I want to 
thank each and every one of you for your service to the 
country, your time and testimony here today. Yes, sir.
    Mr. Serrano. Unanimous consent to----

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
         
    Mr. Culberson. Yes. Without objection we are happy to 
submit those. Once again, thank you very much for joining us 
today.
    Mr. Jarmin. Thank you.
    Mr. Culberson. And we look forward to working with you in 
the months and years ahead. The hearing is adjourned. Thank 
you. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             [all]
                             
                             
                             
</pre></body></html>
